<html>
<title> - CONSIDER PENDING NOMINATIONS</title>
<body><pre>[Senate Hearing 110-1195]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 110-1195
 
                      CONSIDER PENDING NOMINATIONS 

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 2, 2007

                               __________

  Printed for the use of the Committee on Environment and Public Works


       Available via the World Wide Web: http://www.fdsys.gpo.gov

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

73-573 PDF                       WASHINGTON : 200?

For sale by the Superintendent of Documents, U.S. Government Printing 
Office, Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming\1\
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director
                                 ------                                

    \1\Note: During the 110th Congress, Senator Craig 
    Thomas, of Wyoming, passed away on June 4, 2007. Senator John 
    Barrasso, of Wyoming, joined the committee on July 10, 2007.



                            C O N T E N T S

                              ----------                              
                                                                   Page

                            OCTOBER 2, 2007
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Craig, Hon. Larry E., U.S. Senator from the State of Idaho.......     2
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     3
Isakson, Hon. Johnny, U.S. Senator from the State of Georgia.....     5
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     6
Baucus, Hon. Max, U.S. Senator from the State of Montana.........     6
Lautenberg, Hon. Frank, U.S. Senator from the State of New Jersey     9
Chambliss, Hon. Saxby, U.S. Senator from the State of Georgia....    10
Lieberman, Hon. Joseph, U.S. Senator from the State of 
  Connecticut, prepared statement................................    76

                               WITNESSES

Cochran, Andrew R., nominee for Inspector General, Environmental 
  Protection Agency..............................................    11
    Prepared statement...........................................    12
Bresland, John S., nominee for Board Member and Chairman of the 
  U.S. Chemical Safety and Hazard Investigation Board............    34
    Prepared statement...........................................    36
    Responses to additional questions from:
        Senator Sanders..........................................    37
        Senator Vitter...........................................    39
        Senator Lautenberg.......................................    40
        Senator Lieberman........................................    43
Shearer, C. Russell H., nominee for Board Member, U.S. Chemical 
  Safety and Hazard Investigation Board..........................    46
    Prepared statement...........................................    48
    Responses to additional questions from:
        Senator Boxer............................................    50
        Senator Lautenberg.......................................    51
        Senator Lieberman........................................    59
        Senator Cardin...........................................    59
Gilliland, Thomas C., nominee for Board Member, Board of 
  Directors of the Tennessee Valley Authority....................    69
    Prepared statement...........................................    70
    Responses to additional questions from Senator Boxer.........    70

                          ADDITIONAL MATERIAL

Statements:
    Williams, Susan R., reappointed TVA Board Member.............    77
        Responses to additional questions from Senator Boxer.....    78
    Graves, William H., reappointed TVA Board Member.............    81
        Responses to additional questions from Senator Boxer.....    82
Letters:
    U.S. Chemical Safety and Hazard Investigation Board..........    85
    Fiori, Mario P., Springfield, VA.............................   170
    Russo, Frank B., Leesburg, VA................................   172
    Amerine, David, B., Parsons senior vice president............   174
    Rollow, Tom, Fairfax Station, VA.............................   176
    
Emails, Shearer, Russell.........................................     1
Environment, Safety and Health Bulletins.........................   178


                      CONSIDER PENDING NOMINATIONS

                              ----------                              


                        TUESDAY, OCTOBER 2, 2007

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, the Hon. Barbara 
Boxer (chairman of the committee) presiding.
    Present: Senators Boxer, Craig, Baucus, Lautenberg, Cardin, 
Whitehouse, Isakson and Alexander.
    Also Present: Senator Chambliss.

STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE STATE OF 
                           CALIFORNIA

    Senator Boxer. The Committee will come to order.
    I want to welcome everybody, and Senator Craig will be 
sitting in as Ranking Member today for Senator Inhofe.
    I just wanted to place in the record something, because we 
had a little contention at the Committee when I wanted to 
invite Senator Mikulski up to the dais, and Senator Inhofe said 
this had never happened before. We went back in the record and 
found out on Wednesday, September 13, 2006, Chairman Inhofe 
invited and allowed Senator Alexander to sit immediately to 
Senator Inhofe's right, asked him to engage in questions. We 
will put this in the record, without objection, and the 
photographs that prove the point.
    The idea of doing this is that, I don't mind if we have 
disagreements, but let's not--let's get the facts right. So I 
just wanted to make the case that I will continue to run this 
Committee the way Senator Inhofe did, and these decisions will 
be made.
    Now I see Senator Chambliss is up here which is fine. Then 
I would ask that Senator Craig make a unanimous consent request 
to permit that, if he would.
    Senator Craig. I would so ask unanimous consent request to 
allow Senator Chambliss to be at the dais for the purposes of 
introduction.
    Senator Boxer. Is there any objection?
    We are making an exception here. Also I would state that, 
if there is no objection, I would certainly allow the Senator 
to stay here, if he wishes to ask any questions, if there is no 
objection to that. So ordered. We have a new day at the 
Committee, and isn't it nice to get along.
    [Laughter.]
    Senator Craig. Kumbayah.
    [Laughter.]
    Senator Boxer. So if you could put me back to five minutes, 
I will start my statement now.
    This morning, the Committee meets to consider the 
nomination of six individuals. We will first hear from Mr. 
Andrew Cochran of Virginia, who is nominated to be the 
Inspector General of the EPA. On the second panel, we will hear 
from Mr. John Bresland, of New Jersey, who is nominated to be 
both a member of the Chemical Safety and Hazard Investigation 
Board and its chairperson; Mr. C. Russell Shearer, nominated to 
be a member of that board. The second panel also includes Mr. 
Thomas Gilliland to be a member of the Board of Directors of 
the Tennessee Valley Authority. I can say to you, sir, you have 
strong support from members of your State.
    Two other reappointment nominations for the board of TVA, 
Susan Williams and William Graves, are not present today, but 
they have submitted the required paperwork.
    Mr. Cochran, I intend to carefully review your 
qualifications for this position. The EPA Inspector General 
must be an individual who is committed to protection of the 
environment as well as an effective investigator. You must also 
be willing to maintain an adequately sized staff of qualified 
individuals to help you succeed in your job. Congress and the 
American public rely upon the IG to be thorough and objective 
and determined to ensure that the EPA fulfills its mission.
    Mr. Bresland and Mr. Shearer, it is critical that the 
Chemical Safety Board maintain itself as an independent Federal 
agency that investigates industrial chemical accidents. This is 
highly technical work, it is important to providing a safe 
workplace and protecting the public and our Nation's economy. 
If confirmed, I would expect you both to be aggressive in 
reviewing effectiveness of regulations and regulatory 
enforcement that both avoid accidents and mitigate their 
impacts.
    We also, as I said before, have Mr. Thomas Gilliland, and 
your Senator, again, Senator Isakson, on this Committee, speaks 
very highly of you. I look forward to discussing with you your 
commitment to making sure that TVA demonstrates a commitment to 
environmental leadership including reducing greenhouse gases 
and addressing global warming.
    So that is my entire statement, and I will call on members 
in order of their appearance, but of course, I will turn it 
over to Senator Craig, who is sitting in for the Ranking.

STATEMENT OF HON. LARRY E. CRAIG, U. S. SENATOR FROM THE STATE 
                            OF IDAHO

    Senator Craig. Madam Chairman, first and foremost, thank 
you for scheduling this hearing and getting these nominees or 
renominations before the Committee, I think they and we 
appreciate it, in a timely fashion. As you have already 
mentioned, the Ranking Member, Senator Inhofe, has asked that I 
stand in this morning, at least for a period of time, as we 
start this hearing.
    So first and foremost, congratulations to each of the 
nominees before us today. I am pleased that we are having these 
hearings at this time.
    Since March 2006, the EPA has been without a confirmed 
Inspector General. This is a critical position, as the Chairman 
has already mentioned, that needs to be filled, in my opinion, 
and I think the opinion of everyone, as soon as possible. The 
Chair has had some concern in the past over similar candidates' 
auditing experiences. Andrew Cochran is a well-qualified 
candidate with a lot of experience, in my opinion, in auditing. 
He served as senior counsel for oversight and investigations on 
the Committee on Financial Services for the United States House 
of Representatives, and as audit division director and senior 
analyst at the Office of Inspector General at the Department of 
Commerce. That certainly appears, in this position, to be high 
qualifications. This type of experience obviously is critical 
to an inspector general.
    Let me welcome the other three nominees that are before the 
Committee for the first time: Thomas Gilliland, to be a board 
member of the Tennessee Valley Authority, and as has already 
been said, both Senators Chambliss and Isakson will introduce 
him. I therefore gather he is from Georgia.
    [Laughter.]
    Senator Craig. Russell Shearer, to be a member of the 
Chemical Safety and Hazard Investigation Board; and John 
Bresland to be the Chairman of the Chemical Safety and Hazard 
Investigation Board.
    So again, Madam Chairman, thank you very much for holding 
this hearing.
    Senator Boxer. Thank you, Senator Craig, for sitting in for 
Senator Inhofe.
    Now we will go in order of arrival and back and forth, of 
members of the Committee, then we will get to Senator 
Chambliss.
    Senator Cardin.

 STATEMENT OF HON. BENJAMIN L. CARDIN, U. S. SENATOR FROM THE 
                       STATE OF MARYLAND

    Senator Cardin. Madam Chair, thank you very much. I welcome 
the nominees today, and I thank them for being willing to serve 
in these very important public positions.
    Madam Chair, I just really want to underscore the point 
that you made, the positions that we are considering today are 
very important for the health and safety of the people of this 
Country. When I think back, Nikki Tinsley and her role as 
Inspector General, in being aggressive in looking after the 
appropriate role for EPA, I just urge Mr. Cochran, when we talk 
today about your willingness to act as an independent person, 
willing to take on a President or an Administration.
    Your term, if confirmed, will go beyond the term of this 
Administration. So the continuity in the Inspector General's 
office, to me, is a very important standard. I hope that you 
will be prepared to assure this Committee that your sole 
responsibility will be to make sure the laws are carried out, 
and willing to take on whomever to make sure that in fact takes 
place.
    The other nominees are for extremely important positions 
concerning public safety. Some come with experience, others do 
not. I hope that again, during the course of the confirmation 
process, that you will address the issues of the independence 
of your position of representing the public and not an 
Administration, because I think that is the key role of each of 
the nominees, of the positions that you are seeking.
    Madam Chair, I will ask that my statement be made part of 
the record, and I thank you very much for the opportunity to 
make these opening comments.
    [The prepared statement of Senator Cardin follows:]
      Statement of Hon. Benjamin L. Cardin, U.S. Senator from the 
                           State of Maryland
    Madame Chairman, thank you for holding this hearing today.
    I approach every Presidential nominee with a bias toward supporting 
that person. Public service is a great honor and it often comes at some 
significant personal sacrifice.
    I want to support nominees, and I am sure that I will support most, 
and perhaps all, of the nominees before the Committee today.
    Some of the people before the Committee today, quite frankly, need 
to put some of our concerns to rest before I'll support them.
    The Inspector General of the U.S. Environmental Protection Agency 
is one of the lesser known leaders in the EPA, but the role can be an 
incredibly important one for the Agency and for the County.
    We saw during the tenure of Nikki Tinsley that the EPA IG can be an 
important catalyst within the Agency. Her greatest strength was to 
undertake aggressive, insightful programmatic reviews of EPA's actions.
    The IG has to be independent. That person and his or her staff need 
to bring strong, independent knowledge to the job. We all benefit when 
EPA's own internal watchdog is constantly pressing the Agency to 
organize its work around its core missions and to do so in the most 
effective and efficient fashion possible.
    The attributes that make up an excellent IG are
    <bullet> a person of the highest integrity,
    <bullet> a person with a passion for the mission of the Agency, and
    <bullet> a person who is willing to make other Agency leaders 
uncomfortable from time-to-time.
    Mr. Cochran, you have been nominated to this important position. We 
will be looking to you to address forthrightly how you fit that 
profile.
    That means you need to convince us that the concerns about the use 
of federal funds for lobbying by your employer are unfounded.
    You need to convince us that you will bring a sense of independence 
to the job. That means criticizing Bush Administration policies at EPA 
if you find that they are not working efficiently and effectively to 
protect human health and the environment, which is the core mission of 
EPA.
    This Senator and this Committee will demand a similar level of 
excellence in the other nominees that we will be hearing from today.
    Mr. Shearer, do you have a commitment to safety in the chemical 
industry and sufficient independence to tackle tough cases?
    Unlike Mr. Bresland, another nominee to the Chemical Safety Board 
before us today, you do not bring relevant private sector employment 
history to the job. You have held a number of positions within the 
present Administration, and the President should be given great 
deference in picking his team.
    But you are being nominated to a five-year term on the Chemical 
Safety Board. There you to do more than carry out Administration's 
policies. You need to exercise independent judgment and provide dynamic 
leadership to a small but vitally important group.
    Today we will be listening carefully to learn how you will 
demonstrate such independent judgment and leadership.
    Madam Chairman, the nominees that we are considering are being 
asked to play a key role for all Americans. We owe it to the nation to 
make sure that the nominees we are considering meet the highest 
standards of public service.
    I look forward to hearing from our nominees and to today's 
discussion.
    Thank you, Madame Chairman.

    Senator Boxer. Thank you so much. I would ask unanimous 
consent that the extra 2 minutes that you did not use go to 
Senator Baucus, because I think he may need a little extra 
time. If you need them, then you will have 7 minutes for your 
statement.
    Senator Baucus. Thank you.
    Senator Boxer. Senator Isakson.

STATEMENT OF HON. JOHNNY ISAKSON, U. S. SENATOR FROM THE STATE 
                           OF GEORGIA

    Senator Isakson. Thank you, Madam Chairman. I want to at 
the outset acknowledge my deep appreciation to you and Bettina 
for the cooperation you have given in allowing Tom Gilliland, 
our appointee-designate to the TVA Board's hearing to be held 
today. You have been a tremendous help to me and I am greatly 
appreciative of that.
    I am greatly appreciative of the opportunity to brag about 
somebody who is a deep personal friend of mine. A lot of time 
when you are up here, and somebody from your State has been 
nominated for something, you read from a script that they 
provide you, and you are as sincerely as you can complimentary 
of someone who know tacitly and not really very well.
    I know this gentleman extremely well. I have known him for 
40 years. He is an outstanding graduate of the University of 
Georgia and has a Juris Doctor degree from Emory University, 
Phi Beta Kappa. He married way over his head when he married 
Candy----
    [Laughter.]
    Senator Isakson [continuing]. They have two beautiful, 
handsome sons who, I must inject, only as I told them last 
night, their two sons, both are at Yale, both scored 1600 on 
the SATs. They are outstanding individuals. You could have 
squared my SAT score and it wouldn't have gotten to 1600.
    [Laughter.]
    Senator Isakson. I am just tremendously impressed with 
that.
    But Tom served as Chief of Staff to Lieutenant Governor 
Peer Howard, a Democrat who was one of my best friends in 
college. He has been appointed by both Democrat and Republican 
governors of Georgia to the Stone Mountain Authority. He has 
been an advisor on the transition team in terms of Lieutenant 
Governor Casey Kagel. He is No. 2 man at the third largest bank 
in the State of Georgia, United Community Bank. He is a lover 
of the environment, he is appreciative of business, he is 
appreciative of the opportunities that this great Country gives 
to us. I can assure you, there could be no better qualified 
individual to serve on the board of TVA than Tom.
    Lastly, I have only put one hold on one bill in my career 
in the U.S. Senate. Unbeknownst to me, it was the Majority 
Leader's bill 2 years ago, and that was Majority Leader Frist, 
when he introduced the recomposition of the TVA board. Citizens 
of Georgia have for years not been represented ever on the TVA 
board, and we constitute a part of the TVA service, and all 10 
of our border counties with Tennessee, their EMCs derive their 
power from TVA.
    I am very appreciative of former Majority Leader Bill 
Frist, Senators Lamar Alexander and Bob Corker from Tennessee, 
the other States represented who came together and felt like it 
was right for the State of Georgia to be represented, and to 
Tom Kilgore, the now-Chairman and operating officer of the TVA 
Authority for having been so courteous as to call me and let us 
know when an opening came to consider Mr. Gilliland for this 
place.
    So it is a privilege for me to introduce a distinguished 
citizen of our State, one who will do a good job in a 
tremendously important responsibility. Again, I want to thank 
the Chairman at the end for what I said at the beginning, for 
all her cooperation in making this happen today.
    Senator Boxer. Thank you so much, Senator. It was a 
pleasure to work with you.
    Senator Whitehouse.

  STATEMENT OF HON. SHELDON WHITEHOUSE, U.S. SENATOR FROM THE 
                     STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Madam Chair.
    I just want very briefly to relate that in a discussion 
that I had with Mr. Cochran, he indicated that he saw his role 
in the Inspector General position at EPA as more than just 
protecting that agency against financial mis-deeds or 
defalcations, but also to have a role in ensuring that there 
was process integrity in its regulatory function, to make sure 
that there was not impropriety in the weight that was given, 
for instance, to industry views that the rules and regulations 
were followed, and that it was an agency in which both 
environmental and business interests could claim a fair shot.
    I think that is a very important point, and I am delighted 
that he sees his role that way. I wanted to make a record of 
it.
    If I may ask unanimous consent that an article from the 
Washington Post entitled Bush's EPA is Pursuing Fewer 
Polluters, By A Full-Third from Sunday, September 30, 2007, be 
made a part of the record.
    Senator Boxer. Without objection, so ordered.
    [The referenced material was not available at time of 
print.]
    Senator Whitehouse. That concludes my statement. Thank you, 
Madam Chair.
    Senator Boxer. Thank you.
    Senator Baucus.

 STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE STATE OF 
                            MONTANA

    Senator Baucus. Thank you, Madam Chairman.
    I thank you for calling this hearing. I look forward to 
hearing from all the nominees. However, I am going to direct my 
comments to Mr. Cochran.
    The Roman writer Juvenal famously asked, ``Who will guard 
the guards?'' The Environmental Protection Agency's mission is 
to guard human health and the environment. Mr. Cochran, if 
confirmed as Inspector General of EPA, you will have to watch 
the guards. Across the Country, people will look to you to hold 
EPA's feet to the fire and ensure that EPA is keeping us safe.
    Nowhere is this truer than in Libby, MT. I will support 
your nomination if I am certain in your ability to display 
independence and toughness. Regardless of what political party 
controls EPA, the people of Libby and the people across America 
deserve nothing less.
    Libby has been twice wronged. For decades, W.R. Grace's 
vermiculite mill in Libby spewed toxic tremolite asbestos into 
the air. They gave it to residents to put on their lawns. They 
even spread it on high school tracks. Over 200 people in Libby 
have died from asbestos-related disease because of W.R. Grace.
    Unfortunately, the tragedy has not ended for the people of 
Libby. Despite the best efforts of EPA staffers on the ground, 
one I will mention, Paul Parronard, the agency leadership has 
made serious mistakes. In August 2006, I asked the Inspector 
General of EPA to review EPA's work in Libby. What the report 
found was truly outrageous. After 7 years, EPA has failed to 
complete the necessary toxicity studies to determine the safe 
level of human exposure to Libby amphibole. They failed to 
conduct the toxicity tests to determine how safe is safe. This 
means that after 7 years, EPA still cannot say how clean they 
need to make the homes and the businesses to protect the 
families in Libby.
    Why were these studies never done? According to a 2006 
Inspector General report, EPA scientists requested the studies, 
but EPA's budget office did not approve their request. EPA cut 
corners to save a buck.
    The review also found that EPA had given the people of 
Libby dangerously inaccurate information in so-called comfort 
letters. EPA told homeowners that their homes were clean, when 
in fact EPA had no idea what level of exposure to Libby 
asbestos is safe.
    EPA also published documents such as ``Living with 
Vermiculite,'' telling people it was okay to sweep up asbestos-
laced vermiculite attic insulation in their homes. An outrage.
    I am also concerned by EPA's decision not to declare a 
public health emergency in Libby. According to press reports, 
EPA was prepared to declare a public health emergency in Libby 
in the spring 2002. Administrator Whitman was so inclined. 
Declaring a public health emergency in Libby would have given 
the agency clear authority to remove all vermiculite attic 
insulation in homes in Libby. That declaration of public health 
emergency would have also required the Agency for Toxic 
Substances and Disease Registry to provide some level of 
medical care for people in Libby. A huge problem. Now they 
don't get the care. That declaration would also have 
implications nationwide.
    However, according to press reports, the Office of 
Management and Budget intervened and EPA never declared a 
public health emergency. Once again, EPA and OMB put saving a 
buck ahead of the people of Libby.
    Mr. Cochran, I hope I have impressed upon you, I am sick of 
the bean counters at OMB and EPA cutting corners in Libby to 
save money. According to your resume, you have extensive 
experience as an auditor, looking for financial waste. That is 
important. But quite frankly, it is not what is most needed in 
that job of Inspector General. The people of Libby and I am 
sure elsewhere in the Country need an Inspector General that 
will put them first. The people of Libby need someone whose 
first thought isn't what is cost-efficient, but rather, someone 
whose first thought is what is right.
    I will be looking to see if you are that kind of person. 
Thank you, Madam Chairman.
    [The prepared statement of Senator Baucus follows:]
  Statement of Hon. Max Baucus, U.S. Senator from the State of Montana
    Chairman Boxer, thank you for calling this hearing. I would also 
like to thank the nominees for their willingness to serve.
    I look forward to hearing all of the nominees' testimony. However, 
I will direct my comments to Mr. Cochran.
    The Roman writer Juvenal (Jew-ven-all) famously asked, ``who will 
guard the guards?''
    The Environmental Protection Agencies' mission is to guard human 
health and the environment.
    Mr. Cochran, if confirmed as Inspector General of the EPA, you 
would have to watch the guards. Across the country, people would look 
to you to hold EPA's feet to the fire and ensure that the EPA is 
keeping us safe.
    Nowhere is this truer than in Libby, Montana. Mr. Cochran, I will 
support your nomination if I am certain in your ability to display 
independence and toughness. Regardless of what political party controls 
the EPA, the people in Libby and across America deserve nothing less.
    Libby has been twice wronged. For decades the W.R. Grace 
vermiculite mill in Libby spewed toxic tremolite asbestos into the air. 
They gave it to residents to put on their lawns. They even spread it on 
the high school track. Over 200 people in Libby have died from asbestos 
related disease because of W.R. Grace.
    Unfortunately, the tragedy has not ended for the people of Libby. 
Despite the best efforts of EPA staffers on the ground, the Agency 
leadership has made serious mistakes.
    In August of 2006, I asked the Inspector General to review EPA's 
work in Libby. What the report found was truly outrageous. After seven 
years, EPA has failed to complete the necessary toxicity studies to 
determine the safe level of human exposure to the Libby amphibole.
    This means that after seven years, EPA still cannot say how clean 
they need to make the homes and businesses to protect the families in 
Libby.
    Why were these studies never done? According to the 2006 Inspector 
General report, EPA scientists requested the toxicity studies, but 
EPA's budget office did not approve their request. The EPA cut corners 
to save a buck.
    The review also found that EPA had given the people of Libby 
dangerously inaccurate information. In so called ``comfort letters,'' 
EPA told homeowners that their homes were clean, when in fact EPA has 
no idea what level of exposure to Libby asbestos is safe.
    EPA also published documents such as ``Living with Vermiculite,'' 
telling people that it was ok to sweep up asbestos laced vermiculite 
attic insulation in their homes. This is an outrage.
    I am also concerned by EPA's decision not to declare a Public 
Health Emergency in Libby. According to press reports EPA was prepared 
to declare a Public Health Emergency in Libby in the spring of 2002. 
Declaring a Public Health Emergency in Libby would have given the 
Agency clear authority to remove all Zonolite Attic Insulation in homes 
in Libby.
    The declaration of Public Health Emergency also would have required 
the Agency for Toxic Substances and Disease Registry (ATSDR) to provide 
some level of medical care for people in Libby.
    However, according to press reports, the Office of Management and 
Budget intervened and EPA never declared a Public Health Emergency. 
Once again EPA and OMB put saving a buck ahead of the people of Libby.
    Mr. Cochran, I hope I have impressed upon you that I am sick of the 
bean counters at OMB and EPA cutting corners in Libby to save money.
    According to your resume, you have extensive experience as an 
auditor looking for financial waste. This is an important skill. But, 
quite frankly, it is not what is most needed in Libby.
    The people of Libby need an Inspector General that will put them 
first. The people of Libby need someone who's first thought isn't 
``what is cost efficient'' but rather someone who's first thought is 
``what is right.''
    I will be looking to see if you are that kind of person.

    Senator Boxer. Senator, thank you.
    Senator Lautenberg.

STATEMENT OF HON. FRANK LAUTENBERG, U.S. SENATOR FROM THE STATE 
                         OF NEW JERSEY

    Senator Lautenberg. Madam Chairman, if our colleague, other 
colleague from Georgia has any particular----
    Senator Boxer. Well, I am going to wait until all the 
members of the Committee are heard first.
    Senator Lautenberg. I agree with you.
    [Laughter.]
    Senator Lautenberg. I wanted to be able to criticize Saxby, 
actually.
    Anyway, it was offered in good nature. I am satisfied that 
we go on with our business.
    Madam Chairman, thanks for holding today's hearing on the 
nominations for the positions at EPA and Chemical Safety Board 
and Tennessee Valley Authority. The role as defined by Senator 
Baucus is a recitation, I think, of something we said years 
ago, applies so well, and that is, you know, Mr. Cochran, that 
you have the responsibility of watching the watchers and making 
sure that they do their job, to coin a phrase. We see problems 
that we have had at EPA with problems of management of programs 
and where there are arbitrary decisions made not to meet the 
standards that were set down in programs that they have.
    Now, that is a fairly delicate area, I will admit. But the 
fact of the matter is that I would hope that your mission is to 
do everything that they are supposed to do as honestly and 
efficiently as can be done. I am concerned about something, Mr. 
Cochran, because the objectivity, the independence of the 
Inspector General is a critical issue. I will be looking for 
that independence and dedication.
    But I will ask you this. You are a member, an officer of 
the Federalist Society. They are not particularly supportive of 
environmental regulation that is often proposed or in place 
now. I wonder, and we will talk about that when I have a chance 
to ask you a question, I wonder what kind of an influence you 
bring as a result of your affiliation with that organization.
    Regarding the Chemical Safety Board, it was 1990, Madam 
Chairman, when Senator Durenberger and I created the Chemical 
Safety Board. It took until 1997 to get some funding for it. 
Our mission was to have the Board investigate the causes of 
serious accidents at chemical plants, oil refineries, 
industrial facilities, and make recommendations on how to 
better protect workers and the public. Those nominations come 
at a critical time for the Board. Former Chairperson Carolyn 
Merritt showed excellent leadership at the Chemical Safety 
Board, and we have to make sure that her work, excellent work, 
continues. Both nominees for the Chemical Safety Board must 
demonstrate that they are fully committed to protecting the 
safety of workers and the public from the potential dangers of 
a chemical accident.
    I chaired a subcommittee hearing on the Chemical Safety 
Board and its work just this past July. Several witnesses said 
that we need more board members with a background in chemical 
process safety. Mr. Bresland has already served on the Board 
for 5 years, has a long history of working on chemical process 
safety issues in the private sector. But I am less convinced, 
Madam Chairman, about Mr. Shearer's qualification. While he 
served as an attorney in several positions related to toxic 
chemicals in the Department of Defense and Energy, he has no 
obvious background, apparent background in chemical process 
safety, which is a primary focus of the Chemical Safety Board.
    So finally, when the Tennessee Valley Authority, while they 
have no direct impact on the State of New Jersey, its 
generation of electricity affects our climate and therefore all 
Americans. As nominee for its Board, Thomas Gilliland can play 
a critical role in the reduction of carbon emissions of TVA 
plants. So I look forward to learning about how he intends to 
do that. Madam Chairman, thank you again for calling this 
hearing.
    Senator Boxer. Thank you very much, Senator.
    Now, Senator Chambliss. Welcome.

STATEMENT OF HON. SAXBY CHAMBLISS, U.S. SENATOR FROM THE STATE 
                           OF GEORGIA

    Senator Chambliss. Thank you very much, Madam Chairman. I 
appreciate your courtesy of allowing me to be here this morning 
to share the introduction of a great Georgian with my long-time 
dear friend, my colleague, Johnny Isakson.
    I am very proud to introduce a fellow University of Georgia 
graduate, a man who has distinguished himself in our State over 
the last number of decades, and I want to give my wholehearted 
support to the nomination of Tom Gilliland to the TVA Board. 
Tom has been a friend for many years. His financial background 
and judicious demeanor make him well-qualified to sit on this 
very important Board. Tom is the Executive Vice President, 
Secretary and General Counsel for United Community Banks, which 
is the third largest bank holding company in our State. 
Therefore, from a financial background standpoint, he certainly 
has the qualifications to sit on this Board.
    In addition, Tom lives in the TVA service area. He and his 
wife live in Blairsville, GA, which is a very beautiful part of 
our State. He is very knowledgeable about the environmental, 
recreation and power resources provided by TVA. In addition, as 
a businessman, he knows and understands the economic impact 
that TVA has on our State and the entire region it serves.
    I am particularly pleased the Committee is considering 
Tom's nomination, because although over 100,000 Georgia 
households are served by TVA, the State of Georgia has never 
been represented on this Board. TVA provides power to customers 
in 10 counties in our State, served by 3 electric membership 
corporations. TVA also has reservoirs located in Georgia as 
well. These reservoirs have a combined surface area of 14,522 
acres and 300 miles of shoreline.
    Finally, Georgia is home to over 750 TVA retirees and their 
families. Clearly, there are a number of ties between North 
Georgia and the TVA. Tom's confirmation to the TVA Board will 
enhance the existing relationship, and I believe he will be a 
great asset to the TVA Board.
    So I thank you for allowing me the opportunity to introduce 
my friend, Tom Gilliland. I believe you will find him worthy of 
the position for which he has been nominated, and I urge you to 
move his nomination very quickly.
    Senator Boxer. Thank you very much, Senator.
    We are now going to start 5-minute rounds of questions. I 
am going to switch places with Senator Baucus, who has some 
commitments that he needs to fulfill. So I will start it off 
with Senator Baucus. Oh, you want to have the statement first. 
Go ahead, sir.

STATEMENT OF ANDREW R. COCHRAN, NOMINEE FOR INSPECTOR GENERAL, 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Cochran. Good morning, Madam Chairman and distinguished 
members of the Senate Committee on Environment and Public 
Works. I am Andrew Cochran, and I am honored to appear before 
you today as the nominee for Inspector General at EPA.
    I am grateful to the President and EPA Administrator Steven 
Johnson for this opportunity. If confirmed, I look forward to 
working with EPA, this Committee and the entire Congress as an 
independent, objective voice to assess and report upon EPA's 
work to efficiently and economically improve human health and 
environmental quality.
    The Inspector General Act mandates the selection and 
confirmation of Inspectors General ``without regard to 
political affiliation and solely on the basis of integrity and 
demonstrated ability in accounting, auditing, financial 
analysis, law, management analysis, public administration, or 
investigations.'' I have years of experience and 
accomplishments in five of the seven named areas of expertise 
in the Executive Branch and on Capitol Hill.
    Since 2004, I have represented private sector firms and the 
concerns of terrorism victims, victims of Libyan-sponsored 
terrorism in the 1980s, Hamas terrorism in the West Bank and 
Gaza, and the victims of 9/11 before Congress and the Executive 
Branch to fight for the approval of beneficial legislation that 
would help them seek justice in sole litigation.
    I also started and direct the counter-terrorism blog, one 
of the premier online centers in the world, for the 
dissemination of objective and independent terrorism and 
counter-terrorism news and analysis. During my nearly 11 years 
with the Commerce Department Inspector General's Office, I 
directed numerous audits and inspections that significantly 
improved the management of Commerce Department programs, 
reported on important policies and procedures, or resulted in 
significant cost savings.
    As the first director of the NOAA performance audit 
division, I directed the first performance audit of a regional 
fishery and management decision by the North Pacific Fishery 
Management Council in 1992. We found violations of the National 
Environmental Policy Act, Magnuson Fishery and Conservation 
Act, as it was then known, and an important executive order on 
cost benefit analysis. Senator Baucus, in my oral exit 
conferences with senior departmental and NOAA officials, I told 
them that the proposed amendments by the North Pacific Fishery 
Management Council were unacceptable and indefensible. Despite 
heavy pressure from the allies of the Council, we stuck by our 
guns. We implemented the findings and recommendations and 
worked with NOAA to implement those recommendations. NOAA 
turned down the proposed amendment and came back with new 
amendments.
    The Inspector General awarded me the bronze medal, the 
highest award in the OIG, for that report. Senator Baucus, 
based on what I read about Libby, the situation there, it is 
unacceptable and indefensible. My reports on that Council and 
other reports, numerous other reports, provided our expert and 
unbiased opinion on an important decision or standard practice 
without quantifiable cost savings.
    Three peer reviews conducted by other departments concluded 
that audits issued under my direction met generally accepted 
Government auditing standards. In March 2001, I was selected as 
the first senior oversight counsel for the House Financial 
Services Committee, and was lead counsel for the first 
Congressional hearings on Enron, Global Crossing and WorldCom.
    I have enjoyed working with many outstanding inspectors 
general in the past 24 years. Their examples of a commitment to 
professional excellence, professional and personal courtesy 
will guide me in the years ahead. If confirmed, I will seek the 
advice of the respected veterans now serving as inspectors 
general.
    I assure the Committee that should I be confirmed, I will 
faithfully and independently discharge my duties to uphold the 
legacy established by so many in the position. To quote from a 
July hearing chaired by Senator Lieberman, I will be a 
watchdog, not just a junkyard dog or lapdog.
    The EPA stands as the Federal guardian protecting our 
environmental resources. I am truly excited at the prospect of 
serving as the Inspector General of that agency, which has a 
direct impact on the health and safety of all Americans every 
day. An Inspector General can serve as a positive force for 
change, and if confirmed, I pledge to continue the OIG's record 
of honorable achievements and service to the taxpayers.
    If confirmed, I will work in a constructive, respectful 
atmosphere with the OIG employees, EPA management, Congress and 
other stakeholders. I will direct the work of the OIG in 
accordance with the high standards, principles and traditions 
of the profession. I will maintain frequent and open 
communications with EPA management and the Congress, and will 
report significant problems to the Congress when uncorrected by 
EPA.
    I want to thank my family, friends and associates, 
especially my wife, who is watching with her mother at home. 
Madam Chairman and members of the Committee, this concludes my 
statement. I look forward to your questions.
    [The prepared statement of Mr. Cochran follows:]
    Statement of Andrew R. Cochran, Nominee for Inspector General, 
                    Environmental Protection Agency
    Good morning, Madam Chairman and distinguished Members of the 
Senate Committee on Environment and Public Works. I am Andrew Cochran 
of Springfield, VA, and I am honored to appear before you today as the 
nominee for Inspector General of the Environmental Protection Agency.
    I am grateful to President Bush and EPA Administrator Steven 
Johnson for offering this opportunity. If confirmed, I look forward to 
working with EPA, this Committee, and the entire Congress as an 
independent, objective voice to assess and report upon EPA's work to 
economically and efficiently improve human health and environmental 
quality. The Inspector General Act mandates the selection and 
confirmation of Inspectors General ``without regard to political 
affiliation and solely on the basis of integrity and demonstrated 
ability in accounting, auditing, financial analysis, law, management 
analysis, public administration, or investigations.'' I have years of 
experience and accomplishments in five of the named areas of expertise. 
I practiced law and public accounting in the private sector; advised 
the Deputy Secretary of Commerce in the 1980s of potential improvements 
and budgetary savings in Commerce Department operations; conducted 
numerous program analyses and audits as a career professional in the 
Commerce Department's Office of Inspector General; and conducted 
Congressional investigations into corporate accounting and stock 
offering irregularities as senior oversight counsel of the House 
Financial Services Committee. Since 2004, I have represented the 
concerns of terrorism victims, homeland security-related firms, and 
high-tech companies before Congress and the Executive Branch. working 
to obtain bipartisan approval of beneficial legislation and 
regulations. I also started and still direct one of the premier online 
centers in the world for the dissemination of independent and objective 
terrorism and counterterrorism news and expert analysis. Much of my 
professional success has involved reaching across the aisle to build 
coalitions with parties of different interests and desires.
    I wish to focus on the nearly 11 years, from 1990 to 2001, during 
which I was a career professional in the Commerce OIG. I directed 
numerous audits and inspections that significantly improved the 
management of Commerce Department programs, reported on important 
policies and procedures, or resulted in significant cost savings. I was 
the first director of a performance audit division focused totally on 
the operations of NOAA, the National Oceanic and Atmospheric 
Administration. In that role I directed the first performance audit of 
a regional fishery management allocation decision by NOAA and a fishery 
management council. I have already provided a copy of the report on the 
fishery management allocation decision to the Committee. The Inspector 
General awarded me the Bronze Medal, the highest award in the OIG, for 
that report. I also directed the first OIG audit of a range of export 
licensing decisions; the first OIG audit of a spectrum licensing 
decision (which affected development of the then-infant digital 
messaging industry); and the first OIG audit report to recommend that 
an official Commerce Department publication should be disseminated 
entirely on the Internet (in 1999). These reports provided our expert 
and unbiased opinion on an important decision or standard practice, 
without quantifiable cost savings. They were among a number of highly 
sensitive audits that) directed and, along with many others, included 
findings and recommendations that were unwelcome within the audited 
agency. But when I left the Commerce OIG in 2001, all of the 
recommendations in my final performance audit reports had been 
resolved. I also directed audits that, in total, saved tens of millions 
of dollars for the taxpayer. Three peer reviews conducted by other 
departments during my tenure concluded that audits issued under my 
direction were conducted in compliance with generally accepted 
government auditing standards.
    In March 2001, I was selected as the first senior oversight counsel 
for the new House Financial Services Committee and served there during 
the period covering the 9-11 attacks and the corporate accounting 
scandals. I was lead counsel for hearings and investigations into 
terrorism issues and the accounting scandals, including the first 
Congressional hearings on the accounting issues at Enron, Global 
Crossing and WorldCom. During my tenure, I worked in partnership with 
Democratic committee staff to ask GAO and the Inspectors General of 
Treasury, HUD, and the federal financial regulators to conduct audits 
and report to Congress on issues such as the response of the regulators 
and financial markets to the 9-11 attacks; the protection of critical 
infrastructure from future attacks and disasters; mismanagement of 
public housing authorities; single-family mortgage fraud; and the 
search for dictators' assets hidden throughout the world.
    My high respect for the men and women who occupy the position of 
Inspector General, and for the standards governing their conduct and 
performance, started with my first positions here in Washington. During 
the summer of 1979, I was a Congressional intern for my Congressman 
from Ohio, the Honorable Clarence J. Brown, who was an original co-
sponsor of the Inspector General Act of 1978. In 1983, he became the 
Deputy Secretary of Commerce, and I left the Cincinnati office of 
Arthur Andersen & Co., where I had practiced as a CPA, to assist him in 
overseeing the management of the Department of Commerce.
    I have enjoyed working with many outstanding Inspectors General on 
management issues over the past 24 years, from Sherman Funk at the 
Commerce Department in the 1980s, to Gaston Gianni and Jeffrey Rush 
when I was at the House Financial Services Committee. These examples of 
a commitment to professional excellence, independence, and personal 
courtesy will guide me in the years ahead and, if confirmed, I will 
seek the advice of the respected veterans now serving as Inspectors 
General. I assure the Committee that, should I be confirmed, I will 
faithfully and independently discharge my duties to uphold the legacy 
established by so many in the position. To quote from the recent 
hearing chaired by Senator Lieberman to consider how to strengthen the 
role of Inspectors General, I will be neither a lapdog nor a junkyard 
dog, but a watchdog.
    The Environmental Protection Agency stands as the Federal guardian 
protecting our environmental resources, and I am excited at the 
prospect of serving as the Inspector General of this agency, which has 
a direct impact on the health and safety of all Americans every day. 
The taxpayers of our nation need an Office of Inspector General of 
committed, trained, assertive, and competent professionals to prevent 
and detect waste, fraud, and abuse in the delivery of EPA's services. 
An Inspector General can serve as a positive force for change and, if 
confirmed, I pledge to continue the OIG's record of honorable 
achievements and service to the taxpayers.
    If confirmed, I will work constructively in a respectful atmosphere 
with the OIG employees. EPA management, Congress, and other 
stakeholders. I will direct the work of the OIG in accordance with the 
high standards, principles, and traditions of the profession. I will 
maintain frequent and open communications with EPA management and the 
Congress, and will report significant problems to the Congress when 
uncorrected by EPA.
    Madam Chairman and members of the Committee, this nomination 
provides me with the opportunity to serve the nation as a federal 
management expert at the highest level of an Executive Branch agency. 
Thank you again for holding this hearing to consider my nomination, and 
I look forward to your questions.

    Senator Boxer. Senator Baucus.
    Senator Baucus. Thank you.
    Mr. Cochran, why do you want this job?
    Mr. Cochran. I was a management wonk long before I was a 
counter-terrorism wonk. I have years of experience in the area, 
far more than any other field. An inspector general position in 
an Executive Branch agency is one of the highest honors that a 
management and budget expert can possibly have. The EPA is one 
of the most important agencies in Government. It was truly an 
honor to receive the phone call and to be asked to consider 
taking this position.
    I want to assist EPA and the management of the agency work 
on behalf of the taxpayers to protect the Nation's health, 
human health and environmental quality.
    Senator Baucus. So this is not a job that you sought?
    Mr. Cochran. No, sir.
    Senator Baucus. Who called you?
    Mr. Cochran. The White House called me. Nobody intervened 
with them on my behalf.
    Senator Baucus. The White House called you up and said, 
Andrew, we would like you to take this job?
    Mr. Cochran. They called me on April 12 on my cell phone, 
because I had talked with them 3 years ago about another 
position, they chose someone else. I was actually in 
Williamsburg with my wife. Out of the clear blue sky, the phone 
rang.
    Senator Baucus. Who called you?
    Mr. Cochran. The Office of Presidential Personnel.
    Senator Baucus. Who was that?
    Mr. Cochran. Jennifer Christy.
    Senator Baucus. Were there any reasons why they, why 
Jennifer said they were singling you?
    Mr. Cochran. They were looking through my file, and there 
had been a number of other inspectors general confirmed since 
2004 when I talked to them about Treasury. They found me, and I 
asked if there was anybody who intervened or anything else, and 
she said no.
    Senator Baucus. Did you ask any questions of them, 
conditions of the job, or did they say anything to you about 
the conditions of the job?
    Mr. Cochran. I met with her a couple of times, I met with 
the EPA Administrator and the Deputy Administrator once each. 
They laid no conditions upon my work. We talked about general 
theory of an inspector general, which I have years of 
experience in. I had, there was no expectation of any hindrance 
to my independence, and I wouldn't take any. I don't honestly 
need this job to live. I have a good job and a good life.
    Senator Baucus. I am sorry, I missed your experience as 
inspector general. Where was that?
    Mr. Cochran. In the Office of Inspector General at the 
Commerce Department.
    Senator Baucus. At Commerce, in the office?
    Mr. Cochran. Right, not as the Inspector General.
    Senator Baucus. How long were you there?
    Mr. Cochran. Just 3 weeks short of 11 years.
    Senator Baucus. About 11 years in Commerce. OK. What did 
you do there? What was your job there?
    Mr. Cochran. I was division director and senior analyst. We 
had, we would move from area to area. So my first position as 
division director was actually over the NOAA audit division. I 
ended up auditing every agency of the Commerce Department, and 
conducting almost every type of performance audit.
    Senator Baucus. Did anything come up during your work there 
that you, an irregularity of some kind, that you did something 
about?
    Mr. Cochran. Well, as I said first, the North Pacific 
Fishery Management Council audit, where we basically forced 
NOAA to turn down the proposed amendments of that Council.
    Senator Baucus. Was that you or was that your boss or 
others? Was that you?
    Mr. Cochran. I directed the audit and all the dissertation 
Ph.D, and one other auditor, and we wrote the audit and our 
findings were not directed or guided from the Inspector 
General. Then in 1995, if you are looking for sensitive audits, 
one audit I did not add, I am not sure I added to the list for 
the EPW work was that we did an audit of excessive travel 
charge card use by employees of the Commerce Department, 
including senior officials in the Department, and found charges 
for gifts, jewelry, meals in town and five figure unpaid 
balances.
    Senator Baucus. Turning to Libby, as I mentioned in my 
opening statement, I am concerned about the very grave mistakes 
that EPA made, failing to conduct toxicity studies, inaccurate 
communication, in fact, misleading information to the people 
there. Also choosing not to declare a public health emergency. 
I want to find out what happened. To do that, I have requested 
documents from the agency, also from the White House and other 
relevant agencies. If confirmed, do you agree to give me and my 
staff access to copies of all documents relating to EPA, OMB, 
Grace and the White House's involvement with Libby?
    Mr. Cochran. Senator, I will provide documents to the 
Committee concurrent with all the statutory and constitutional 
obligations. I will work with the Committee to provide the 
documents that I can provide.
    Senator Baucus. Well, that is an easy answer. But you know, 
the proof is in the pudding. Because it is easy to hide behind 
things like privilege and so forth.
    Let me just tell you something. We had a hearing in Libby, 
and I asked for information. The EPA gave us some, but then 
redacted lots of information. It turned out some of the 
information redacted were public press releases by members of 
the Senate. There was no reason they should not be given over. 
In fact, I might say, the Assistant Administrator, when I asked 
her about this, had no idea what was not given to us and did 
not know that EPA had excluded certain matter claiming to be 
privileged by in fact totally public.
    So that answer you gave me is a nice, glib answer. But it 
doesn't really indicate operationally how that might work. So 
could you answer again that same question, a little more fully?
    Mr. Cochran. I don't know all the situation there, sitting 
on this side of the table. I certainly don't have access to any 
of those documents and discussions on privileges. I will do 
what I can to provide all the necessary documents to the 
Committee. I have always done that. I would say, in fact, that 
at the beginning of the North Pacific Fishery and Management 
Audit, an official at NOAA wanted to withhold documents from 
us, and that just didn't last. It didn't last for about a day.
    Senator Baucus. Let me just remind you, the Inspector 
General Act states clearly, ``Nothing in this section or any 
other provision of this Act shall be construed to authorize or 
permit the withholding of information from the Congress or any 
other committee or subcommittee thereof.''
    Mr. Cochran. I will enforce, I will live up to the measures 
of the Act as I did when I was at the Commerce Department. I 
also want to note that another audit I directed, I recommended 
administrative action against a contracting officer, it was the 
first time it had been done, for allowing excessive costs in 
National Weather Service offices.
    Senator Baucus. Well, I just urge you to think more 
clearly, more deeply how you might be more forthcoming the next 
couple of days and weeks. Because that response was basically, 
to be honest with you, is a typical bureaucratic response. It 
is not one that gives the people of Libby much comfort. We are 
going to find out exactly what happened here, and the degree to 
which there was some kind of a cover-up at the EPA, IG and so 
forth.
    Mr. Cochran. It is driven more by my not having intimate 
knowledge of the details, because I can't, sitting on this 
side, and not for lack of desire to work with the Committee.
    Senator Baucus. All right.
    Senator Boxer. Senator, do you want some more time?
    Senator Baucus. Can I have a couple minutes?
    Senator Boxer. You can have it, yes, and I will extend----
    Senator Baucus. I will indulge----
    Senator Boxer. Take as much as you want.
    Senator Baucus. I don't want to take advantage of my 
colleagues, here.
    Senator Boxer. Well, we are going to give you another 3 
minutes.
    Senator Baucus. OK, three.
    A great concern also is, how do you view your job? Are you 
a bean counter?
    Mr. Cochran. No, sir.
    Senator Baucus. Or are you somebody who is going to stand 
up and blow the whistle when something is not right?
    Mr. Cochran. Sir, the term performance audit is a really 
broad term. Under the Government Auditing Standards, there are 
actually five different types of those audits. There is program 
effectiveness, economy and efficiency, internal controls, 
compliance with laws and regs and prospective analyses. I have 
done at least four of the five, maybe all five.
    So it is definitely not a bean counter. There is a type of 
qualitative program effectiveness report that I have done. I 
did for instance numerous offices of the International Trade 
Administration overseas. I don't know that any of them saved a 
dime. Conducted an audit of the ability of the Patent and 
Trademark Office to put its entire official gazette online. 
Didn't save a dime.
    So I have done those types of reviews. I am certainly 
comfortable with those. What you need is qualified people, the 
right scope, it needs good planning, et cetera. So I did them 
at Commerce, and there isn't anything new in that type of audit 
situation that I haven't done and I can already do.
    Senator Baucus. I am also, frankly, concerned about the 
EPA's failure to declare a public health emergency. It is very 
clear, according to press reports, there is a very enterprising 
reporter, who is a Seattle PI, long, long lengthy articles, 
lots of quotes and documented, it is quite clear that although 
declaration is proper and appropriate, that OMB did not want 
to, because it would mean taxpayers' dollars would be used to 
give medical care to people who are suffering on account of 
asbestos diseases. That is basically what it looks like 
happened.
    Let me just remind you that people in Libby suffer from 
asbestos-related diseases at a rate of 40 to 60 times the 
national average. For mesothelioma, the cancerous type, 100 
times greater than the national average. It is an outrage. Have 
you ever been to Libby?
    Mr. Cochran. I have not been there. But I have certainly 
heard about it. I have been reading about Libby for some time.
    Senator Baucus. You know what? If you take this job, you 
are going to be going to Libby.
    Mr. Cochran. Fine.
    Senator Baucus. I will guarantee that.
    Mr. Cochran. So do I.
    Senator Baucus. That is going to be a condition. That is 
going to be a condition. You spend some time up there, so you 
know what is going on. It is just so bad.
    Anyway, will you commit to completing a rigorous 
investigation as to why EPA never declared a public health 
emergency?
    Mr. Cochran. Senator, when I get in the job, I promise I am 
going to take a look at everything that is going on in Libby. I 
don't know if there is something already underway as far as an 
investigation. I look forward to working with the Committee and 
with you and your office.
    Senator Baucus. I asked a different question. Will you 
commit to complete a rigorous investigation as to why Libby was 
never declared a public health emergency? Will you, as IG, make 
that commitment and declaration here today now?
    Mr. Cochran. I will certainly take a long look at it, 
Senator, and I can commit to that.
    Senator Baucus. I said--OK, here are the words. You, 
Inspector General, complete a rigorous investigation, not 
anybody else, you, into why EPA never declared a public health 
emergency. I want you to dig into it, get to the bottom of it, 
you personally, IG, if you are the IG. You may not be the IG. 
But if you are the IG, will you make that public, solid, firm 
commitment here today that you will do that?
    Mr. Cochran. I will make the commitment to do everything 
possible to uncover what is going on in Libby and take care of 
that situation.
    Senator Baucus. No, that is not the question I asked. Let 
me restate the question. Will you commit to complete a rigorous 
investigation as to why the EPA never declared a public health 
emergency, never declared a public health emergency? Will you 
conduct a rigorous investigation as to why that declaration 
never occurred?
    Mr. Cochran. Yes, I will.
    Senator Baucus. You will do that?
    Mr. Cochran. Yes, I will.
    Senator Baucus. Thank you.
    Senator Boxer. Senator, if you would like to stay for 
another round.
    Senator Baucus. My time has expired.
    Senator Boxer. Thank you.
    Senator Craig.
    Senator Craig. Mr. Cochran, first and foremost, thank you 
very much for allowing yourself to be nominated to this very 
important position.
    The Senator from Montana and I share some very common 
ground. He has a Superfund site, I have a large Superfund site. 
It is old mine legacy, what we know now we didn't know 100 
years ago or 50 years ago, but we know it now. A very large 
chunk, in fact, one of the largest Superfund sites in the 
Nation, is in the great old Coeur d'Alene mining district of 
north Idaho. His was asbestos, mine was lead. We have worked 
our way through a decade of cleanup.
    I have constantly been on EPA, along with other agencies 
associated, to make sure it got done right and thoroughly, and 
I don't blame the Senator from Montana for pursuing this. You 
have to, you must. Not only because of the legacy that must be 
cleaned up, if those communities are ever to experience 
economic and human vitality again, but also those who in a very 
innocent way were damaged, injured, or lost their lives as a 
result of it. We now know a great deal more about asbestos and 
lead than we ever did before, and obviously, from what we know 
now, this Country, our Government is doing everything it can to 
make sure that it is not allowed into the mainstream of human 
association and a lot of other reasons.
    So I am pleased that the Senator from Montana is pursuing 
what he is pursuing. If there are still outstanding legal 
issues, and I don't know that of Libby, then obviously there 
are difficulties. There were some for a time in Idaho, in which 
you pressed but could not legitimately get information, because 
there was a legal process underway. But I simply know of Libby, 
I don't know the details of it. But we share a similar kind of 
environment.
    Let me ask you these questions, because I think it is 
important that we understand your broad, along with your 
specific, capability. When you were at the Office of Inspector 
General at the Department of Commerce, 1990 through 2001, how 
broad was your auditing experience? I think you listed five 
different types of audits, and you had done at least four. If 
you could give us that kind of specificity, I think it would be 
very important.
    There are good audits, if you will, there are positive 
reports to be made sometimes. Sometimes it is right to tell the 
right story that is there, that sometimes we just forget about, 
when and audit is produced and all the right things are found, 
versus the negatives. Because I think not only does the public 
and does Congress want to hear what isn't going on right, but I 
think there is also a responsibility to tell what may be going 
on right. Would you respond to your ability in those kinds of 
audit differences?
    Mr. Cochran. Thank you, Senator. Yes, I conducted audits of 
all types of agency activities, grantees, contractors, program 
effectiveness audits, audits to determine if a program was 
actually working, the compliance audits to determine if they 
are actually in compliance with laws and regulations. Then 
typical, you know, some typical bean counter audits that are 
part of the standard inventory, bank card audits, travel charge 
card, et cetera. I covered every agency of the Commerce 
Department.
    I would say also that I would look forward to trying to 
assist the agency in developing best practices. David Williams, 
the current Postal Service Inspector General, has conducted a 
number of audits under what he calls value propositions with 
the agency, and he conducted the last peer review at EPA IG. If 
confirmed, I will look forward to meeting him and discussing 
how to take that structure into the EPA IG office.
    Senator Craig. How comfortable will it be for you to switch 
subject matter to the management of EPA and associated issues 
from your current emphasis on counter-terrorism?
    Mr. Cochran. I have done it before. I don't think it would 
be difficult. I have done it before. I did it when I moved from 
the Inspector General's office when I was selected to be the 
first senior oversight counsel at House Financial Services. I 
moved into financial institutions, insurance, housing.
    Actually, inspectors general switch agencies all the time. 
David Williams is on his fifth agency. He was the Acting 
Inspector General at HUD when I was on the committee, while 
simultaneously serving at the IRS as the Inspector General for 
the IRS. Also, obviously I am not going to be alone there, I am 
going to have upwards of 300 dedicated professional people with 
hundreds of years of experience who have done outstanding work 
for EPA and the Congress and the taxpayer. I look forward to 
working with them if confirmed on the matter.
    Senator Craig. You speak of a variety of audits, audits of 
efficiency, audits of effectiveness, audits of some might call 
it bean counting, but effective use of taxpayers' money. How 
many tax dollars have you saved the American public by being an 
auditor to date?
    Mr. Cochran. Well, it is upwards of tens of millions. We 
try to be careful in the quantification. But for instance, the 
audit of the National Weather Service office buildings where 
the contracting officer wasn't controlling the costs, we saved 
at least $10 million there. When the Economic Development 
Administration sold a steel mill that had been in its inventory 
for years, back to the 1970s, and we found they could release 
an environmental reserve worth $61 million for better use in 
EDA's programs.
    NOAA had a series of unliquidated obligations worth $10 
million one year and $30 million the next year that we helped 
unlock, instruments that hadn't been liquidated for upwards of 
15 years and they could use that for other purposes. So it is a 
lot of money.
    Senator Craig. Madam Chairman, one more question, if I may?
    Senator Boxer. Yes.
    Senator Craig. As an inspector general, and you are an 
interesting and extremely important group of people across the 
system of our Government, because we oftentimes refer to the 
work done or not done through the offices of the inspectors 
general of the different agencies. It is a basis from which 
chairmen, ranking members, all members of the Senate and the 
Congress look for information as to what an agency is or is not 
doing appropriately.
    Do you have an inspector general or someone who, in that 
line of work, current or retired that you view as the model, 
the kind of person you see yourself being in a role at EPA?
    Mr. Cochran. I already mentioned David Williams, who has 
been very effective with a number of agencies. I was very 
impressed with the way Glenn Fine at Justice and the FBI 
director handled that very sensitive national security letter 
audit in which you had Mr. Fine release the audit and then the 
next day the director of the FBI sits in front of open 
microphones and says, I didn't do this, I didn't do this, and I 
promise to do this. That takes weeks, months of constant 
communication and agreement toward the findings and 
recommendations. That was a great example.
    I worked with Sherman Funk years ago at the Commerce 
Department and Jeff Rush and Gaston Giani, when they were at 
the Treasury and FDIC, respectively, and I was on the 
committee. I worked with Democratic staff on the committee to 
start a number of audits and special projects for Congress, and 
with the GAO also.
    Senator Craig. Thank you very much, Andrew.
    Mr. Cochran. Thank you, Senator.
    Senator Craig. Madam Chairman, thank you.
    Senator Boxer. Thank you, Senator Craig.
    Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman.
    Mr. Cochran, I mentioned the Federalist Society and your 
affiliation there. Could you describe their attitudes about 
environmental programs? They are opposed to larger parts in 
Government, et cetera. How do they portray those?
    Mr. Cochran. Senator, I have been on the executive 
committee of the financial services and e-commerce practice 
group. There are different practice groups. Honestly, I haven't 
paid any attention to the environmental group. I have been just 
shoehorned in there. What we have talked about is State versus 
Federal regulation of financial services, financial 
institutions, the proper role of attorneys general and 
governors of State and, for instance, New York State Banking 
Commission, and financial institutions.
    So I haven't really touched the environmental part of the 
Federalist Society.
    Senator Lautenberg. Thanks very much. I find your statement 
a little surprising, and obviously you are a person with a lot 
of experience. But not to be looking at what the organization's 
principles are as opposed to the finances, as contrasted to the 
interest in the financial side, I think is what has gotten a 
lot of corporate America into serious problems, looking at the 
balance sheet and the financial statements, but not at the 
purpose, at the mission.
    I would ask you to take a look and send me a note about 
what their policies are, so that we both have a clear idea what 
they are, and that--and I won't ask you to--I will reserve the 
opportunity to ask further questions when I get that 
information.
    How about whistleblowers? Do you think they are an 
important source of information for inspectors general?
    Mr. Cochran. Yes, they are, they have been very important. 
Actually, the North Pacific audit started with a letter from 
the outside, an outside interest group with all the pertinent 
facts we needed to start that audit. If it hadn't been for 
that, I doubt we would have done that very sensitive audit.
    Senator Lautenberg. So you would welcome that source of 
information, and make sure that these people are protected from 
recrimination?
    Mr. Cochran. Certainly. Congress and the Executive Branch, 
I believe, have agreed recently to provide additional 
protections. If they have done that, that is fine. I worked 
with whistleblowers at the Commerce Department Inspector 
General's office all the time.
    Senator Lautenberg. We have a situation in New Jersey that 
I think if you go through the 50 States, probably the District 
as well, you can find situations that are seriously neglected 
by no attention from EPA or poor decisions on their part. We 
have one at a place called Ringwood, New Jersey. I don't know 
whether you saw the recent decision to relieve Ford of any of 
its responsibility for the dumping of paint and chemicals all 
over the area in a little town in New Jersey that has a 
population of Native Americans. I have been up there several 
times and looked at the material that they have left lying 
around.
    Now, would a decision like that come in any way before the 
IG to see whether or not that decision is appropriately made?
    Mr. Cochran. Well, I would take a look, again, it is hard 
to speak on this side of the table. But if the current 
inventory, and I noticed there is a new Inspector General 
report on Ringwood, and see where that is headed and resolve 
the recommendations in conjunction with the agency and pursue 
that.
    Senator Lautenberg. What we see now happening is that the 
agency made decisions that didn't square with the reality. For 
instance, post-9/11, the agency made a decision, made a 
statement that said people were not in danger as a result of 
the aftermath of 9/11, the exposure to poor air quality, the 
building materials, et cetera. We are finding now that there 
are people, 6 years later, who have serious illnesses, life 
debilitating conditions. At what point does the IG look at 
something like that and say, challenge a decision that is made?
    Mr. Cochran. Senator, I want to address that first by 
telling you that the issue has always been close to my heart, 
because of my visit to Ground Zero with a group of 
Congressional staff in 2001, November 2001, where I stood on 
that small wooden platform at the edge of the debris field. I 
can't forget the above-ground wreckage and the smoldering ruins 
from below, the numbed faces of the rescue workers. They had to 
hose down the area constantly, wear the masks. I will remember 
the odor and the smell forever.
    So I have followed that issue on the counter-terrorism blog 
and as a consultant. It is one of the things that motivates my 
work for 9/11 victims here on the Hill.
    Senator Lautenberg. Well, I would hope that there is a 
specific action that can be taken to look at these things. I 
don't know when a challenge is made to an important decision 
like that, but obviously the wrong decision. There can't be a 
non-consequential position on that and say, okay, someone 
decided that everything was going to be all right, and it was 
far off the mark.
    Again, I don't want to extend your authority, please note 
that if I do here, as the IG. But is there a point in time when 
appeals are made and who would review something like that? If 
there was an appeal to EPA that said, no, you're wrong, there 
are lots of sick people out there and we ought to take some 
responsibility for it?
    Mr. Cochran. I don't know the exact answer to that 
question, Senator. As management oversight, I am not an 
advocate for policy, but that is something that is an issue, of 
course, that will arise if I am confirmed.
    Senator Lautenberg. Madam Chairman, I will have some other 
questions for Mr. Cochran. There is one thing if I may take a 
couple of seconds more.
    There is strong evidence that EPA, the Department of 
Transportation and the White House coordinated a lobbying 
effort against the Pavely Waiver. This waiver would allow 
California and other States to have decreased emissions from 
their cars and not be overridden by the Federal Government.
    Is it appropriate for EPA to be involved in a lobbying 
campaign to defeat a waiver like this?
    Mr. Cochran. Senator, I have read something about that, but 
that is something that if I am confirmed, and I arrive at the 
agency and that is still an issue, I will look forward to 
working with EPA and the Committee on that. I can't make a 
judgment on it at this time. If it is still an issue when I----
    Senator Lautenberg. It is an issue and a question of 
preemption that has to be clearly examined, Madam Chairman.
    Mr. Cochran. It could be, if the Committee requested, I 
don't know if the Committee requested an audit of the waiver 
decision process, if that has already been done, or if the 
office has already started it. I don't know.
    Senator Lautenberg. I would ask that you also take note of 
that and get back to me, please. Thank you.
    Senator Boxer. I think that was very important. I am going 
to pick up on it.
    Senator Isakson.
    Senator Isakson. Thank you, Madam Chairman. Thank you, Mr. 
Cochran, for your willingness to serve.
    I don't like hypothetical questions, but sometimes it is 
impossible in your position to answer a historical question, in 
a hypothetical circumstance. But let me ask you a hypothetical 
question, in your responsibilities, if you are appointed. If in 
the course of audit or inspection or investigation within the 
Department you came upon information that you clearly indicated 
there may be an impropriety within the management of the 
Department, what action would you take? Where would you go?
    Mr. Cochran. I would go to the counsel to the Inspector 
General and the experienced, dedicated professionals in the 
Office of Investigations. Also, what is the recommendation, 
what are the facts. It is not going to matter to me that there 
is a senior official implicated. Honestly, I have been involved 
already in audits in which senior officials were frankly, 
embarrassed. It didn't change any of the audit findings or 
recommendations.
    Senator Isakson. That office is an office that serves all 
IGs, is that correct?
    Mr. Cochran. Well, there is a counsel to the IG in the EPA 
IG office. Of course, the EPA IG has a number of dedicated 
outstanding professional investigators.
    So that is where the recommendation is going to come from 
on cases. I am not going to be driven by somebody's office 
title.
    Senator Isakson. You were in the House Financial Services 
Committee, I take it, during the Sarbanes-Oxley years?
    Mr. Cochran. For better or for worse, yes.
    Senator Isakson. You were there specifically during the 
investigations of the accounting scandals that resolved around 
WorldCom, Global Crossing and Enron, is that correct?
    Mr. Cochran. Yes, sir.
    Senator Isakson. You were there when Sarbanes-Oxley became 
law, first Sarbanes' initiation here and then Oxley's 
iterations in the House and the final law, is that correct?
    Mr. Cochran. Yes, sir.
    Senator Isakson. Nobody has ever accused that of being 
anything other than one of the more effective, far-reaching 
pieces of legislation in the history of the Congress of the 
United States of America, I would think.
    Mr. Cochran. Yes, sir, thank you. The investigations 
involved stepping on a lot of toes in the business world, I 
might add.
    Senator Isakson. A lot of connected toes in the business 
world.
    Mr. Cochran. Yes, sir.
    Senator Isakson. You made reference, you say you also 
started and still direct one of the premier online centers in 
the world for the dissemination of independent and objective 
terrorism/counter-terrorism news and expert analysis. Is that 
private or is that part of your function in the Government?
    Mr. Cochran. I started that on January 5, 2005, actually I 
started in the consulting business in 2004. By the end of 2004, 
I saw a need in the marketplace for a single multi-expert Web 
site dedicated solely to counter-terrorism facts and news and 
analysis.
    Senator Isakson. So it is private?
    Mr. Cochran. It is private.
    Senator Isakson. But nothing in your public 
responsibilities has been merged with that private 
responsibility, has it?
    Mr. Cochran. No. No, sir.
    Senator Isakson. Last question. You made reference in your 
testimony, you worked in partnership with Democratic committee 
staff to ask GAO and the Inspectors General of Treasury, HUD 
and the financial regulators to conduct audits and report to 
Congress on issues such as the response of the regulators and 
financial markets to 9/11. Would you expand on that?
    Mr. Cochran. Soon after the attacks, the committee 
generated requests to GAO for a comprehensive series of audits 
and reports. I worked to basically kind of slice that bologna 
up into smaller pieces so it could be done more quickly. For 
instance, I think most Americans don't realize the Herculean 
effort it took to reconstruct the technology of lower 
Manhattan, how the markets and the telecom companies and the 
Federal Reserve System did a heroic job to do that. The effort 
out of that to build a stronger critical infrastructure 
protection scheme, that is what we asked GAO and the financial 
regulators to report on.
    Senator Isakson. When you made reference to working in 
partnership with the Democratic committee staff, was that your 
initiation with them or their initiation with you to get 
involved in that?
    Mr. Cochran. We worked together often on the Financial 
Services Committee. I had a co-counsel for oversight matters, 
and we worked together all the time.
    Senator Isakson. You worked as a team?
    Mr. Cochran. It is close to a team. We helped each other 
provide information and issues and prepare questions.
    Senator Isakson. Thank you very much.
    Mr. Cochran. Thank you.
    Senator Boxer. Thank you.
    I don't know exactly where to start, but I will ask you 
this. Mr. Cochran, how many program evaluations, not audits, 
but evaluations of environmental programs have you led in your 
professional career?
    Mr. Cochran. Madam Chairman, I had a copy of the North 
Pacific audit in a box at home. All those contents, it is not 
online anywhere, unfortunately, and I couldn't find out exactly 
how many audits or evaluations of any type I did over that 11-
year period.
    Senator Boxer. No, no, no. I am just saying environmental 
programs.
    Mr. Cochran. Well, at least one on the Council and two 
audits of the use of Superfund monies by Commerce Department 
programs. Then some other Weather Service audits.
    Senator Boxer. But I am talking about not audits, but 
evaluations of environmental programs, whether the 
environmental program was meeting its goals, was being 
enforced, that there was no corruption, that kind of thing. How 
many?
    Mr. Cochran. At least the one.
    Senator Boxer. The one on?
    Mr. Cochran. On the North Pacific Fishery Management 
Council.
    Senator Boxer. OK, one. OK. I want to reiterate Senator 
Lautenberg's question. Do you believe it is appropriate for EPA 
to be involved in a lobbying campaign to defeat the California 
waiver?
    Mr. Cochran. It all comes down to what you define as a 
lobbying campaign. I don't know exactly what they have done.
    Senator Boxer. Well, it is in the record. There have been 
hearings in the House that there were phone calls made from the 
Department of Transportation to members of Congress that the 
EPA was involved in it. So direct phone calls to members of 
Congress, telling them to be against the California waiver. Do 
you believe it is appropriate for the EPA to involve in such a 
lobbying campaign to defeat the waiver?
    Mr. Cochran. It is improper. I know it is improper for 
agency officials to lobby, and then there is the provision of 
information. A matter like that should be taken up within the 
investigatory structure of transportation, of DOT.
    Senator Boxer. Well, this is EPA was involved in it.
    Mr. Cochran. Or EPA, if they are involved.
    Senator Boxer. So you don't think it is appropriate for the 
EPA to have been involved in a lobbying campaign to defeat the 
California waiver?
    Mr. Cochran. If the facts meet the requirements in law for 
agency, for the improper lobbying of the Hill by agency 
officials, that is a matter for EPA's investigators to take up.
    Senator Boxer. Well, if you are the IG, do you commit to me 
that you would launch an investigation into this improper 
lobbying by EPA?
    Mr. Cochran. I will take a look at it, yes, Madam Chairman. 
Yes, I will.
    Senator Boxer. You commit to me that you will launch an 
investigation into the involvement of EPA in a lobbying 
campaign to defeat the California waiver, yes or no?
    Mr. Cochran. Yes, I will.
    Senator Boxer. OK. I wanted to ask you, I was looking at 
your resume, which is very interesting, and you have had a lot 
of interesting experiences. I wanted to go over a couple of 
these items on here.
    What is the Virginia Ridge Foundation?
    Mr. Cochran. It is just a girls club that my wife started 
to provide cooking classes for young girls, based on something, 
and that friends ran in Maryland. We never did anything with 
it, honestly, but the Committee form asked me for all the 
memberships.
    Senator Boxer. Because you are still president of it.
    Mr. Cochran. Yes, I know, but we are going to get rid of 
it.
    Senator Boxer. OK, got you. What is the Counter-Terrorism 
Foundation?
    Mr. Cochran. The Counter-Terrorism Foundation is the 
vehicle for helping to fund and manage the counter-terrorism 
blog. It has tax-exempt status. It was started last year. I am 
one of the board members. There are five other board members.
    Senator Boxer. What is your experience in counter-
terrorism?
    Mr. Cochran. Well, I started into the issue with the House 
Financial Services Committee. I was very active in conducting 
terrorist financing investigations for the 3 years I was there. 
Then when I came out, after representing companies and some 
non-profit organizations, and, well, not really organizations, 
one expert, Steve Emerson, an investigative project. Then in 
2005, started representing the Motley Rice law firm on behalf 
of its terrorism victims who were seeking justice in court.
    Senator Boxer. So I assume that if you get this job, you 
won't be doing that any more?
    Mr. Cochran. That is right. I would give it all up. I have 
signed an ethics agreement on that already.
    Senator Boxer. Right. OK. Do you know Steven Johnson?
    Mr. Cochran. I only met him once. I had the one interview 
with him in April and that was it.
    Senator Boxer. An interview about?
    Mr. Cochran. About the job. It was just kind of a standard 
job interview and the situation, the White House called, I 
talked with them, I went to EPA, met with them. That was it. I 
didn't know him before and I haven't seen him since.
    Senator Boxer. I am sorry, say that again?
    Mr. Cochran. I didn't know him before and I haven't seen 
him since.
    Senator Boxer. Yes, but you were interviewed by Steven 
Johnson for the job of Inspector General?
    Mr. Cochran. Yes, it is standard procedure.
    Senator Boxer. I am just asking questions.
    Mr. Cochran. Yes.
    Senator Boxer. You thanked him in your opening statement 
because he is supporting your nomination, is that where that 
is?
    Mr. Cochran. Yes.
    Senator Boxer. Now, Mr. Cochran, when working for GAGE, did 
you ever perform any work for the telecommunications company 
Vonage?
    Mr. Cochran. No, I did not.
    Senator Boxer. Now, Mr. Cochran, news reports indicate that 
Federal attorneys may be investigating GAGE for potential 
violations of Federal law when lobbying for organizations that 
receive Federal money through earmarks. Are you aware of that 
investigation?
    Mr. Cochran. No. I have never been asked any question about 
that, and I don't know to what organizations they would be 
referring.
    Senator Boxer. OK. Did you ever lobby any members of the 
Senate in your position at GAGE or their staffs? Did you ever 
phone them about anything?
    Mr. Cochran. Well, sure. I have lobbied, I have----
    Senator Boxer. What would that be?
    Mr. Cochran. I met with numerous members and staff of the 
Senate to, for the concerns of clients.
    Senator Boxer. Give us an example, please. What lobbying 
did you do toward, for example, members of this Committee?
    Mr. Cochran. OK. Well, not members of this Committee, I 
don't think. For instance, there is a bill on the Floor this 
week which would authorize national subpoena authority by both 
sides in the 9/11 aviation trials. I worked with Senate 
Judiciary staff on that. It is now a bipartisan bill with 
support from both sides of the aisle.
    Senator Boxer. So could you make available for this 
Committee the members or staff of the Senate that you have 
lobbied and what you have lobbied them on?
    Mr. Cochran. I can.
    Senator Boxer. Thank you very much.
    Mr. Cochran, do you think there is a difference between 
conducting an audit and evaluating a program?
    Mr. Cochran. Well, as I said, the term performance audit, 
really I think there might be a misunderstanding. It is really 
a broad term. So it can include a program evaluation, and I 
think people see the word audit and think numbers. It doesn't 
have to be numbers in the Inspector General context. So it can 
include program evaluations.
    Now, in the Inspector General world, there are offices of 
program evaluations that do quicker turnaround inspections or 
program evaluations that meet different types of standards. But 
I conducted all types.
    Senator Boxer. Well, EPA and Department of Commerce say 
that there is a definition for what evaluators do. Do you know 
what that is?
    Mr. Cochran. Somewhat. But it differs. I read that, I don't 
have it committed to memory.
    Senator Boxer. OK. Well, I will say, evaluators plan and 
conduct comprehensive reviews of programs and use design and 
methodology strategies that maximize innovation, identify new 
issues and focus on increased understanding of programs. So 
that is why I keep asking, how many program evaluations, not 
audits, but evaluations of environmental programs have you led 
in your career. You said one you could think of.
    OK. All right. I am going to--Senator Baucus.
    Senator Baucus. Thank you, Madam Chairman.
    Mr. Cochran, several publications have reported that your 
current employer, GAGE LLC, is under investigation by the U.S. 
Attorney's office for questionable financial dealings. At issue 
is whether or not a GAGE client, a Montana-based alliance, used 
appropriate dollars to pay GAGE for lobbying services. I don't 
presume to know whether these accusations are true, but they 
are troubling.
    So as Inspector General, if you are, would you be the 
conscience of the agency, that is, would you agree to provide 
me with a description of the nature of all the work you have 
conducted for your clients?
    Mr. Cochran. I am sorry, I didn't quite catch that.
    Senator Baucus. The nature. I mean, in addition to a list 
of the clients, the nature of the work that you did for each of 
those clients.
    Mr. Cochran. I didn't do any work for Enza. My work at GAGE 
started September 1, 2005 as a result of a merger. Quite 
honestly, I have never done anything for any Montana-based 
client. So I will provide----
    Senator Baucus. You began when? What date?
    Mr. Cochran. September 1, 2005. When I came off the Hill, 
January 1, 2004, I worked for a firm named Public Policy 
Partners. We merged with GAGE September 1, 2005.
    Senator Baucus. But there are reports that the U.S. 
Attorney's office is looking into improper financial dealings 
with GAGE.
    Mr. Cochran. No one has asked me any questions. My life is 
an open book. I have just never----
    Senator Baucus. Are you aware of this investigation?
    Mr. Cochran. I have read news reports. But I have learned 
in 24 years in town to not take as gospel every news report of 
every possible investigation.
    Senator Baucus. Have there been any discussions in the firm 
about this?
    Mr. Cochran. I didn't actually, I mean, I am trying to 
remember a conversation. There may have been, Senator, I just 
don't recall, because since I didn't do any work for Enza--I 
have a special niche, the Homeland Security/Counter-Terrorism 
niche. That has been my niche at the firm since I came over, an 
I have just never done any work for a Montana-based client.
    Senator Baucus. I am sorry, the home what?
    Mr. Cochran. Homeland Security and Counter-Terrorism.
    Senator Baucus. I am curious, what does that have to do 
with the Inspector General for an environmental agency? That is 
very different, isn't it?
    Mr. Cochran. Well, it is different, except that the 
standards under which every Inspector General operates are the 
same. Basically, I would be switching subjects.
    Senator Baucus. Well, there is something to that, but 
again, to some degree, I don't how to state this, if you want 
to have a heart transplant, you go to a cardiac surgeon, you go 
to somebody who knows the subject. If you want to have a really 
good IG in the environmental area, I suppose it is different 
than the IG at the Defense Department, might be different than 
the IG at the Agriculture Department. Agriculture is a little 
bit different from Defense, different from environmental 
issues.
    Mr. Cochran. The Inspector General Act envisions a cadre of 
trained professional evaluators, auditors, inspectors general. 
That is why so many of them have moved around from agency to 
agency.
    Senator Baucus. But it sounds a little bit like just the 
bean counter game, just looking at the financials. Irrespective 
of policy.
    Mr. Cochran. But there is still a group of up to 300 
dedicated professionals, many of whom have been there for years 
and years. So the Inspector General doesn't plan or conduct the 
audit work by himself. He has a strategic vision and a mind 
set, and he concludes the audits and the reports. But the 
professionals are right there behind him all the time.
    Senator Baucus. But I think EPA's Inspector General, who is 
more in the nature of a whistleblower, found some things that 
were not quite right.
    Mr. Cochran. All Inspectors General eventually become 
whistleblowers, and investigations are an important part of all 
offices of inspectors general.
    Senator Baucus. It is also true there are some IGs who I 
think are pretty tepid, lapdogs of agencies. That is also true. 
So how are we going to figure out what camp you are in? How do 
we know what kind of a person you really are?
    Mr. Cochran. My consulting practice at this point is really 
heavily oriented towards helping terrorism victims. Honestly, 
there are companies and countries who won't hire me because of 
the clients I have. One of my main clients is a trial 
litigation firm that has pursued the InterBank in civil suit, 
pursued airlines and airports over aviation security on 9/11. I 
think my career actually screams objectivity and independence, 
both in private practice, on the Hill, on the House Financial 
Services Committee, and in the Inspector General's office.
    Senator Baucus. What are your views about climate change? 
How aggressively should the United States move to address 
climate change issues?
    Mr. Cochran. Inspectors General are not a policy----
    Senator Baucus. Tell us your personal view. You are a 
citizen, Mr. Andrew Cochran. You are an American citizen. You 
read the newspapers, you have a personal view. What is it?
    Mr. Cochran. It is a very important issue. It needs to be 
addressed. If confirmed as Inspector General, whatever programs 
and policies----
    Senator Baucus. I am not talking about that. I am just 
talking about you as a--I am trying to figure out who you are. 
I am trying to figure out what your inclination is.
    Mr. Cochran. I am trying not to bias my independence, bias 
one way or another towards one particular view or another. In 
case I am confirmed, I just want to assure you that no matter 
what the issue, if a policy is put in place or a program at 
EPA, that I will faithfully, independently, objectively, 
assertively determine whether that policy is being carried 
out----
    Senator Baucus. Yes, but there is a moral dimension here, 
like what is right and what is wrong, which is independent 
often of the numbers, whether the balance sheet balances, 
whether--you know what I am getting at?
    Mr. Cochran. Sure, and it wouldn't be confined to just 
whether the numbers balance. It would be whether the program is 
being effectively implemented, whatever that program is.
    Senator Baucus. So if you were to see, your view, that the 
EPA had not conducted toxicity studies, at the same time EPA 
was putting out a pamphlet saying to people in Libby, Montana 
that these levels are OK, what would you do about that at that 
time? Anything? Looks like the numbers are OK.
    Mr. Cochran. Offices of Inspector develop annual plans and 
then leave room for audits and program evaluations where there 
needs to be a quick turnaround, such as the Libby, Montana 
evaluation done in the last quarter of last year. That would be 
something I would talk with the professionals at the Inspector 
General's office and agency management and the Congress, and 
outside interest groups, all of which is invited and urged upon 
by the auditing standards, to see if there is a way to conduct 
a timely program evaluation with dedicated, talented, qualified 
professionals.
    Senator Baucus. If you are named IG, how long is your term?
    Mr. Cochran. There is no set term in law right now, 
although there are proposals to change that. It is subject to 
removal by the President. It would at this point continue into 
the next Administration.
    Senator Baucus. It would continue?
    Mr. Cochran. Yes, sir.
    Senator Baucus. So are you saying it would continue 
indefinitely until you were either removed or resigned?
    Mr. Cochran. It is not just an indefinite term. It is at 
the pleasure of the President. That is what the IG Act 
stipulates at this time.
    Senator Baucus. Does that mean that the next President 
could just find a new IG?
    Mr. Cochran. Sure.
    Senator Baucus. Because my understanding is, something says 
a 5-year term, that it is difficult within a 5-year period, 
anyway, for a new President to remove an IG. Is there anything 
to that?
    Mr. Cochran. I don't know. I have never heard of that.
    Senator Baucus. So as far as you are concerned, to your 
knowledge, if you are confirmed, you are there solely at the 
pleasure of the President?
    Mr. Cochran. That is my understanding of the law at this 
time.
    Senator Baucus. Madam Chairman, I think our understanding 
needs to be cleared up a little bit. I am not convinced that 
that is exactly the law in this case. But I appreciate it.
    Thank you, Mr. Cochran. I appreciate the time you have 
taken.
    Senator Boxer. Senator Craig?
    Senator Craig. I don't know that I have anything 
additional. I would be happy to yield to Senator Alexander for 
any questions.
    Senator Boxer. My understanding is Senator Alexander wants 
to introduce a member of the next panel, is that correct?
    Senator Alexander. I will be glad to come back and do that.
    Senator Boxer. We are at the end here. I have about five 
minutes of questions, and I don't know if anyone--Senator 
Isakson doesn't, and I don't think Senator Craig does.
    Senator Alexander. I will be glad to wait.
    Senator Boxer. Senator Craig, did you want to----
    Senator Craig. Well, just the last question that I thought 
Senator Baucus asked about not only the qualifications but the 
terms of an Inspector General. I didn't know there was a 
question there. I am now curious, because I thought that 
Inspectors General were appointed by Presidents and served at 
the pleasure of Presidents and that the term was not a fixed 
term.
    Mr. Cochran. Correct.
    Senator Craig. It could live or die with the coming of a 
new President. Is that your understanding?
    Mr. Cochran. That is my understanding.
    Senator Craig. OK. Well, it was mine, but if there is a 
gray area, we need to know about it.
    With that, I have no further question, Madam Chairman. 
Thank you.
    Senator Boxer. I have just a couple. How long did your 
meeting with Mr. Johnson last in April when you had that 
meeting?
    Mr. Cochran. Half an hour, maybe half an hour.
    Senator Boxer. What were his questions that he asked you?
    Mr. Cochran. He asked me about background and why I want 
the job and how I see the mix of, how I see the communication 
flow with the Inspector General's office. I said with respect 
to audits and program evaluations, that should be constant and 
continuous. I cited the Glenn Fine audit of national security 
letters.
    Then investigations of course are private, secret. He was 
fine with that. There was no attempt to influence the direction 
of the office or the hiring practices of the office whatsoever.
    Senator Boxer. OK, I wasn't asking you that. But you had a 
30 minute meeting. What else did he ask you about?
    Mr. Cochran. Background, what did I do, standard type of 
job interview, actually.
    Senator Boxer. Did he mention any particular ongoing issues 
that were happening now at the Department?
    Mr. Cochran. No.
    Senator Boxer. OK. We now have an e-mail that says very 
clearly that Steven Johnson gave his OK to DOT to lobby members 
of Congress. Do you think that is allowed by law?
    Mr. Cochran. I don't know, because I am not an attorney in 
that area. I think that is, that requires a legal 
interpretation of legal counsel, and to take a look at that.
    Senator Boxer. Well, I would call to your attention Chapter 
93, Section 1913 that says, ``No part of the money appropriated 
by any enactment of Congress shall, in the express 
authorization by Congress, be used,'' and it lists a number of 
things, and it talks to influence, in any manner, a member of 
Congress. Is that clear to you?
    Mr. Cochran. That is the first time I have seen that, but 
it is----
    Senator Boxer. It is the first you have ever seen this and 
you are nominated for Inspector General? You were, worked in 
the Inspector General's office? I am a little stunned at that.
    So given the fact that I have an e-mail here, and I am 
picking up on Senator Lautenberg's line of questioning on the 
waiver, that we have an e-mail that shows that a CEQ employee 
wrote, ``It's OK for Secretary of Transportation to make calls, 
I spoke with Steve Johnson this morning.'' So I am asking you 
again, now that you know this law and you know we have the e-
mails, do you think this is against the law, what happened 
there?
    Mr. Cochran. Well, I think counsel to the IG or some other 
counsel would have to look at the case law on that, and whether 
that e-mail fits that kind of description.
    Senator Boxer. OK. Well, I have some concerns here. I think 
you are a nice person, believe me, it is nothing personal. But 
it took three times for you to agree to do something that 
Senator Baucus asked, which I think is a no-brainer to look 
into, this horrific situation at Libby. You danced around it 
and finally said yes. It took three proddings from me and you 
don't know about--I don't know. I am just, I am open, I am not 
closed, but I am concerned.
    Senator Lautenberg, I am sorry. I didn't realize that you 
had come back. Do you have any final questions?
    Senator Lautenberg. I want to be here for the next panel.
    Senator Boxer. OK. Mr. Cochran, before you leave, I have to 
ask you certain questions, I am sorry, in order for this 
Committee and other committees to exercise the legislative and 
oversight responsibilities, it is important that committees of 
Congress are able to receive testimony, briefings and other 
communications of information. Do you agree, if confirmed as 
Inspector General of the EPA, to appear before this Committee 
or designated members of this Committee and other appropriate 
committees of the Congress and provide information subject to 
appropriate and necessary security protection with respect to 
your responsibilities as Inspector General of the EPA?
    Mr. Cochran. Yes.
    Senator Boxer. Do you agree when asked to give your 
personal views, even if those views differ from the 
Administration in office at the time?
    Mr. Cochran. Yes.
    Senator Boxer. Do you agree to ensure that testimony, 
briefings, documents and electronic and other forms of 
communication of information are provided to this Committee and 
its staff and other appropriate committees in a timely manner?
    Mr. Cochran. Yes.
    Senator Boxer. Do you know of any matters which you may or 
may not have disclosed that might place you in a conflict of 
interest if you are confirmed as Inspector General of EPA?
    Mr. Cochran. No.
    Senator Boxer. OK. We thank you very much. Appreciate your 
testimony.
    We have asked the next panel to come up. Actually, we are 
going to ask all the others to come up, right, at this time. 
John Bresland, Russell Shearer, Thomas Gilliland, William 
Graves, Susan Richardson Williams. We welcome all of you to the 
table. While we are doing that, we are very happy to give 
Senator Alexander as much time as he may wish to make his 
statement. Senator Alexander.
    Senator Alexander. Thank you for your courtesy, Madam 
Chairman.
    I thank you for your expeditious hearings on Tom 
Gilliland's nomination and the renomination of Bishop Graves 
and Susan Williams.
    Senator Boxer. Senator, if you would yield, I erred. Those 
last two are not here today. But they have filed their papers. 
So this is a hearing on them as well. Please proceed.
    Senator Alexander. The reason that is so important is the 
Tennessee Valley Authority is the largest utility. It is a 
unique agency. It has the capacity for doing some things that 
are consistent with what this Committee is trying to do.
    For example, in its strategic plan, it is thinking about 
how to reduce carbon in its coal plants, how to expand nuclear 
power, which is carbon free, it is exploring geothermal and 
solar power, which are the more appropriate renewable energies 
in our part of the world. Because of the new governance 
structure that the Congress has created for the Tennessee 
Valley Authority, for the first time it has a modern governance 
structure. The President and the Congress have appointed really 
talented men and women to the board and they are moving in a 
very strong direction to create a charter for reliable, clean, 
large amounts of reliable, clean energy for the Tennessee 
Valley.
    Now, it is in that that I am very pleased the President has 
nominated Tom Gilliland. I have heard a good deal about him 
from Senator Isakson, who knows his reputation. But the 
strength, Madam Chairman, that he brings to the TVA Board to me 
seems to be one of legal, business and audit background. This, 
as I said, is the largest utility. He has extensive experience 
with audits. TVA now has the responsibility, as other agencies, 
as public institutions do, of letting the sun shine in on their 
business operations. Mr. Gilliland is committed to that.
    So I simply wanted to come here today and express my 
support for his nomination and to say that I am convinced that 
if he should be confirmed, which I hope he is, he will add 
business and audit strength to an already strong Board. I thank 
you for the time.
    Senator Boxer. Thank you so much, Senator. So I will give 
up my place here to Senator Lautenberg, because I know he has 
some time problems. So please go ahead, Senator.
    Senator Lautenberg. Thank you very much, Madam Chairman.
    I do have another appointment. This is the Chemical Safety 
Board appointment, so it is critical. I wanted to express my 
appreciation for Mr. Bresland's appearing. You identified him 
as a New Jersey person. We welcome that affiliation, I promise 
you. But he also has another redeeming quality, he spent a lot 
of years in Ireland. Therefore, he comes with not only the 
knowledge that he has gained thoroughly over his career but 
also has a certain charm that goes with the individual. I am 
pleased to welcome you here, and all of you.
    I am going to, Madam Chairman, ask that questions be 
submitted and that we hold the record open. New Jersey has a 
very active interest, as we have across the Country, in our 
Chemical Safety Board. There is so much exposure in the State 
of New Jersey, there is a 2-mile stretch identified by the FBI 
as the most inviting stretch for a terrorist attack. It is 
described as the most dangerous 2 miles, from the Newark 
Liberty Airport to the harbor of New Jersey and New York. There 
are chemical facilities galore there. Heaven forbid that if 
there was an attack on those facilities, 12 million people 
would be at risk.
    The Chemical Safety Board has enormous responsibly in terms 
of making sure that the security measures that are taken are 
serious, stringent enough, Madam Chairman, and well financed 
enough, domestic security, so that we can give assistance to 
the communities and the companies where necessary to make sure 
that they are properly protected. I welcome the others of you 
here as well. But again, I will reserve the time for questions 
to be submitted in writing.
    Thank you very much.
    Senator Boxer. Senator Lautenberg, thank you. I just need 
to say that you have been a true leader on this issue of 
chemical safety. I remember when Senator Corzine was here, the 
two of you teamed up and worked very well on this, and you have 
carried the ball forward with Senator Menendez. So I just want 
to thank you very much.
    Senator do you have any comments, or should we just go to 
the testimony?
    Senator Isakson. In the interest of their time, let's just 
go to the testimony. But can I do one thing?
    Senator Boxer. You can.
    Senator Isakson. There are two lovely ladies here I meant 
to introduce before. First is Candy. Candy, would you stand up? 
Candy Gilliland, this is Tom Gilliland's wife. Next is a lady 
that is very familiar to all of us, Emily Reynolds. Emily was 
Secretary of the Senate and now serves as Secretary of the TVA 
Board.
    Senator Boxer. Excellent. Thank you for that.
    OK, gentlemen. I am sure you are just thrilled and 
delighted, after you sat through the other witness, to take 
your place in the hot seats. We really do welcome you, and I 
assure you your experience will be a bit different.
    We will start with Mr. Bresland, and again, thank you all 
for agreeing to hold these positions. Go ahead, sir.

  STATEMENT OF JOHN S. BRESLAND, NOMINEE FOR BOARD MEMBER AND 
 CHAIRMAN OF THE U.S. CHEMICAL SAFETY AND HAZARD INVESTIGATION 
                             BOARD

    Mr. Bresland. Thank you, Chairman Boxer and distinguished 
members of the Committee.
    My name is John Bresland. I am honored to appear before you 
today to describe my background and to express my strong 
commitment to carrying on the important life-saving work of the 
Chemical Safety Board.
    With me this morning is my wife, Beth, who is sitting over 
here. She is an oncology social worker at Sibley Memorial 
Hospital here in Washington, D.C.
    It is also an honor to have Senator Lautenberg present at 
the hearing this morning. We all salute the Senator's 
extraordinary leadership on the issue of chemical safety and 
his role in establishing the CSB in 1990.
    In 2002, the Senate confirmed me as a CSB Board member. 
During my 5-year term, I had the privilege of working with 
Carolyn Merritt, the Board Chairman, whose 5-year term ended in 
August. Carolyn did an exceptional job, and I congratulate her 
for that. Through her efforts and the hard work of the Board 
members and staff, the productivity and the prominence of the 
Chemical Safety Board has increased dramatically. The CSB is 
now known around the world as the preeminent independent agency 
investigating accidents in chemical plants and oil refineries.
    I am convinced that as a result of our investigations and 
safety recommendations, lives have been saved and communities 
have been protected. I am proud to have been part of Carolyn's 
legacy and would hope to continue it and build on it should I 
be confirmed.
    I believe that my 35 years of experience in the chemical 
industry and 5 years at the CSB make me uniquely qualified to 
serve as the next chairman. During my career in industry, I 
served in high management positions involving responsibility 
for worker safety and the environment, including as a chemical 
plant general manager and as corporate director of risk 
management for Honeywell.
    I am totally committed to the mission of the CSB: to save 
the lives of workers and to protect the public by conducting 
truly independent investigations that pull no punches in 
getting to the root causes of tragic industrial chemical 
accidents. In my 5 years on the Board, I have strongly 
supported our investigations staff in producing fair but 
thorough and tough accident reports with appropriate 
recommendations to companies, trade organizations, and 
Government agencies such as EPA and OSHA. As an active Board 
member, I traveled to many accident sites with the 
investigation teams to represent the agency and to see first-
hand what had happened.
    I believe that the CSB's accident investigations, which are 
independent of any company, industry or government influence, 
can bring to light serious problems that when corrected will 
save lives and reduce worker injuries. I have given more than 
100 speeches and presentations on the CSB's work to industry 
groups, labor gatherings and other stakeholders. My message is 
always the same: you must be committed to safety 100 percent of 
the time. Accident prevention is the moral thing to do, it is 
also the only rational business model because chemical plant 
explosions and fires are so destructive and result in severe 
economic consequences. Businesses must be good stewards of 
their workers and good neighbors in their communities.
    If confirmed, my goals for the CSB include first, 
continuing to conduct tough, independent investigations of 
chemical plant accidents; second, increasing the size and the 
expertise of our investigative staff; and third, broadening our 
outreach, especially to smaller businesses and to the emergency 
preparedness and response communities.
    Finally, I fully support the testimony of Chairman Merritt 
before this Committee in July where she called for improvements 
to the CSB's authorizing statute, which would strengthen and 
clarify the Board's investigative authority. These changes are 
needed to assure the continued quality and speed of the Board's 
investigations. If confirmed, I look forward to working closely 
with the Committee on these issues.
    In conclusion, it has been a privilege for me to serve on 
the Chemical Safety Board and to have worked with the talented 
and dedicated people at the CSB. As a first generation American 
who had the opportunity to come to the United States in my 20's 
and became a citizen in 1983, I am deeply honored to have been 
nominated by the President to serve as a chairman of the 
Chemical Safety Board. I offer you my integrity, my judgment 
and my experience.
    If confirmed, I commit to work tirelessly to improve the 
safety of the chemical processing and oil refining industry in 
the United States. Thank you for the opportunity to appear 
before you here today.
    [The prepared statement of Mr. Bresland follows:]
   Statement of John S. Bresland, Nominated to be a Board Member and 
  Chairman of the U.S. Chemical Safety and Hazard Investigation Board
    Thank you, Chairman Boxer and distinguished members of the 
committee.
    My name is John Bresland. I am honored to appear before you to 
describe my background and to express my strong commitment to carrying 
on the important, live-saving work of the Chemical Safety Board.
    With me this morning is my wife, Beth, who is an Oncology Social 
Worker at Sibley Memorial Hospital.
    It is an honor to have Senator Lautenberg present at the hearing 
this morning. Senator, we all salute your extraordinary leadership on 
the issue of chemical safety and your role in establishing the CSB in 
1990.
    In 2002, the Senate confirmed me as a CSB Board member. During my 
five-year term I had the privilege of working with Carolyn Merritt, the 
Board Chairman, whose five year ended in August. Carolyn did an 
exceptional job and I congratulate her. Through her efforts and the 
hard work of the Board members and staff the productivity and the 
prominence of the Chemical Safety Board increased dramatically. The CSB 
is now known around the world as the preeminent independent agency 
investigating accidents in chemical plants and oil refineries. I am 
convinced that as a result of our investigations and safety 
recommendations lives have been saved and communities have been 
protected. I am proud to have been a part of Carolyn's legacy, and 
would hope to continue it and build on it should I be confirmed.
    I believe that my 35 years of experience in the chemical industry 
and 5 years at the CSB make me uniquely qualified to serve as the next 
chairman. During my career in industry I served in high management 
positions involving responsibility for worker safety and the 
environment--including as a chemical plant general manager and as a 
corporate director of risk management for Honeywell.
    I am totally committed to the mission of the CSB--to save the lives 
of workers and to protect the public by conducting truly independent 
investigations that pull no punches in getting to the root causes of 
tragic industrial chemical accidents.
    In my five years on the Board I have strongly supported our 
investigations staff in producing fair but thorough and tough accident 
reports with appropriate recommendations to companies, trade 
associations and government agencies such as EPA and OSHA. As an active 
board member, I traveled to many accident sites with the investigation 
teams to represent the agency and to see first hand what had happened.
    I believe that the CSB's accident investigations--which are 
independent of any company, industry, or government influence--can 
bring to light serious problems that, when corrected, will save lives 
and reduce worker injuries. I have given more than 100 speeches and 
presentations on the CSB's work to industry groups, labor gatherings, 
and other stakeholders, and my message is always: you must be committed 
to safety 100% of the time. Accident prevention is the moral thing to 
do. It is also the only rational business model, because chemical plant 
explosions and fires are so destructive and result in severe economic 
consequences. Businesses must be good stewards of their workers and 
good neighbors in their communities.
    My goals for the CSB include:
    <bullet> First, continuing to conduct tough, independent 
investigations of chemical accidents
    <bullet> Second, increasing the size and expertise of our 
investigative staff;
    <bullet> Third, broadening our outreach, especially to smaller 
businesses and to the emergency preparedness and response communities.
    Finally, I fully support the testimony of Chairman Merritt before 
this Committee in July, where she called for improvements to the CSB 
authorizing statute which would strengthen and clarify the Board's 
investigative authority. These changes are needed to assure the 
continued quality and speed of the Board's investigations. If 
confirmed, I look forward to working closely with the Committee on 
these issues.
    In conclusion, it has been a privilege for me to serve on the 
Chemical Safety Board and to have worked with the talented and 
dedicated people at the CSB. As a first generation American who had the 
opportunity to come to the United States in my 20s and who became a 
citizen in 1982, I am deeply honored to have been nominated by the 
president to serve as Chairman of the Board.
    I offer you my integrity, my judgment, and my experience.
    If confirmed, I commit to work tirelessly to improve the safety of 
the chemical processing and oil refining industry in the United States. 
Thank you for the opportunity to appear before you today.
        Response from John S. Bresland to Additional Questions 
                          from Senator Sanders
    Question 1. The Chemical Safety and Hazard Investigations Board 
plays a critical role in investigating industrial chemical accidents. 
This continued success is dependent on an effective working 
relationship with state and local authorities. Concerns have been 
raised about the CSB's response to previous incidents, especially 
regarding the CSB's procedures for notifying incident commanders prior 
to its arrival on scene. What specific steps has the CSB taken to alert 
incident commanders of its intent to deploy investigators to an 
incident previous to their arrival?
    Response. I agree that the CSR's success is greatly aided by 
effective working relationships with state and local authorities, 
including local incident commanders who oversee emergency response 
activities under the National Incident Management System (NIMS). For 
the most part, we have established effective working relationships with 
state and local officials at sites around the country--despite the 
CSB's relatively short history and limited staffing. States and 
localities derive substantial benefits from the CSB's independent 
safety investigations, recommendations, and outreach, which lead to 
safer chemical facilities and communities around the country. As 
chairman, I will be fully committed to continuing and growing the CSB's 
positive working relationships with state and local officials.
    As a matter of course prior to deploying any investigative team, we 
notify:

        <bullet>  Site management
        <bullet>  Corporate management
        <bullet>  Local tire, police, and emergency management, 
        including the incident commander if one has been designated
        <bullet>  Fire marshal, if on scene or expected on scene
        <bullet>  The Occupational Safety and Health Administration 
        (OSHA), if on scene or expected on scene
        <bullet>  The Environmental Protection Agency (EPA), if on the 
        scene or expected, and any EPA on scene coordinator
        <bullet>  The Bureau of Alcohol, Tobacco, Firearms, and 
        Explosives (ATF), if on scene or expected
        <bullet>  The Agency for Toxic Substances and Disease Registry 
        (ATSDR), in the event of off-site consequences
        <bullet>  The Local Emergency Planning Committee (LEPC) 
        chairman or Office of Emergency Management
        <bullet>  The National Transportation Safety Board (NTSB), if 
        the incident involved a ship, barge, railcar, tank truck or 
        pipeline located at a fixed facility
        <bullet>  Other national or regional response teams
        <bullet>  Union(s) representing workers at the facility.

    In addition, in cases where we have not have prior dealings with 
specific state or local fire services, we often contact organizations 
such as the National Association of State Fire Marshals (NASFM) to help 
establish positive relationships with relevant officials before our 
investigators arrive. NASFM has strongly supported the Board's mission, 
and their recent efforts at facilitating these local contacts have been 
particularly helpful.
    I believe the ``concerns'' noted in the questions relate to certain 
claims made in an unsigned, one-page statement distributed by several 
representatives of the International Association of Fire Chiefs (IAFC) 
in September 2007, more than 10 months after the CSB's deployment to a 
major chemical accident site in Danvers, Massachusetts, in November 
2006. The CSB has thoroughly refuted those claims in a 16-page letter 
to the Committee last month, which I include for the record.
    Specifically, the CSB letter explains how, prior to the arrival of 
our investigators, the agency had notified the Massachusetts state tire 
marshal, the Danvers Fire Department, the EPA, the U.S. Coast Guard,\1\ 
the Danvers town manager, the Danvers director of public health, and 
the offices of Representative John Tierney, Senator Edward Kennedy, and 
Senator John Kerry. When the CSB team arrived at the site on November 
24, team members promptly approached town officials and the incident 
commanders (bearing appropriate, signed letters of authority under the 
Clean Air Act) and described the mission of the agency and the reasons 
for the deployment. Unfortunately, after all these notifications and 
contacts had occurred, the CSB was blocked from the accident site for a 
period of five days.
---------------------------------------------------------------------------
    \1\ We notified the Coast Guard because that agency was present at 
the accident site, due to its proximity to a navigable river, and there 
was concern about a potential impact of firewater runoff on those 
waters.

    Question 2. In Homeland Security Presidential Directive-5, the 
Administration established a ``single comprehensive approach to 
domestic incident management . . . to ensure that all levels of 
government have the capability to work efficiently and effectively 
together. . . .'' Under this directive, the National Incident 
Management System (NIMS) was developed ``to provide a consistent 
nationwide approach for Federal, State, and local governments to work 
effectively and efficiently together to prepare for, respond to, and 
recover from domestic incidents, regardless of cause, size, or 
complexity.'' How are the CSB's protocols for responding to incidents 
at chemical facilities consistent with the NIMS? How many members of 
the CSB have been trained and certified in the NIMS?
    Response. All of our career investigators, including investigation 
supervisors and investigation managers, have had thorough training on 
the National Incident Management System (NIMS). Most of our 
investigators received their NIMS training in an eight-hour course 
presented by Maryland Fire and Rescue Institute (MFRI) in 2005 and were 
registered with FEMA. Those who did not take the MFRI course completed 
an online independent study course (IS-00700) and were also registered 
with FEMA. We plan to continue providing comprehensive NIMS training 
for all our investigators, as we have done for the past several years.
    As a matter of both policy and actual practice, the CSB does 
nothing to interfere with NIMS or other emergency response activities 
at accident sites, and that will be my continued policy as chairman if 
confirmed. At any accident site, if emergency response activities are 
ongoing or an Incident command system is in place, our procedure calls 
for the CSB lead investigator to report directly to the incident 
commander (IC) upon arrival. The lead investigator should establish the 
authority of CSB to investigate while being sensitive to avoid possible 
disruptions to any ongoing emergency response operations.
    It would clearly be inappropriate, however, for an incident 
commander to seek to direct the CSB's investigation or to prescribe the 
terms under which the CSB can interview witnesses or access the site, 
other than for reasons of protecting safety or completing emergency 
response actions. In many cases, the CSB's investigators have 
specialized chemical expertise that is highly useful to incident 
commanders (many of whom have never had to respond to a major chemical 
accident) and other agencies, and we invariably seek to be of 
assistance where possible.
    I should emphasize that the CSB is not an emergency response agency 
but was created by Congress solely as independent investigative body. 
In some cases, the CSB's investigations examine the effectiveness of 
emergency response activities, coordination, and command structures. 
The CSB's position on this issue is similar to that of the NTSB, which 
also examines the effectiveness of emergency response as part of its 
accident investigations.

    Question 3. What steps does the CSB intend to take to ensure better 
coordination of its activities with other federal, state, and local 
agencies?
    Response. During the recent public comment period on the National 
Response Framework (NEW) this month, the Chemical Safety Board asked 
the Department of Homeland Security (DHS) to incorporate specific 
language into the NRF stating that ``nothing in this directive alters, 
or impedes the ability to carry out, the authorities of Federal 
departments and agencies to perform their responsibilities under law.'' 
This would conform the NRF to the language in paragraph 5 of Homeland 
Security Presidential Directive 5 (HSPD-5). The Board also requested 
DHS to emphasize that incident commanders should seek to coordinate 
with federal safety investigations, such as those conducted by the CSB 
and the NTSB.
    If I am confirmed as chairman, we will continue to work with DHS 
and FEMA to seek refinements to both the National Response Framework 
and the National Incident Management System (NIMS) which would promote 
improved coordination, particularly during the phase when emergency 
response activities are being completed and safety investigations are 
getting underway. I will also continue and expand the CSB's successful 
outreach to local and state fire and response organizations, as 
described below.

    Question 4. Many members of the public safety community apparently 
are not aware of the CSB and its role and mission. What steps will you 
take as chairman to improve the CSB's outreach to the public safety 
community?
    Response. Communities and responders benefit from the CSB's 
thorough, independent investigations of chemical accidents, but it 
remains a significant challenge for the CSB to be known by all fire 
departments throughout the country. The CSB is currently a $9 million, 
40-person agency with only a handful of staff focused on outreach. By 
contrast, the U.S. has more than 30,000 fire departments, served by 
more than 1.1 million firefighters, both career and volunteer.
    The CSB's board and staff have made numerous presentations to fire 
safety organizations over the past five years, including the National 
Fire Protection Association, the National Association of State Fire 
Marshals, the National Association of SARA Title Three Program 
Officials, and the International Association of Fire Chiefs. We have 
also published articles describing the CSB's mission, investigations, 
and safety products in a number of fire-related magazines and websites, 
including the International Association of Fire Chiefs On Scene 
newsletter, Industrial Fire World, Firehouse.com, Fireengineering.com, 
and many others. Our safety videos arc also featured on the website of 
the U.S. Fire Administration. We have received more than 400 individual 
requests for our safety video DVD's from fire chiefs, officers, and 
other emergency responders--many accompanied by strong words of praise 
for the agency's investigations and efforts at reaching out to the tire 
community.
    If confirmed as chairman, I intend to continue and increase the 
CSB' s vigorous outreach to the emergency response community by 
speaking at fire safety conferences, contributing articles to fire 
safety publications and websites, and making our CSB safety videos and 
materials freely available to firefighters and others on CSB.gov, 
YouTube, and fire safety websites.
   Response by John S. Bresland to Additional Questions from Senator 
                                 Vitter
    Question 1. Temporary trailers are used for turn around or 
construction projects within plants. Assuming it is more cost effective 
to operate within the process area, would it be reasonable to require 
someone to rent structures that ARE blast resistant (instead of not) to 
protect people in the blast zone?
    Response. The BP Texas City explosion and fire occurred on March 
20, 2007. Because all of the fatalities occurred in occupied temporary 
trailers close to the scene of the explosion, the Chemical Safety Board 
made an urgent recommendation on October 25, 2007 to the American 
Petroleum Institute (API). The wording of the recommendation was:
    In light of the above findings concerning the March 23rd incident 
at BP's Texas City refinery, revise your Recommended Practice 752, 
``Management of Hazards Associated with Location of Process Plant 
Buildings'' or issue a new Recommended Practice to ensure the safe 
placement of occupied trailers and similar temporary structures away 
from hazardous areas of process plants.
    As its response to the CSB recommendation, in June 2007 API 
published its Recommended Practice 753 ``Management of Hazards 
Associated with Location of Process Plant Portable Buildings''. API's 
response is currently being evaluated by the CSB to determine if it is 
acceptable.
    Recommended Practice 753 is based on the following guiding 
principles:

        <bullet>  Locate personnel away from covered process areas 
        consistent with safe and effective operations
        <bullet>  Minimize the use of occupied portable buildings in 
        close proximity to covered process areas
        <bullet>  Manage the occupancy of portable buildings, 
        especially during periods of increased risk including unit 
        start-up or planned shut-down operations
        <bullet>  Design, construct, install and maintain occupied 
        portable buildings to protect occupants against potential 
        hazards
        <bullet>  Manage the use of portable buildings as an integral 
        part of the design, construction, maintenance and operation of 
        a facility

    The CSB does not promulgate regulations and thus cannot ``require 
someone to rent structures''. However I would encourage facilities to 
follow the API Recommended Practice, regardless of whether they rent or 
purchase the structures.
    I believe that the CSB 's recommendation to API and the 
implementation of the API Recommended Practice 753 by the oil refining 
and chemical industry will have a very positive impact on the safety of 
employees in those industries.

    Question 2. Can you define ``Neutral Risk'' as it relates to 
occupied structures in blast zones?
    Response. The term ``Neutral Risk'' is not a term that I am 
familiar within the context of chemical or oil refinery process safety. 
I worked in the chemical industry for 35 years and at the CSB for five 
years. During that time I worked closely with the American Petroleum 
Institute, the American Chemistry Council and the Center for Chemical 
Process Safety and I have not heard the term Neutral Risk used as a 
chemical process safety term. The term is used in financial markets and 
in the nuclear power industry.

    Question 3. How does the ``Neutral Risk'' standard protect people 
from the blast and ensure that the building protects occupants from not 
only the building itself during a blast but also the blast environment?
    Response. As I stated above I am not familiar with the ``Neutral 
Risk'' standard in the context of chemical or oil refining facilities.

    Question 4. Because of the neutral risk standard, I understand that 
tents are allowed in blast areas as a means to protect workers from 
blasts because the interpretation of the ``neutral risk'' standard 
means occupants face minimal risk from the tents themselves. Does CSB 
allow for Tents in blast zones? How do Tents ensure the people are 
protected from the blast environment?
    Response. The CSB does not promulgate standards and thus does not 
``allow'' or forbid the use of tents in blast zones. API Recommended 
Practice 753 excludes ``lightweight fabric enclosures such as tents'' 
from the definition of portable building. In its review of API 753 the 
CSB is assessing this exclusion.

    Question 5. Shouldn't any structure such as a bath room be blast 
resistant if located in a blast zone?
    Response. Section 3 of the API Recommended Practice 753 gives a 
method for facilities which have the potential for an explosion hazard 
to determine an appropriate location for portable buildings. If the 
bathroom is a portable structure, the facility should consult API 
Recommended Practice 753. If the bathroom is a permanent structure, its 
design, location and installation should take into account the 
potential for a fire. explosion or toxic gas release.
       Response by John S. Bresland to Additional Questions from 
                           Senator Lautenberg
    Question 1. Why did you decide to vote against recommending a new 
OSHA standard to prevent combustible dust explosions?
    Response. In 2003 there were two catastrophic combustible dust 
explosions (West Pharmaceutical, Kinston, NC; and CTA Acoustics, 
Corbin, KY) which killed a total of 13 employees and destroyed both 
facilities. The CSB investigated both incidents, determined the root 
causes and made recommendations to the companies, their suppliers and 
various safety organizations and regulatory agencies. I voted to 
completely accept both reports. Following these two incidents and a 
third in October 2003 in Huntington, Indiana the CSB decided to carry 
out a comprehensive study of combustible dust hazards in the United 
States. I supported that effort. The study resulted in a CSB staff 
recommendation that OSHA develop a new standard for preventing 
combustible dust explosions. After considerable thought and discussion 
with other Board members I decided not to support that recommendation. 
In my vote against recommending a new OSHA standard I concluded that 
the most effective way to prevent future dust explosions was to use the 
available literature to undertake a comprehensive education program to 
the industries using combustible dusts. I believe that this would be a 
much faster way to get the message out to the industry than waiting for 
OSHA to go through the prolonged process of writing a regulation on 
combustible dusts. I believe that there is ample information available 
on the issue of prevention of combustible dust explosions. Three 
examples come to mind:

        <bullet>  ``Dust Explosions in the Process Industries'' by Rolf 
        K. Eckhoff
        <bullet>  NFPA Standard 654 for the Prevention of Fire and Dust 
        Explosions from the Manufacturing, Processing, and Handling of 
        Combustible Particulate Solids, 2006 Edition
        <bullet>  ``Guidelines for Safe Handling of Powders and Bulk 
        Solids'' Center for Chemical Process Safety of the American 
        Institute of Chemical Engineers, 2004 Edition

    While I was working as a Staff Consultant to the Center for 
Chemical Process Safety (CCPS) in 2001 and 2002 I managed the writing 
of the CCPS book ``Guidelines for Safe Handling of Powders and Bulk 
Solids''. The final product, published in 2004, is approximately 800 
pages long and it is a very comprehensive survey of techniques 
available to prevent dust explosions.
    Recommendation 5 to OSHA in the November 2006 CSB Combustible Dust 
Study called on OSHA to ``. . . identify manufacturing industries at 
risk and develop and implement a National Special Emphasis Program on 
combustible dust studies in general industry.'' I agreed with that 
recommendation. On October 19, 2007 OSHA issued a new safety and health 
instruction that details OSHA policies and procedures for inspecting 
workplaces that handle combustible dusts and that may have the 
potential for a dust explosion.

    Question 2. Why did you vote against the Combustible Dust Study in 
November 2006 that was supported by the Board on a 3-2 vote?
    Response. I believe that the Board's staff did an excellent job in 
researching and writing the November 2006 Study on combustible dust 
explosions. My vote was not against the Study as a whole but against 
recommendation 1 to OSHA. My vote was motivated because I believed that 
action needed to be taken sooner than waiting for OSHA to write a 
standard. Quoting from my remarks at the November 9, 2006 CSB Public 
Meeting on Combustible Dust Hazard Study Findings and Proposed 
Recommendations:
    ``I would just like to reemphasize the major point that I am trying 
to make and that is realizing and recognizing that there is a hazard 
right now and we have certainly seen that with the dust explosions that 
have taken place. We, OSHA, the industry, trade organizations, need to 
be doing something today. We don't need to be waiting for five years 
for a regulation to be published. We need to get out there today and 
start educating people on this to make sure that the sort of tragedies 
that we've seen don't happen again.''

    Question 3. Do you continue to support extending EPA and OSHA 
process safety regulations to cover reactive chemicals and mixtures, as 
the CSB recommended in 2002?
    Response. Yes, I continue to support the 2002 CSB recommendation. 
If confirmed, I will meet with the leadership of both OSHA and EPA and 
emphasize the continued interest of the CSB in having them comply with 
the CSB's recommendation.

    Question 4. Do you believe it is preferable to have third-party 
audits of oil and chemical plants instead of federal inspections by 
OSHA and EPA personnel? If so, please describe the potential benefits 
and detriments to this approach?
    Response. I believe that third party audits of oil and chemical 
plants could supplement inspections done by EPA and OSHA. Third party 
audits would have certain advantages over federal inspections by EPA 
and OSHA personnel.
    Some of the pros of this approach are:
        <bullet>  There is a larger pool of independent personnel with 
        specific expertise in chemical and refinery operations than 
        there currently is within OSHA and EPA
        <bullet>  Audit quality requirements would have to be developed 
        and approved by EPA and/or OSHA
        <bullet>  Audit protocol requirements would have to be 
        developed and approved by EPA and/or OSHA

    The possible cons of this approach include:

        <bullet>  The cost to industry would be greater as they would 
        have to bear the costs of the inspections
        <bullet>  Conflict of interest provisions would be needed to 
        assure impartial audits
        <bullet>  The question of the public availability of audit 
        results would have to be resolved.

    Question 5. Do you believe that OSHA and EPA's existing process 
safety programs should be consolidated into a new federal regulatory 
and inspection program? If so, please describe how such a consolidation 
would work and what benefits you would foresee from such an approach?
    Response. There is considerable similarity between the EPA's Risk 
Management Program for chemical facilities and OSHA's Process Safety 
Management of Highly Hazardous Chemicals Standard. The OSHA standard 
deals with hazards and the prevention of accidents inside the facility 
and the EPA program deals with the prevention of accidents that would 
impact the community around the facility. The programs could be 
combined without a significant effect on the regulated community. 
However, to combine them would require rewriting the Clean Air Act 
Amendments of 1990. One of the issues facing both EPA and OSHA in the 
regulation of oil and chemical plants is a shortage of personnel with 
expertise in chemical plant and refinery operations. Combining the 
programs without authorizing the hiring of additional experienced 
personnel would not, in my opinion, improve the regulatory oversight of 
the industry.

    Question 6a. Could you please explain the ``safety case'' approach 
to licensing oil and chemical plants that is used in Europe?
    Response. As a result of major industrial chemical accidents in 
Europe in the 1970s (the Flixborough, England explosion in 1974 and the 
Seveso, Italy dioxin release in 1976) the Seveso Directive was issued 
by the European Community in 1982. The regulations implementing the 
Seveso Directive are the 1984 Control of Industrial Major Accident 
Hazards Regulations (CIMAH) and the 1999 Control of Major Accident 
Hazards (COMAH). To comply with the CIMAH and COMAH regulations 
operators of certain facilities in the European Community have been 
required to submit ``safety reports'' to the ``competent authority'' 
(in the United Kingdom the competent authority is both the Health and 
Safety Executive and the Environmental Agency). Facilities affected by 
the regulations are typically in the chemical, oil refining, explosives 
and nuclear industries. Once a facility determines that it is covered 
by the regulations (based on threshold quantities of dangerous 
substances) it has the following responsibities:

        <bullet>  Submit details of dangerous substances on site to the 
        competent authority
        <bullet>  Describe site activities
        <bullet>  Take all measures necessary to prevent major 
        accidents and limit their consequences (this is a general duty 
        standard)
        <bullet>  Prepare and test an on-site emergency plan
        <bullet>  Prepare a safety report which includes the following: 
        (1) a policy on how to prevent and mitigate major accidents (2) 
        a management system for implementing that policy (3) a method 
        for identifying any major accidents that might occur (4) 
        methods to prevent and mitigate major accidents (5) information 
        on safety precautions built into the plant (6) details of 
        measures to limit the consequences of any major accident that 
        might occur (7) information on the site emergency plan, which 
        is also used by the local emergency responders.

    The safety report has to be submitted to the competent authority 
and kept up to date as operating conditions at the facility changes. It 
must be updated and resubmitted at least every five years.
    Several important factors should be noted:

        <bullet>  All costs associated with the development of the 
        safety report are borne by the operating company. These costs 
        include those of the competent authority in assessing and 
        commenting on the safety report.
        <bullet>  With the exception of nuclear installations and off-
        shore oil facilities, the safety case is not a ``permit'' to 
        operate.
        <bullet>  Facilities are required in their safety reports to 
        demonstrate that they have reduced risks to ``as low as 
        reasonably possible''.

    Question 6b. Should the United States adopt a ``safety case'' 
approach?
    Response. The EPA Risk Management Program (RMP) regulations are 
similar in some respects to the European safety report rules. However 
the information required to be submitted in the safety report is much 
more comprehensive and detailed than in the RMP submittals. For the 
United States to adopt the European safety case approach changes would 
require changes in the underlying Clean Air Act legislation. In the 
United Kingdom there are 750 lower hazard facilities and 375 high 
hazard facilities covered by the COMAH regulations. The Health and 
Safety Executive has 150 inspectors applying 45 man-years each year to 
evaluating safety reports. In the United States there arc approximately 
15,000 RMP facilities. The option of adopting the European safety 
report approach in the United States should be looked at in the context 
of the availability of government personnel with the expertise to 
evaluate the safety reports.

    Question 7a. Do you support specific legislation to provide CSB 
with investigation authority like the NTSB's?
    Response. CSB needs additional statutory authority to avoid delays 
in their investigations caused by local autorities blocking entry to 
sites and prevent the destruction of evidence during clean-up 
operations after the emergency response has ended.
    A good starting point for discussions on additional authority could 
be the NTSB statute at 49 USC Sec. Sec. 1101-1155 and NTSB regulations 
at 40 CFR 830.10 and 40 CFR 831.5.

    Question 7b. Do you support specific legislation to clarify the 
CSB's evidence preservation authority?
    Response. Because of ongoing issues with evidence preservation at 
accident sites I believe that the CSB's evidence preservation authority 
should be clarified, either by legislation or by regulation. On January 
4, 2006 the CSB published a proposed rule in the Federal Register, 
requiring that facilities having an incident being investigated by the 
CSB should preserve evidence relevant to the investigation. The CSB 
received many comments on this proposal and has not published a final 
rule.

    Question 7c. Do you support specific legislation to provide CSB 
with authority like the NTSB's to decide on testing procedures for the 
physical evidence recovered from accident sites?
    Response. Yes.

    Question 7d. Do you support specific legislation to clarify and 
strengthen CSB's access to OSHA and EPA personnel and records that are 
relevant to the CSB's investigations?
    Response. CSB's accident investigations often evaluate the roles of 
EPA and OSHA in regulating the facility or the industry. It has proved 
difficult at times to get access to EPA and OSHA personnel and records. 
If discussions with EPA and OSHA leadership cannot resolve these issues 
in the future, then specific legislation would be warranted.

    Question 7e. Do you support specific legislation to provide for a 
3-2 party split in appointments to the Board, similar to the NTSB?
    Response. I have not given this issue an extensive review. However, 
in a small agency like the CSB, the most important criteria for Board 
appointments should continue to be expertise and experience, regardless 
of party affiliation. I would be interested in discussing this option 
with the leadership at the NTSB to understand what their experience has 
been with the 3-2 party split.
       Responses by John S. Breland to Additional Questions from 
                           Senator Lieberman
    Question 1. As you know, there was a dispute last year between the 
Chemical Safety and Hazard Investigation Board (CSB) and officials of 
the Massachusetts fire service in the aftermath of an explosion at a 
chemical plant in Danvers, MA. Fire officials maintain that CSB 
personnel created tension and confusion at the scene by failing to 
properly notify state and local officials of their arrival and failing 
to coordinate with the already established incident command structure. 
CSB disputes these assertions and complains that local officials 
improperly denied its personnel access to the incident scene.
    Regardless of who is right in this dispute, the very fact that 
there was such a conflict in Danvers raises concerns that there may be 
a larger problem in CSB's relationship with state and local officials 
and first responders. CSB regularly needs to perform its work at scenes 
at which various federal, state, and local officials may all have 
responsibilities. We cannot afford to have future disputes that may 
potentially interfere with both local incident management and CSB's 
ability to conduct effective investigations.
    If confirmed as Chairperson of CSB, what steps will you take to 
ensure that there is a good working relationship between and among CSB 
and state and local officials and first responders? Given the problems 
in Danvers, do you think it might be a good idea to convene a meeting 
with firefighters (and perhaps other first responders) from around the 
nation to ensure that everyone understands each other's roles, and that 
roles and procedures are discussed in advance of future incidents?
    Response. The question appears to refer to certain claims made in 
an unsigned, one-page statement distributed by several representatives 
of the International Association of Fire Chiefs (IAFC) in September 
2007, more than 10 months after the events in question. The CSB has 
thoroughly refuted those claims in a 16-page letter to the Committee 
last month, which I include for the record.
    The central issue in Danvers was not one of notification or 
coordination; it was the fact that the fire services did not recognize 
the CSB's federal investigative jurisdiction under the Clean Air Act. 
Shortly after the arrival of CSB investigators, the Danvers fire chief 
publicly declared the CSB to be ``uninvited,'' ``unwelcome,'' ``not a 
piece of the pie,'' and ``a distraction that has taken time away from 
the real investigators.''\1\ By contrast, a number of other fire chiefs 
have complimented the CSB's investigative work, its professionalism, 
and its coordination with local authorities, as noted in an article\2\ 
published by a regional Massachusetts newspaper, the Salem News, during 
the unfortunate situation in Danvers.
---------------------------------------------------------------------------
    \1\ See AP Domestic News, November 26, 2006 ``Probers Look for 
Clues in Mass Blast,'' Boston Globe November 26, 2006. ``Dispute besets 
blast probe U.S. investigators barred from site by Danvers chief;'' 
Salem News, November 27, 2006, ``Investigators probe blast cause, feds 
fight to get access.''
    \2\ See Salem News, November 29, 2006. ``Others Welcomed Chemical 
Safety Board,'' by Paul Leighton.
---------------------------------------------------------------------------
    Overall, the CSB enjoys excellent relationships with state and 
local fire and emergency preparedness and response officials, and in 
most cases there has been effective coordination at accident sites. My 
goal as chairman will be to continue those valuable relationships for 
the next five years. The success of the CSB's interactions with fire 
officials over the past five years is reflected in the endorsements I 
have received from the nation's leading fire safety organizations, 
including the National Association of State Fire Marshals (NASFM), the 
National Fire Protection Association (NFPA), the International Code 
Council (ICC), the National Association of SARA Title Three Program 
Officials (NASTTPO), and other response and preparedness officials.
    State and local fire authorities benefit from the CSB's work, and 
they take our safety recommendations seriously. For example, in 2005 we 
recommended that the State of Kentucky identify and inspect industrial 
facilities at risk for catastrophic dust explosions, following an 
accident in 2003 that killed seven workers. The state promptly adopted 
the recommendation, gaining additional funding from the legislature for 
the state fire marshal to make the inspection of facilities with 
combustible dust hazards a high priority and to develop remediation 
plans. In 2003, the CSB called on New York City to reform its 
antiquated 85-year-old fire code, following a chemical explosion in 
Manhattan that injured dozens of people including several firefighters. 
Following the CSB's recommendation, the city is now nearing completion 
of a three-year effort to adopt a modern fire safety code, a step that 
will help protect the lives of millions of New York City residents, 
workers, and visitors.
    On April 27, 2005, then-CSB Chairman Carolyn Merritt testified 
before the Senate Homeland Security and Government Affairs Committee, 
which you now chair, on deficiencies in local emergency preparedness 
for chemical releases. Such deficiencies put the lives of police and 
firefighters at risk due to inadequate funding, planning, or protective 
equipment--as in the case of a 2004 chemical accident in northwest 
Georgia where 15 responders were injured by exposure to toxic chemical 
vapor. Chairman Merritt and I were pleased when S. 2145, the bipartisan 
Collins-Lieberman chemical security bill that followed the hearing, 
included extensive new provisions for improving planning and 
preparedness for chemical emergencies.\3\ As you noted to Chairman 
Merritt at the April 2005 hearing:
---------------------------------------------------------------------------
    \3\ Senate Report 109-332, which accompanied the legislation, 
credited the CSB's independent safety investigations with establishing 
the importance of improving chemical emergency preparedness throughout 
the country: ``During the Committee's four chemical security hearings, 
witnesses highlighted the importance of emergency preparedness in 
dealing with a chemical release as well as weaknesses in the current 
state of preparedness of many facilities and communities. In 
particular, Carolyn Merritt, Chairman of the U.S. Chemical Safety and 
Hazard Investigation Board (CSB). and Gerald Poje, a former member of 
the CSB, were critical of chemical plant preparedness across the 
country. Both Merritt and Poje emphasized in their testimony that 
effective emergency response planning and capabilities can mitigate the 
consequences of a terrorist attack on a chemical facility.'' (See 
Senate Report, p. 20) The legislation was reported from committee but 
not acted upon by the full Senate.
---------------------------------------------------------------------------
        ``You may know that Senator Collins and I were successful in 
        amending the budget resolution in the Senate to restore a 
        considerable amount of funding, I guess about $550 million, for 
        the coming year for first responders, and obviously we have to 
        make sure the money is well spent. But you point to a very 
        urgent need which will not be met unless we give the first 
        responders money. Then once we do that, we have to help them 
        use it for that purpose. I thank you.''

    Communities and responders benefit from the CSB's thorough, 
independent investigations of chemical accidents, but it remains a 
significant challenge for the CSB to be known by all fire departments 
throughout the country. The CSB is currently a $9 million, 40-person 
agency with only a handful of staff focused on outreach. By contrast, 
the U.S. has more than 30,000 fire departments, served by more than 1.1 
million firefighters, both career and volunteer.
    The CSB's board and staff have made numerous presentations to fire 
safety organizations over the past five years, including the NFPA, 
NASFM, NASTTPO, and the RFC. We have also published articles describing 
the CSB's mission, investigations, and safety products in a number of 
fire-related magazines and websites, including the International 
Association of Fire Chiefs On Scene newsletter, Industrial Fire World, 
Firehouse.com, Fireengineering.com, and many others. Our safety videos 
are also featured on the website of the U.S. Fire Administration. We 
have received more than 400 individual requests for our safety video 
DVD's from fire chiefs, officers, and other emergency responders--many 
accompanied by strong words of praise for the agency's investigations 
and efforts at reaching out to the fire community. If confirmed as 
chairman, I intend to continue and increase the CSB's vigorous outreach 
to the emergency response community.

    Question 2. In another context, that of homeland security, the 
issue of how myriad federal, state and local officials all work 
together in an incident, is a prominent concern. We saw the need for 
such coordination in the response on 9/11, and we saw the challenges 
that can arise in the response to Hurricane Katrina--including the 
tragic consequences that can result when all the players are not 
prepared to work together.
    One of the key ways through which federal, state and local 
responders work together is through the National Incident Management 
System--or ``NIMS''--which utilizes a unified command structure. The 
Homeland Security Act gives the Department of Homeland Security, 
through the FEMA Administrator, responsibility for maintaining NIMS, 
and relevant federal agencies are all required to comply with NIMS in 
responding to incidents. FEMA has developed courses and approves 
courses to train individuals in the federal government and in the 
states on NIMS.
    Does CSB provide for NIMS training for its employees? If so, who 
receives training? Is the training through the Department of Homeland 
Security or does CSB do it's own training? Do you have any plans for 
future changes in, or expansion of, NIMS training at CSB?
    Response. All of our career investigators, including investigation 
supervisors and investigation managers, have had thorough training on 
the National Incident Management System (NIMS). Most of our 
investigators received their NIMS training in an eight-hour course 
presented by Maryland Fire and Rescue Institute (MFRI) in 2005 and were 
registered with FEMA. Those who did not take the MFRI course completed 
an online independent study course (IS-00700) and were also registered 
with FEMA. We plan to continue providing comprehensive NIMS training 
for all our investigators, as we have done for the past several years.
    However, I must point out that the situation in Danvers was not 
directly related to NIMS, which is designed to promote the fast 
integration of federal, state, and local efforts to respond to major 
disasters. NIMS is a system for emergency response and recovery and is 
not a system for investigating the causes of disasters. Where emergency 
response and investigations may overlap, emergency response must come 
first. In the case of Danvers, however, the fires had been 
extinguished, the neighborhood had been searched for victims and 
evacuated, and the emergency had ceased on November 22, two days prior 
to the arrival of CSB investigators. In that sense the ``incident'' was 
already over.
    Homeland Security Presidential Directive 5 (HSPD-5) and NIMS are 
not intended to, and do not, interfere with the CSB's authority to 
carry out its investigative mission. Paragraph 5 of HSPD-5 states 
unambiguously that ``nothing in this directive alters, or impedes the 
ability to carry out, the authorities of Federal departments and 
agencies to perform their responsibilities under law.'' In fact under 
NIMS, the responsibility of the local incident commander in Danvers was 
to rapidly integrate the CSB into the existing command structure so 
that the Board's lawful functions could proceed. Had they done so all 
parties could have more effectively coordinated their respective 
responsibilities, but regrettably this did not happen.
    During the recent public comment period on the National Response 
Framework (NRF) this month, the Chemical Safety Board asked DHS to 
incorporate the specific HSPD-5 language above into the NRF and to 
emphasize that incident commanders should seek to coordinate with 
federal safety investigations, such as those conducted by the CSB and 
the NTSB. These federal safety investigations are vital for protecting 
communities around the country from possible future accidents.

    Question 3. I understand that CSB hired a public relations firm in 
connection with the Danvers incident. On its web site, that firm, 
Crawford Strategies, says it was charged with ``upholding CSB's public 
image'' and claims credit for, among other things, having ``generated 
substantial press and editorial coverage aimed at setting the record 
straight'' on the Danvers situation. Two examples cited by the firm are 
an editorial and a column in the Boston Globe that portray the dispute 
in a light favorable to CSB and very unfavorable to local fire service 
officials.
    Did CSB, through Crawford Strategies or otherwise, undertake a 
public relations strategy designed to generate criticism of state and 
local officials? If so, isn't it likely that such actions could further 
damage the relationship between CSB and state and local officials, and 
ultimately lead to further distrust of CSB? Do you think CSB's use of a 
public relations firm for this purpose is appropriate? As a Board 
member, were you aware of the ``public relations'' activities 
undertaken in Danvers?
    Response. The premise of these questions is not accurate. Like many 
government agencies that interact with the public, the CSB employs 
public affairs contractors who specialize in media relations. Because 
the CSB does not operate field offices, we frequently employ local 
public affairs firms to identify and contact the news media on our 
behalf, particularly during the early stages of investigations. It is 
simply not possible for the CSB's limited staff to maintain media 
contacts simultaneously in several hundred regional markets around the 
country.
    During the deployment to the Danvers accident site, the CSB hired 
Crawford Strategies, a local Boston area firm, to compile media lists, 
distribute advisories, and make initial contacts with journalists, who 
can then follow up with CSB board members and staff directly on more 
specific and substantive issues. This particular contractor performed 
only a modest amount of work for the CSB, with a total value of less 
than $3,100.
    As a board member. I was aware of the public affairs work done in 
the connection with the Danvers case, and that work was authorized and 
approved by then-Chairman Carolyn Merritt. However, I emphasize that 
there was no ``public relations strategy'' of the kind suggested in the 
question. What occurred in reality was that on Saturday, November 25, 
2006. alter blocking the access of CSB investigators to the accident 
site and refusing to recognize the agency's jurisdiction under the 
Clean Air Act, the Danvers fire chief proceeded to hold a public news 
conference where he declared the CSB to be ``uninvited,'' 
``unwelcome,'' ``not a piece of the pie,'' and ``a distraction that has 
taken time away from the real investigators.''\4\
---------------------------------------------------------------------------
    \4\ See AP Domestic News, November 26, 2006 ``Probers Look for 
Clues in Mass. Blast;'' Boston Globe, November 26, 2006. ``Dispute 
besets blast probe U.S. investigators barred from site by Danvers 
chief;'' Salem News, November 27, 2006, ``Investigators probe blast 
cause, feds fight to get access.'' 
---------------------------------------------------------------------------
    The CSB had said nothing publicly about the dispute to that point 
and had certainly not criticized the fire chief or other local 
officials. Rather, we had worked behind the scenes in an effort, we 
hoped, to quickly resolve the issues, but this effort was fruitless. On 
Sunday, after a news cycle where the Danvers chief's striking comments 
were widely reported, Mr. Crawford made initial contacts with staff 
from the Boston Globe for follow-up later in the day by the CSB's 
director of public affairs. The public affairs director, in 
consultation with the CSB chairman, was the official spokesperson for 
the agency and discussed the substantive issues with Globe reporters 
and writers. The purpose of the contacts was, first and foremost, to 
explain our mission to the community in Massachusetts and to discuss 
the value of independent safety investigations, following the fire 
chief's pointed criticism.
    The CSB believed that it was urgent to access the accident site--
particularly since the state and local fire services were in the 
process of clearing large portions of the site using heavy equipment, 
causing the irreparable loss of potential evidence.
    It is curious to suggest that the CSB or any other party has an 
ability to control the editorial content of the Boston Globe, one of 
the nation's oldest and most respected newspapers. The CSB simply 
explained to the Globe our statutory authority and mission, our proven 
expertise in handling and analyzing complex accident sites, and our 
history of promoting the safety of communities nationwide against 
chemical accidents. The Globe's reporters, editors, and columnists then 
formed their own opinions about the confrontational public position 
taken by the state and local fire services.

    Senator Boxer. Thank you so much, Mr. Bresland.
    Mr. Shearer of Delaware, to be a member of the Chemical 
Safety and Hazard Investigation Board for 5 years.

 STATEMENT OF C. RUSSELL H. SHEARER, NOMINEE FOR BOARD MEMBER, 
      U.S. CHEMICAL SAFETY AND HAZARD INVESTIGATION BOARD

    Mr. Shearer. Thank you, Madam Chairman and members of the 
Committee. I appreciate the opportunity to appear before you 
today.
    With me today is my wife, Michelle, and my 1\1/2\-year-old 
daughter, Eliza, upon whom I may call to answer questions, 
because nobody can be mad at a little girl with a smile such as 
hers.
    I am grateful and honored by the President's nomination to 
serve as a member of the Chemical Safety and Hazards 
Investigation Board. I appreciate this opportunity to appear 
before the Committee today.
    I likewise appreciate having had the counsel of the 
Committee members, their staff and of other Congressional 
staff. Understanding their views has been instructive and I 
will continue these communications if confirmed.
    I look forward, if confirmed, to working closely and 
collegially with the Chairman and board members. They have 
wisely hewn fast to Congress's mandate to investigate events, 
to devise lessons learned and recommendations from them and to 
communicate that information to workers, the public, industry 
and government agencies. That mandate is an important one, 
because in it Congress recognized that investigating and 
communicating lessons learned is the first step to building 
safety performance.
    Industry, in a perfect world, would uniformly recognize the 
wisdom of that fact and universally act on it, performing this 
function on its own and sharing the operating experiences. But 
it has not and, so Congress created the Board to fill that 
void.
    My experience is in high hazard chemical and nuclear 
operations as a program manager and as a chief environment, 
safety and health officer. I routinely use the Board's 
products. The Board's expertise in conducting investigations 
and devising lessons learned and recommendations is, in my 
assessment, outstanding. The challenge is to ensure that the 
lessons are effectively communicated in a timely fashion to the 
intended audience.
    I therefore intend, if confirmed, to work with the Chairman 
and Board members to build on that excellent progress already 
made, and to promote the following three objectives. First, the 
Board should continue to build the base of safety knowledge by 
expanding the number of investigations it conducts. Each 
investigation is an opportunity to learn new information, to 
gain additional insights into mechanical system, management 
system and human behavior. This safety knowledge, I believe, is 
critical in this post-9/11 operating environment because safer 
plants provide the defense-in-depth required to prevent or 
mitigate the acts of potential malevolent actors.
    Second, the Board should adopt additional cost effective 
methods for outreach to and awareness among the public, 
workers, industry and government agencies. I believe that 
communication is vitally important, because it builds 
accountability and transparency. It ensures that the lessons 
learned are translated into actions that improve safety 
performance.
    Third, the Board should continue to analyze operating 
experience data that identify adverse and little-understood 
trends, and that point out generic safety issues with broad 
applicability across the chemical industry.
    I will bring to the Board, if confirmed, the commitment I 
have demonstrated in prior civil service to safe and reliable 
operations, to identifying and working with stakeholders and to 
sharing information openly and conducting affairs 
transparently. I will also bring to the Board, if confirmed, 
hands-on experience, including the following: understanding and 
respecting worker and public safety as a foremost 
consideration. Conducting performance-based investigations. 
These investigations have included typical chemical events, 
such as process safety management, chemical fires, failure to 
follow procedure and equipment failure, as well as common 
industrial accidents, such as arc flashes and the failure to 
use fall protection.
    I also have experience in developing and implementing an 
operating experiences program that is a formal process of 
sharing information. Promoting the development and use of 
specific tools beyond simple lagging metrics to enhance 
operational awareness of real-time facility-level safety and 
promoting the development of expectations that integrate safety 
throughout a facility's life cycle.
    Madam Chairman, I appreciate the opportunity to testify 
before this Committee and its consideration of my nomination. I 
will seek to answer any questions that the Committee members 
may have, and I have submitted my complete testimony for the 
record. Thank you.
    [The prepared statement of Mr. Shearer follows:]
Statement of C. Russell H. Shearer, to be a Board Member, U.S. Chemical 
                 Safety and Hazard Investigation Board
    Madam Chairman, Ranking Member Inhofe, and Members of the 
Committee, thank you for the opportunity to appear before you. With me 
today are my wife, Michelle, and my one and a half year old daughter 
Eliza, upon whom I may call to answer questions because nobody can be 
mad at a girl with her smile.
    I am grateful for and honored by the President's nomination to 
serve as a member of the Chemical Safety and Hazards Investigation 
Board (``Board''), and I appreciate this opportunity to appear before 
your committee today. I likewise appreciate having had the counsel of 
the committee members, their staff, and of other congressional staff. 
Understanding their views has been instructive, and I will continue 
these communications if confirmed.
    I look forward, if confirmed, to working closely and collegially 
with the Chairman and Board Members. They have wisely hewn fast to 
Congress's mandate to investigate events, to devise lessons learned and 
recommendations from them, and to communicate that information to 
workers, the public, industry, and government agencies. That mandate is 
an important one because in it Congress recognized that investigating 
and communicating lessons learned is the first step to building safety 
performance. Industry in a perfect world would uniformly recognize the 
wisdom of that fact and universally act on it, performing this function 
on its own and sharing the information and operating experiences both 
within and without the chemical industry. But it has not and so 
Congress created the Board to fill that void.
    The Board, then, has a critical national safety function in 
executing a performance-based investigation program that seeks out root 
and contributing causes, the solutions to which may require technical, 
managerial, policy, or regulatory solutions, or a mix of each. Congress 
and the Board have thus taken an important step beyond traditional, 
limited-scope assessments of simple compliance with existing 
regulations, and into the more important function of building from 
events a good base of safety knowledge, lessons learned, and operating 
experience. I therefore view the Board's mission to be similar to--
albeit an imperfect analogy--a high-performing corporate safety office 
whose responsibility is to use events as learning tools that change 
behavior in order to prevent the recurrence of that or similar events.
    My experience is in high-hazard chemical and nuclear operations--as 
a program manager and as a chief corporate environment, safety, and 
health officer--and I routinely use the Board's products. The Board's 
expertise in conducting investigations and devising lessons learned and 
recommendations is, in my assessment, outstanding. The insights gained 
from these investigations serve a critical role in fostering excellence 
in chemical-safety performance because they form the technical basis to 
help the industry and the appropriate regulatory agencies identify and 
formulate corrective actions. The challenge is to ensure that the 
lessons are effectively communicated in a timely fashion to the 
intended audience. I therefore intend, if confirmed, to work with the 
Chairman and the Board Members to build on the excellent progress 
already made and to promote the following three objectives:
    <bullet> First, the Board should continue to build the base of 
safety\1\ knowledge by expanding the number of investigations it 
conducts in a manner, of course, that maintains the excellence for 
which these investigations have become known. Each investigation is an 
opportunity to learn new information, to gain additional insights into 
mechanical-system, management-system, and human behavior. Indeed, 
enhanced safety performance begins with building safety knowledge, 
including developing lessons learned, operating experiences,\2\ and 
best practices.\3\ This safety knowledge, I believe, is critical in 
this post 9-11 operating environment because safer, more robust, and 
better and more intelligently designed and engineered plants provide 
the defense-in-depth required to prevent or mitigate the effects of 
potential malevolent acts.
---------------------------------------------------------------------------
    \1\ I view the generic term ``safety'' to encompass public safety, 
worker safety and health, plant safety, and protection of the 
environment, and I am a firm believer that a high performing 
environment, safety, and health (ES&H) program will include each of 
these components. I believe, moreover, that performance in any one 
aspect of an ES&H program--whether it is environment, safety, or 
health--is a good indicator of performance in each of the others.
    \2\ Lessons learned is the data collected from an event or events, 
which is stored in a database or other less formal method; operating 
experiences is that same data when applied to operations in order to 
improve safety or reliability or some other attribute of plant 
function.
    \3\ A ``best practice'' is a description of process proven to 
generate favorable results written in a way that others may apply it 
with equal success.
---------------------------------------------------------------------------
    Building this base of safety knowledge is also an important 
national asset because companies with good safety records are 
profitable companies. These companies have learned the truism that 
integrating safety into production yields safe and reliable operations 
that, in turn, produce excellent products. This is true because the 
focus is on quality--quality in safety, quality in worker health, 
quality in environmental performance, and quality in production--rather 
than production alone. The integration of these attributes is the 
pillar of an overall Quality Assurance program, which studies have time 
and again shown to be the foundation of a competitive enterprise. These 
companies have therefore come to the enlightened self-interest that 
safety is not only morally right; it is a good business practice.
    <bullet> Second, the Board should adopt additional cost-effective 
methods for outreach to and awareness among the public, workers, 
industry, and government agencies. I believe that communication of 
information learned from events to all of these groups is vitally 
important. It builds accountability and transparency and ensures that 
lessons learned are translated into actions that improve safety 
performance.
    The Board, for example, should establish forums to learn, share, 
and consider state-of-the-art and best practices from diverse 
stakeholders, including the public, labor unions, workers, industry 
associations, corporate representatives, national consensus-standard 
setting groups, environmental groups, the public, and others. These 
meetings should not be mere press events but gatherings where 
technically- and not-so-technically-minded people can share information 
and insights with the explicit objective of improving safety 
performance. An important lesson learned over the last two decades is 
that institutions must be technically inquisitive for a safety culture 
to flourish, and that they must be open to new ideas and practices from 
outside their experiences in exercising that inquisitiveness.
    The Board might also build on the Institute for Nuclear Power 
Operators' ``Prevent Events'' model in preparing talking points that 
synopsize its reports. These talking points would then be available for 
industry to use at plan-of-the-day or daily ``tool box'' meetings so 
that it could explain to its workers exactly how an event at another 
facility applies to them personally. It is a tool, in short, that makes 
abstract events personal to the workers and helps them understand how 
to behave more safely.
    The Board should also seek out successful companies that have 
demonstrated an understanding of, and put into practice, the concept of 
integrating safety with production. The experience and practice of 
these companies can then be used as case studies to communicate the 
concept and to form the basis of best practices.
    <bullet> Third, the Board should continue to analyze operating-
experience data that identify adverse--and little understood--trends 
and that point out generic safety issues with broad applicability 
across the chemical industry. In 2002, for example, the Board analyzed 
150 accidents involving uncontrolled-chemical reactions with the 
objective of improving reactives-hazard management. This report 
resulted in several recommendations to the Environmental Protection 
Agency (EPA) and the Occupational Safety and Health Administration 
(OSHA).
    I will bring to the Board, if confirmed, the commitment I have 
demonstrated in prior civil-service positions to safe and reliable 
operations, to identifying and working with stakeholders, and to 
sharing information openly and conducting affairs transparently. I will 
also bring to the Board, if confirmed, hands-on experience that will be 
useful in understanding the precursors that cause accidents, 
recognition of business- and safety-management systems that influence 
an organization's safety culture, and techniques that may resolve those 
issues, including the following:
    <bullet> Understanding and respecting worker and public safety as a 
foremost consideration;
    <bullet> Conducting performance-based accident investigations that 
focus on underlying root causes and employ innovative methodologies, 
such as Human Performance Improvement, which seeks to ferret out latent 
organizational defects that lead to most human error;
    <bullet> Developing and implementing an operating-experiences 
(lessons-learned) program that is not a mere data-collection exercise 
but a process that shares those experiences among the corporate 
specialists and executives who make decisions about capital investments 
in vital plant systems, infrastructure, and technical-staff development 
that ensure continued safety and reliability;
    <bullet> Building a well-developed operating experiences program 
that looks beyond the parochial experiences of a particular industry to 
analyze analogous events in others, such as the Columbia Space Shuttle 
accident and the Davis-Besse nuclear power plant event (involving 
reactor-vessel head corrosion), in order to derive comprehensive and 
balanced operating experiences, recommendations, and operational 
requirements;
    <bullet> Promoting operational rigor through procedures in a 
program previously guided by ad-hoc, expert advice, sometimes known as 
``tribal knowledge;''
    <bullet> Promoting the development and use of specific tools, 
beyond simple lagging metrics, to enhance, throughout an organizational 
structure, operational awareness of real-time, facility-level safety 
and production performance, which, in turn, promotes information 
sharing about and accountability for that performance; and
    <bullet> Promoting the development of expectations (standards) that 
integrate safety throughout a facility's life cycle, including site 
selection, design (especially, early design stages), construction, 
operation, and dismantling and decommissioning.
    Madam Chairman, I appreciate the opportunity to testify before this 
Committee, and its consideration of my nomination. I will seek to 
answer any questions that the Committee Members may have. Thank you.
                                 ______
                                 
 Response by Russell H. Shearer Additional Questions from Senator Boxer
    Question 1. Involvement in Activities that Occurred in Anniston, 
Alabama. Please provide me with all records held by the Department of 
Defense, yourself, or from other people that you can readily obtain, 
including all emails, memos, letters, electronic files and other 
records relating to your involvement in an effort by employees of the 
Department of Defense to plan exercises designed to prepare for a 
possible accident or incident at the Anniston Army Depot in Alabama, 
when it was known that local officials lacked key equipment to 
participate in such exercises.
    Response. I have attached to this submission all records that I 
could obtain responsive to this request.
    Attachment 1, All e-mails of which I retained a printed copy.
    Attachment 2, Complete set of the e-mails, including those on which 
I was neither addressed nor copied. These e-mails were originally and 
are now attached to a letter from Senator Shelby sent to my principal, 
the Assistant Secretary of the Army (Installations & Environment). 
These e-mails have had names on the ``To'' and ``CC'' list redacted, 
which is the manner in which I received them from Senator Shelby's 
office. This set is also the sole complete set of e-mails now 
available.
    Attachment 3, Letter from Congressman Bob Riley.
    Attachment 4, E-mails and talking points discussing intent of 
leaked e-mails.
    Attachment 5, Calhoun County Chamber of Commerce Resolution adopted 
after e-mail leak (August 19, 2003) commending my principal for work in 
bringing Anniston plant on-line.
    My detailed response regarding the news reports of my involvement 
in the Anniston, Alabama, event appears in my response to Senator 
Lautenberg's QFRs 1 and 2 below.

    Question 2. Involvement in Department of Energy's Beryllium-
Associated Worker Registry--Please describe your involvement, including 
any past involvement, in the Department of Energy's Beryllium-
Associated Worker Registry.
    Please include any formal evaluations of the program conducted by 
the Department of Energy or independent offices, including Inspector 
Generals, of this Registry while you were associated with it.
    Please also provide any evaluation of your work performance while 
at the Department of Energy, including any evaluation of your 
performance related to the Registry.
    Response. The President appointed me to serve as the Principal 
Deputy Assistant Secretary of Energy for Environment, Safety & Health 
in August 2004. I served in that role until March 2006, when I became 
the Acting Assistant Secretary of Energy for Environment, Safety & 
Health (``EH'').
    From August 2004 until March 2006 my portfolio did not include the 
Beryllium-Associated Worker Registry because that function resided in 
the Office of Worker Health, a sub-office within EH. The Assistant 
Secretary managed the affairs of that office, except for adoption of 
the Worker Safety Rule (10 C.F.R. Part 851), an action on which we both 
worked.
    In March 2006 I became the Acting Assistant Secretary for EH and, 
at that time, was made aware of the ongoing audit by the Department of 
Energy's (DOE'') Inspector General's office. Shortly thereafter my 
staff briefed me on the Inspector General's audit findings and on April 
5, 2006, less than a month after becoming the Acting Assistant 
Secretary, I signed and transmitted EH's response to the Inspector 
General's findings.
    I have attached as Attachment 6 the audit report of the registry, 
U.S. Department of Energy-Office of Inspector General, Audit Report: 
Implementation of the Department of Energy's Beryllium-Associated 
Worker Registry (DOE/IG-0726) (April 2006). The EH response is included 
in the Audit Report at page 10.
    I have attached as Attachment 7 my job performance reviews 
assessing my performance during the period August 2004 to October 1, 
2006, the most recent rating that I have received. Please continue to 
accord these documents the confidentiality of the Privacy Act and 
manage them as Official Use Only.
    [The referenced documents may be found in committee's file.]

    Responses from Russell H. Shearer to Additional Questions from 
                           Senator Lautenberg
    Question 1. In 2002, you were reportedly part of an effort by the 
Pentagon to challenge local officials in Alabama to participate in 
emergency response exercises, knowing that they would refuse, so that 
the Pentagon could send out press releases shifting blame over lack of 
local preparedness for a potential release from a chemical weapons 
incinerator.
    Response. News reports concerning the incident you describe were 
incorrect in suggesting that the Army's effort was geared toward 
embarrassing local officials and shifting blame. To the contrary, as I 
explain in detail below, our efforts were aimed at encouraging the 
Anniston communities to engage in more emergency-preparedness exercises 
and to help them obtain the funding for the resources that these 
communities needed.
    Five years ago, several newspapers in Alabama reported on a string 
of e-mails, in which two of mine appeared, that evaluated an idea for 
inviting the communities around the Anniston Chemical Agent Disposal 
Facility to engage in emergency-preparedness exercises. These e-mails 
were written to execute the instructions of my principal,\1\ who had 
three broad objectives: (1) Prepare the communities for emergency-
preparedness, which my principal and I held as essential to beginning 
operations; (2) Begin operations because the chemical weapons in 
storage in the communities presented a safety risk, especially in light 
of September 11, 2001; and (3) Break a long-standing deadlock in which 
some communities refused to engage in emergency--preparedness exercises 
until all emergency-preparedness funding had been provided, even though 
the Army had already provided more than $100 million in funding. The e-
mails also articulated an additional legal and business rationale, 
which was to document the Army's efforts at building readiness in the 
likely event that Congress, the Office of Management and Budget, or a 
lawsuit sought evidence of it.
---------------------------------------------------------------------------
    \1\ Please see Attachment 12, the end of paragraph 3.
---------------------------------------------------------------------------
    The true object then, contrary to the news reports, was to build 
emergency-preparedness and community safety in order to destroy 
chemical agent, which would also enhance community safety.
    The newspapers also reported that these e-mails reflected a so-
called ``plan.'' The fact is, however, that they merely related our 
preliminary thinking on how best to build emergency preparedness and 
the staff's internal debate on it. Neither the e-mails nor the news 
reports reflect any final decisions or hard-and-fast plans. We were, in 
short, trying to figure out what to do.
    But the preceding discussion is no slight-of-hand to avoid 
responsibility for my involvement in the e-mail discussion of how to 
engage the communities. It simply sets out the mitigating circumstances 
of that involvement. Our execution was flawed and I regret that.
    Intergovernmental communication is an art not a science, and our 
communications plan should have focused on meeting with the communities 
and engaging them, rather than on worrying about what we would do in 
the event they declined to engage with us. A corollary to this 
principle is that we should have been more careful about tone. Rather 
than inviting the communities, which may be perceived as an ultimatum 
even if it is not intended that way, we should have, again, engaged at 
the local level. We should have, in short, worked more closely with 
local communities and their Congressional delegations, even in devising 
this preliminary path forward.
    I had come to this conclusion myself as a consequence of the 
intense internal debate. Indeed, throughout the process of exchanging 
views on this matter I was learning, and coming to the conclusion that 
my principal should not ``invite,'' ``drive,'' or ``challenge'' the 
local community to emergency preparedness. I had not formulated an 
alternative to break the deadlock that the idea then under 
consideration was to address, yet my focus was turning in that 
direction. But before I could advise my principal that the idea was 
unwise, someone leaked the e-mail chain and the learning became moot.
    The incident and the lessons it taught were a hard knock at the 
time, but they have positively influenced me and my work has concretely 
benefited from them. I believe that I possess a full suite of tools to 
address even the most vexing circumstances. I therefore believe my 
career and my record substantiate that I have been dedicated to 
protecting worker and public safety and health and the environment. 
This is the true nature of my professional work--not the abstractions 
of a few news reports based on two e-mails trying to focus staff work 
on developing proposals to solve a problem.
                               background
    In approximately December 2001 my principal, the Assistant 
Secretary of the Army (Installations & Environment), was assigned, by 
the Secretary of the Army, to take control of the chemical 
demilitarization program, which had the mission of destroying the 
Nation's stockpile of chemical weapons. By this time, it had come under 
increasing scrutiny from Congress and the Office and Management and 
Budget for repeated cost overruns, from the communities for emergency 
preparedness, and from the international community for compliance with 
a multilateral treaty mandating the destruction of all chemical 
weapons. The technologies for destroying the agent that was under the 
jurisdiction of this program\2\ had been selected and the plants, such 
as that in Anniston, were built, or very nearly built, and undergoing 
the final steps necessary to bring them on-line. September 11, 2001, 
moreover, had created a palpable, almost physical, imperative to 
destroy the agent and rid the communities of the potential threat and 
terrorist target it presented.
---------------------------------------------------------------------------
    \2\ The agent located at two other sites (Pueblo, Colorado, and 
Blue Grass, Kentucky) had been segregated from the program and made 
part of another program utilizing alternative technology; i.e., 
technology and other than incineration or neutralization.
---------------------------------------------------------------------------
    The Assistant Secretary, who maintained day-to-day management of 
the program due to the safety management and operational challenges it 
presented,\3\ adopted a phased approach to the plants. That is, he 
evaluated the issues at each facility and addressed those at the 
operating plants first (Johnson Atoll and Tooele, Utah), the plants 
closest to beginning operations next (Aberdeen, Maryland; Umatilla, 
Oregon; and Newport, Indiana); and the plants scheduled to begin 
operations thereafter third (Pine Bluff, Arkansas; Anniston, Alabama). 
All the while, we were also involved in an operation known as ``Roving 
Osprey'' to place the chemical agent and weapons in more hardened 
storage facilities and to work with the communities to accelerate the 
disposal schedules.
---------------------------------------------------------------------------
    \3\ I served as his Special Assistant from November 2001 to August 
2004, and as the Acting Deputy Assistant Secretary of Chemical 
Demilitarization from September 2002 to February 2003. While I seek to 
deflect no attention from my own involvement in this incident, the fact 
is that I received my instruction from the Assistant Secretary. Please 
see Attachment 12, the end of paragraph 3.
---------------------------------------------------------------------------
                       circumstances at anniston
    June and July 2002 found the Assistant Secretary progressively more 
interested in events at Anniston due to its impending startup date and 
the need for it to operate in order to eliminate the safety risk 
presented by the weapons in storage there. Briefing on briefing painted 
a consistently challenging situation: Some of the local governments 
worried that the Army's funding had been insufficient for some 
emergency-preparedness equipment, and so they were disinclined to 
participate in emergency-preparedness activities until the funding for 
that equipment was provided.\4\ For its part, the Army compounded the 
situation (prior to my principal inheriting the program) by failing to 
observe all of its commitments.
---------------------------------------------------------------------------
    \4\ Not all of the local communities shared this concern and were 
therefore disengaged. Several key communities were engaged in 
exercising their emergency-response systems.
---------------------------------------------------------------------------
    The entire issue was further compounded by a technical debate, 
which tied into the first concern set out above, among the Army staff 
and some of the local communities about which emergency-preparedness 
equipment was necessary, how it could be used, and whether it could be 
maintained.\5\ It, in turn, was exacerbated by the practice of the 
separate agencies responsible for emergency-preparedness exercises to 
engage in once yearly exercises that tested the entire emergency-
preparedness program with no ``run-up'' exercises on the parts.
---------------------------------------------------------------------------
    \5\ The debate, in many regards, illustrated the phenomenon 
described by Mr. Timothy R. Gablehouse, President of the National 
Association of SARA Title III Program Officials, at the July 10, 2007, 
Subcommittee on Transportation for emergency-preparedness exercises to 
engage in once yearly exercises that tested the entire emergency-
preparedness program with no ``run-up'' exercises on the parts.
---------------------------------------------------------------------------
   goal was to ensure the community's safety and engage it better in 
                    emergency-preparedness planning
    All of this swirling argument prevented the two most important 
things: (1) preparing the community for operations, and (2) operating 
the plant to destroy the agent, which, again, had a visceral importance 
in the very recent wake of September 11th. The Assistant Secretary and 
I viewed the community's emergency preparedness as an absolute 
requirement--a condition precedent--for the safe startup of the agent-
destruction plant. But the startup of that plant was also an absolute 
requirement, in our minds, for the safety of that community because 
without it the community would be left living with the chemical 
weapons, which was a potential terrorist target and safety hazard in 
light of September 11, 2001.
    Neither he nor I were thus satisfied with the Army's emergency-
preparedness activities in the community or with some of the 
community's engagement in that planning. More palpable as all of this 
bureaucratic bickering was going on was the worry of the people in the 
community, which was fueled, in part, by the frequent negative press 
that did not always seek out the factual details but instead appeared 
to rely on overly simplistic, sometimes misleading ``talking points.''
    We perceived that our job was to engage the communities, encourage 
them to participate in fruitful and regular training exercises, provide 
those training exercises, obtain the resources for the remaining 
necessary equipment, and, through media reports on those fruitful 
exercises, build public confidence in emergency preparedness. The 
Assistant Secretary and I therefore fundamentally wanted to engage the 
communities in emergency preparedness drills and to ensure their 
safety, which, again, we believed, was our foremost responsibility in 
preparing for the destruction of chemical agent.
    He then directed me to evaluate with my staff the idea of sending 
an invitation to the communities and asking them to participate in a 
series of emergency-preparedness exercises. These exercises and the 
equipment for emergency preparedness would be funded by the Army, which 
would also announce those communities that elected to participate and 
those that did not. I was to return to him ``shortly'' with a draft of 
a letter or memorandum and with a discussion of staff views. He would 
then make the determination whether to execute.\6\
---------------------------------------------------------------------------
    \6\ Please see Attachment 12, the end of paragraph 3.
---------------------------------------------------------------------------
    The objective, then, was to encourage more emergency-preparedness 
exercises and training, obtain the funding for the resources that the 
community's needed, and encourage the participation of all the local 
communities. The objective was not to bully, coerce, or embarrass any 
of the local communities in order to shift blame from the Army for any 
of its own shortcomings.
    These points are set out in detail in the e-mail exchange, but the 
newspapers elected not to report on them. In the first e-mail of the 
exchange, dated August 28, 2002, Mr. Lawrence Skelly, who worked for 
me, recited the objective to encourage more emergency-preparedness: 
``We wholeheartedly support the exercise [of emergency-preparedness 
systems] described below. It is imperative that we begin building trust 
and confidence in the Anniston region emergency response system that 
the Army, through CSEPP [Chemical Stockpile Emergency Preparedness 
Plan], has pumped over $100M into the last twelve years.'' Skelly to 
Distribution (Aug. 28, 2007).
    Mr. Skelly further elaborated on our commitment to preparing the 
community for safe operations, stating that current methods of 
encouraging preparedness had not worked well:
    In summary, we have a responsibility to the community to help it 
get ready [for operations]. Clearly, the current CSEPP approach for 
conducting a once-a-year exercise is not working in Anniston. The 
public is nervous and we are troubled by the recent refusal of certain 
county agencies to participate in exercises. The community is not ready 
[emergency preparedness] for toxic operations [introducing chemical 
agent into the plant], despite the millions of dollars poured into 
emergency management in the region. We must change that status.
    Id. He laid out the concept of ``looking at taking an aggressive, 
proactive approach to conducting a series of exercises . . . beginning 
in the very near future and continuing until the community declares 
itself adequately prepared for a CSEPP emergency.'' Id. (emphasis 
supplied).
    Mr. Skelly also laid out an idea for exercising more frequently 
than once a year:\7\ ``What we envision is a monthly exercise paradigm 
that focuses on specific response activities. One exercise might drill 
the medical component of the response system. The next exercise might 
focus on command and control. Each exercise could work more than one 
CSEPP functional component.'' Id. The point here, of course, was to be 
forward leaning, to show leadership in proposing a series of exercises 
to enhance community safety and engage it in emergency preparedness 
planning.
---------------------------------------------------------------------------
    \7\ This concept of exercising more than once a year and exercising 
parts in addition to the whole had worked elsewhere and so we believed 
it would also work at Anniston: ``This model has worked exceptionally 
well at the Umatilla [Oregon] site and we believe it will work in 
Anniston too.'' Skelly to Distribution (Aug. 28, 2002).
---------------------------------------------------------------------------
    My own e-mail of August 28, 2001, the first of two in the exchange, 
also emphasized that point, stating that ``I did not read Larry's e-
mail [of August 28, 2001] to imply that anyone in the Army (or FEMA) 
[Federal Emergency Management Agency] performed poorly but to reflect 
the reality that Anniston is refusing to cooperate in preparedness 
activities.'' Shearer to Lantzer (Aug. 28, 2001).\8\ I emphasized that 
point again in another e-mail of September 9, 2001, the second of the 
two in the exchange, stating that the ``objective of the Army's 
invitation, to be issued by Dr. Fiori (ASA(I&E)) [Assistant Secretary 
of the Army for Installations & Environment], is to encourage Anniston 
to participate in the very drills that it has heretofore declined.'' 
Shearer to Conklin (Sept. 9, 2001).
---------------------------------------------------------------------------
    \8\ Lt. Colonel Lantzer, of the Soldier Biological and Chemical 
Command (SBCCOM), to whom my e-mail was addressed, was offended that 
our office, which had policy, guidance, and oversight responsibilities, 
was stepping into her turf to execute. Yet we were seeking to do just 
that: Begin the process of developing the policy on engaging 
communities and Mr. Skelly's e-mail was the very first step in that 
process.
    SBCCOM was not part of my office or of my principal's office. It 
was a separate Army organization in the military, not civilian 
leadership, portion of the Army.
---------------------------------------------------------------------------
    Some of the newspapers reported that the objective of this concept 
was to issue a ``challenge'' or ``invitation'' that we knew would be 
rejected. The Army, the newspapers asserted, would then attempt to 
shift the blame for delayed operations from itself to the communities 
when the ``challenge'' or ``invitation'' was rejected. The newspapers 
predicated this contention on the well-known fact that the communities 
had been funded for some, but not all, of the necessary emergency-
preparedness equipment.
    The facts and the plain statements in the e-mails, however, belie 
the newspaper assertions. Mr. Skelly recognized the vital importance of 
funding the remaining necessary emergency-preparedness equipment in his 
very first e-mail proposing the idea and seeking comment on it. He 
noted that the Army had an obligation to ``ensure'' that the community 
had sufficient resources and support to carry out the proposal: ``We 
will begin developing the proposed program with SBCCOM [Soldier 
Biological and Chemical Command], AMC [Army Material Command], and FEMA 
to ensure the Anniston community has sufficient resources and support 
to carry out this proposal.'' Skelly to Distribution (Aug. 28, 2007) 
(emphasis supplied). Obtaining funding for the remaining equipment was 
thus an integral part of the idea from the very start.
    Mr. Skelly's e-mail proposing the idea, moreover, laid out a phased 
approach so that exercises would take place with the resources on hand 
and progress as more became available: ``A range of drills falling 
between basic tabletop exercises and full up field exercises with 
deployment hot lines, field response teams, and so forth, probably 
would accomplish the objective of providing the Anniston CSEPP 
community with a variety of exercise opportunities.'' Id. (emphasis 
supplied). Tabletop exercises, for example, require no field equipment 
because they simulate command-and-control responses. They require, 
instead, tables, paper, telephones, and people, which were in ready 
supply. The inclusion of these type exercises flatly rebuts some 
newspaper claims that the Army's intent had to be malevolent because 
the community did not have field equipment, such as first responder 
suits. One can participate in a tabletop exercise without first 
responder suits.
    In addition to our very serious concern about community safety, our 
second objective was to document the Army's obligations to exercise and 
prepare the local communities. We sought also, as part of this, to 
document the Army's due diligence in adhering to that preparation 
obligation in the likely event that Congress, the Office of Management 
and Budget (``OMB''), or a lawsuit sought evidence of it. The program 
at that time received a significant amount of guidance from the 
Congress, OMB, and occasional lawsuits, and we had an obligation under 
the Administrative Procedures Act and good-business practices to 
document our efforts and to build an administrative record.
    I stated this need to build a record: ``He [Mr. Skelly] is doing so 
at my request, which is predicated on our . . . need to build a record 
showing that the Army has exercised all due care in preparing for 
operations.'' Shearer to Lantzer (Aug. 28, 2001). But I also emphasized 
that the primary purpose was to encourage emergency preparedness: ``The 
objective of the Army's invitation, to be issued by Dr. Fiori 
(ASA(I&E)), is to encourage Anniston to participate in the very drills 
that it has heretofore declined. The further purpose of the invitation 
is to create a record demonstrating that the Army has exercised due 
diligence in preparing for operations, including encouraging Anniston 
to participate in exercises intended to prepare it for a potential 
emergency.'' Shearer to Conklin (Sept. 9, 2001). I concluded that 
``[i]n sum, the Army seeks to document the invitation and to document 
the response or lack thereof.'' Id.
    The objective underlying each of the preceding two, and perhaps 
among the most important, was obtaining the funding necessary to 
provide the community with all the resources it needed. Mr. Skelly 
pointedly focused on that need in his first articulation of the idea to 
engage the local communities: ``We will begin developing the proposed 
program with SBCCOM, AMC, and FEMA to ensure the Anniston community has 
sufficient resources and support to carry out this proposal.'' Skelly 
to Distribution (Aug. 28, 2007). Contrary to the newspaper reports, 
then, obtaining the funding for the resources was as much a part of the 
initial thinking as planning an exercise schedule and documenting Army 
due diligence.
    So, in sum, the initial thinking on how to engage the local 
communities included three crucial objectives: (1) encourage more 
emergency-preparedness exercises and training and the participation of 
all the local communities; (2) document the Army's efforts at building 
readiness; and (3) obtain the funding for the resources that the 
community's needed.
   e-mails and news reports reflect preliminary thinking--not final 
                               decisions
    While the newspapers reported that these e-mails reflected a so-
called ``plan,'' the fact is that they merely related our preliminary 
thinking on how best to build emergency preparedness and the staff's 
internal debate on it. Neither the e-mails nor the news reports reflect 
any final decisions or hard-and-fast plans. We were, in short, trying 
to figure out what to do.
    My principal directed me to prepare a draft letter that reflected 
his notion on how to proceed and that also reflected the thinking of 
his staff, both that favoring and disfavoring the proposal. My mission 
was to transmit his objectives to the staff and to manage the 
compilation of a draft path forward and comments favoring and 
disfavoring it. He then intended to review the draft path forward, 
debate it with staff, and make a decision about whether to proceed with 
it or some other course.
    Indeed, this internal thinking then represents a snapshot in time 
of the staff's thinking about the facts, procedures, and external 
pressures. It does not represent a final product, my recommendation to 
my principal, or my principal's decision.
    The e-mails show that there was great, sometimes acrimonious, 
debate among the staff working this issue, and that I was seeking to 
articulate the preliminary objectives and focus staff energy on 
preparing a proposal and recommendations. They also show some poorly 
chosen words, which I address below. But more than anything, they show 
that we were thinking through an idea:

        <bullet> ``We would greatly appreciate your comments. We will 
        begin developing the proposed program with SBCCOM, AMC, and 
        FEMA to ensure the Anniston community has sufficient resources 
        and support to carry out this proposal.'' Skelly to 
        Distribution (Aug. 28, 2007) (emphasis supplied).
        <bullet> ``We are looking at taking an aggressive, proactive 
        approach to conducting a series of exercises . . . .'' Id. 
        (emphasis supplied).
        <bullet> ``What we envision. . . .'' Id. (emphasis supplied).
        <bullet> ``One exercise might drill . . . .'' Id. (emphasis 
        supplied).
        <bullet> The next exercise might focus . . . .'' Id. (emphasis 
        supplied).
        <bullet> ``He [Mr. Skelly] has sought comment among action 
        officers at his level in order to obtain the information 
        necessary to prepare my request for the requisite staffing. 
        Larry [Skelly] and I will staff the action [i.e., provide it 
        for concurrence] to come to you because you have the resources 
        to conduct the activities.'' Shearer to Lantzer (Aug. 28, 2001) 
        (emphasis supplied).
        <bullet> ``The attached draft . . . .'' Skelly to Distribution 
        (Sept. 3, 2002) (emphasis supplied).
        <bullet> ``I recommend a phased review process . . . .'' Id. 
        (emphasis supplied).
        <bullet> ``[P]lease let them [the Acting Deputy Assistant 
        Secretary of the Army (``DASA'') for Chemical Demilitarization 
        (Russell Shearer) and the Deputy Assistant Secretary of the 
        Army for Environment, Safety & Health] know this is just the 
        first review and that we still need to send it to SBCCOM, AMC, 
        and FEMA before we bring it back to them for [the two DASA's] 
        final approval and signature [before a draft and recommendation 
        could go to the Assistant Secretary].'' Id. (emphasis 
        supplied).
        <bullet> ``I assume that this will be staffed with OGC [Office 
        of General Counsel], OCLL (Office of the Chief of Legislative 
        Liaison], SAFM [Office of the Assistant Secretary of the Army 
        for Financial Management and Comptroller], OCPA [Office of the 
        Chief of Public Affairs], etc.'' Ray to Skelly (Sept. 4, 2002).
        <bullet> Yes, the proposed memo needs to go through full 
        staffing, including AMC and SBCCOM.'' Skelly to Ray (Sept. 5, 
        2002).
        <bullet> ``Thanks for the opportunity to comment on your 
        exercise proposal.'' Conklin to Distribution (Sept. 9, 2002) 
        emphasis supplied).
        <bullet> ``I believe he would appreciate red-line edits to the 
        original document or detailed comments that he could easily 
        input. I encourage you and any others who perceive an issue 
        with the current draft to provide him with any specific 
        comments you might have.'' Shearer to Conklin (Sept. 9, 2002) 
        (emphasis supplied).
        <bullet> ``I appreciate your thoughts on the proposal . . . .'' 
        Id. (emphasis supplied).
        <bullet> ``They have also sought to obtain comments on the 
        proposed invitation . . . .'' Id. (emphasis supplied).
        <bullet> ``I invite all those to whom this e-mail is addressed 
        to consider the following concern: Many people copied on this 
        and prior e-mails in this chain were unnecessary, and we should 
        be more circumspect in addressing our correspondence. I believe 
        we would all enjoy the courtesy of debating the relative merits 
        of a point outside an audience of General Officers, SESs 
        [Senior Executive Service], and Army Secretariat.'' Id. 
        (emphasis supplied) (The point here is that, in my experience, 
        the inclusion of General Officers, SESs, and Army Secretariat 
        in a debate tended to curtail the debate, which some in the e-
        mail chain sought. My principal and I wanted a full and 
        vigorous debate on the idea so he could reach an informed 
        decision.)

    These statements show that we were weighing a proposal and trying 
to determine a path forward. They also demonstrate that the 
consideration of that idea would follow a robust comment procedure, 
including the Army Staff, both at the senior and staff levels; the 
Soldier Biological and Chemical Command; the Army Material Command; and 
the Federal Emergency Management Agency. It also shows that my 
principal and I would be at the end of the process and would have the 
benefit of staff views to evaluate whether to undertake the idea. To 
the extent that I injected myself into that process--or was brought 
into it--it was to keep the staff work moving so that we had a 
recommendation on a proposed path forward.
    Mr. Skelly states in one e-mail, contrary to all of the above, that 
``Dr. Fiori wishes that we move out quickly on this project  . . . So 
we don't have time for the usual deliberate staffing within the Army or 
the usual FEMA snail's pace to accomplish anything.'' Skelly to Ray 
(Sept. 5, 2002). This comment, however, must be understood in context. 
In this same e-mail, September 5, 2002, Mr. Skelly had already 
committed to full staffing, which was the expectation of my principal 
and me: ``Yes, the proposed memo needs to go through full staffing, 
including AMC and SBCCOM.'' Skelly to Ray (Sept. 5, 2002). I believe 
his intent (I was not copied on this particular e-mail) was to impart 
the sense that the consideration process, although very important, was 
also time-critical because the longer we delayed, the greater the 
schedule would slip for operations and the longer the community would 
be left living with a potentially attractive terrorist target.
    Neither my principal nor I, moreover, was copied on this particular 
e-mail or we would have directed that it be fully vetted in accord with 
my prior written instructions.\9\ The staffing of whatever document was 
produced also had to come through me before being transmitted to my 
principal. I would not have permitted a document to reach my principal 
unless it had been fully vetted and, especially, vetted by our general 
counsel's office and by our public affairs office. This vetting was our 
standard operating procedure, and one from which I would not deviate 
then or now.
---------------------------------------------------------------------------
    \9\ ``He [Mr. Skelly] has sought comment among action officers at 
his level in order to obtain the information necessary to prepare my 
request for the requisite staffing. Larry [Skelly] and I will staff the 
action [i.e., provide it for concurrence] to come to you because you 
have the resources to conduct the activities.'' Shearer to Lantzer 
(Aug. 28, 2001) (emphasis supplied).
---------------------------------------------------------------------------
    Finally, my e-mail of September 9, 2002, states a due date of 
approximately September 20, 2002, for a draft letter inviting the 
community to engage in emergency preparedness activities: ``The Army 
intends to send the invitation to Anniston by the middle of next week, 
and so a draft must be prepared by close-of-business for Thursday of 
this week.'' Shearer to Distribution (Sept. 9, 2002). That due date is 
a managerial driver to focus energy and produce a straw-man document 
that could be debated with my principal. It is also a series of dates 
that accorded to the expectations my principal held of me for when such 
a discussion would occur. Without such a driver, in my experience, 
staff debate would draw on without end. The due date thus was not a 
date certain on which some preconceived notion would be executed but, 
instead, a date on which I expected to be able to advise my principal.
    Perhaps I might have articulated this point better, but, as with 
all of the statements, this statement must be considered in the context 
of the statements from numerous individuals and individual e-mails, 
interspersed throughout the entire chain of e-mails, all of which 
demonstrate that we were trying to figure out what to do. They also 
demonstrate that we were in the midst of that process and that the 
staff understood it to be a deliberative process--not that we were 
marching toward some inexorable, preconceived end point. We were 
evaluating an idea, trying to produce a straw-man document (variously 
referred to as a ``memo'' or ``letter'' or ``invitation'') so that 
staff could comment and debate it, and so that we could then present 
that information (the straw-man and the views favoring and disfavoring 
it) to my principal for his decision. These e-mails thus represent a 
snapshot in time of the staff's thinking about the facts, procedures, 
and external pressures. It does not represent a final product, my 
recommendation to my principal, or my principal's decision.
    In addition, the date of my last e-mail was September 9, 2002, and 
my principal received a letter from Senator Shelby on September 20, 
2002, advising him that the thinking reflected in the e-mail chain was 
unwise. The news reports appeared on September 21, 2002. A letter of 
the sort contemplated in the e-mail chain was not sent and did not 
appear before or after September 20, 2002.
    No letter was ever sent because no letter or other document was 
ever brought to me to review or to my principal.\10\ This, of course, 
reflected the fact that the staff exhibited intense feelings 
disfavoring the idea. This disfavor and, more importantly, the 
rationale expressed for it had changed my own thinking about 
approaching the situation. Indeed, throughout the process of exchanging 
views on this matter I was learning, and coming to the conclusion that 
my principal should not ``invite,'' ``drive,'' or ``challenge'' the 
local community to emergency preparedness. I had not formulated an 
alternative to break the deadlock the idea then under consideration was 
to address, yet in the eleven days between September 9, 2002, and 
September 20, 2002, my focus was turning in that direction. But before 
I could advise my principal that the idea was unwise, someone leaked 
the e-mail chain and the learning became moot.
---------------------------------------------------------------------------
    \10\ E-mails that transmitted a draft were exchanged at the staff 
level, and I was not included on them.
---------------------------------------------------------------------------
 i gained valuable and uncommon experience through internal debate and 
                     as consequence of news reports
    The preceding discussion is no slight-of-hand to avoid 
responsibility for my involvement in the e-mail discussion of how to 
engage the communities. I accept responsibility for it. The preceding 
simply sets out the mitigating circumstances of that involvement.
    I gained valuable and uncommon experience through that internal 
debate five years ago. I gained additional valuable and uncommon 
experience as a consequence of the e-mail leak and the concern its 
disclosure prompted in the communities. I admittedly would have 
preferred that the learning would have come through the educational 
process of the internal debate alone instead of jointly with the hard 
knock of the e-mail leak, congressional interest, and news reports. But 
that preference is another lesson learned that I do not have to repeat.
    Intergovernmental communication is an art not a science and in this 
instance we failed to appreciate how the source of an idea and tone can 
dramatically impact relations. The e-mails of Mr. Skelly and me 
interchangeably use the terms ``challenge''\11\ and ``invitation.''\12\ 
Later e-mails recognize that an invitation is a better approach than a 
challenge, but, in the end, that is immaterial, too. We should have 
sought to work from a ``ground-up'' perspective rather than a ``top-
down'' perspective. That is, we should have consulted with the local 
communities even in developing an initial proposal.
---------------------------------------------------------------------------
    \11\ See e.g., Shearer to Lantzer (Aug. 28, 2002) and Skelly to 
Distribution (Sept. 3, 2002).
    Mr. Skelly also stated in an e-mail, which he later corrected, that 
the ``attached draft is my effort to toss the gauntlet on the ground 
without attacking the State or the counties for inaction.'' Skelly to 
Distribution (Sept. 3, 2002). He later corrected his statement to note 
that the ``[i]ntent is not to `tell' the State but to `invite' them to 
participate.'' Skelly to Ray (Sept. 5, 2002).
    \12\ See, e.g., Shearer to Conklin (Sept. 9, 2002) and Skelly to 
Ray (Sept. 5, 2002) (``Intent is not to `tell' the State but to 
`invite' them to participate.'').
---------------------------------------------------------------------------
    While we perceived the idea to be a genuine invitation, with 
resources attached, such an invitation from on high might be understood 
as an ultimatum. Quiet discussions at the local level might have a more 
productive impact. This was a fine point, a key distinction, that staff 
debate\13\ made to me and that I had accepted as the news reports 
broke.
---------------------------------------------------------------------------
    \13\ Conklin to Shearer (Sept. 9, 2002).
---------------------------------------------------------------------------
    Our idea to issue a ``challenge'' or ``invitation'' was a product 
of the poor relations that existed when my principal assumed management 
of the program. But we should not have assumed that an adversarial 
rapport with the community would flow from our efforts. The newspapers 
accurately reported that Mr. Skelly commented that the Army would 
record and make known those who elected to participate and those who 
did not: ``To support this robust exercise program we would launch a 
media campaign that informs the public about the purpose if the drills, 
who we hope to have participate and what our objectives are. We would 
also make it known what agencies refused to participate and their 
excuses.'' Skelly to Distribution (Aug. 28, 2007).
    Our objective was not to embarrass the community but to encourage--
perhaps strongly encourage--the communities to participate in emergency 
preparedness. Indeed, the centerpiece of the thinking was not a public 
relations battle against the local and state agencies but to devise a 
method that caused them to be engaged in emergency-preparedness and 
allowed us to destroy the chemical stockpile and the risk it presented. 
But that, as before, is immaterial. Our communications plan should have 
focused on meeting with the communities and engaging them, rather than 
on worrying about what we would do in the event they declined to engage 
with us.
    While I present these as lessons learned, the fact is that I was 
learning this information as staff debate progressed. I could not act 
on this information because the e-mails were leaked before I had an 
opportunity to take action. Learning from an event, accepting 
responsibility, and using the lessons taught by the event, I believe, 
is the mark of maturity and the desire to improve. In my situation, I 
learned that inter-governmental communication is complex, and I now 
work more closely with local communities and their Congressional 
delegations, even in devising preliminary paths forward. I believe that 
this experience and sensitivity to the complexity of inter-governmental 
communication is far from ubiquitous and so I have gained an important 
asset.
    My record shows that I have engaged in effective communication with 
local communities both before the event and after:

        <bullet> I worked with the local community at the Aberdeen 
        Proving Ground and the Maryland congressional delegation, 
        principally Senator Mikulski and her staff, to change radically 
        the plan for destroying mustard agent there and thereby safely 
        expedite the agent destruction schedule by several years 
        (January-August 2002).
        <bullet> I worked with the Confederated Tribes of the Umatilla 
        Indian reservation to prepare them for the safe operation of 
        the Umatilla Chemical Agent Disposal Facility (December 2001-
        February 2003).
        <bullet> I reversed, along with my principal, a prior DOE 
        Assistant Secretary's policy to centralize worker-health 
        screenings and instead kept them at the local level. Working 
        with workers and their representatives at the local level was 
        essential to structuring a program that was most useful to them 
        (August-September 2004).
        <bullet> I worked with local worker groups to devise methods to 
        provide them with operating-experience data more efficiently 
        (January 2006-October 2006).
        <bullet> I am currently working with individual workers and 
        worker groups to address beryllium monitoring and reassignment 
        to non-beryllium areas (July 2007-current).

    My career and my record thus substantiate that I have been 
dedicated to protecting worker safety and health and the environment. 
This is the true nature of my professional work--not the abstractions 
of a few news reports based on two e-mails trying to focus staff work 
on developing proposals to solve a problem.
    As a final footnote to the Anniston event, the Calhoun County 
Chamber of Commerce of Calhoun County, Alabama, the location of the 
Anniston Chemical Agent Disposal Facility (ANCDF), adopted a Resolution 
commending my principal for his work in bringing the ANCDF on-line. 
(Attachment 5).

    Question 2. Could you explain to the Committee what your role was 
in this controversy?
    Response. See Response to Question 1.

    Question 3. Please provide the Committee with all of the emails or 
other documents relating to this matter in your possession, or the 
possession of the Department of Defense.
    Response. I have included these documents in my response to Senator 
Boxer's QFR 1.

    Question 4. Why did you leave the Department of Defense? Please 
provide any evaluation of your work performance while at the Department 
of Defense, including any evaluation of your performance in relation to 
the issues at Anniston described above.
    Response. I resigned my appointment at the Department of Defense 
because the President promoted and appointed me to serve as the 
Principal Deputy Assistant Secretary of Energy (Environment, Safety & 
Health).
    I have attached as Attachment 8 my job performance reviews 
assessing my performance during the period November 2001 to August 
2004. Please continue to accord these documents the confidentiality of 
the Privacy Act and manage them as Official Use Only.
    [The referenced documents may be found in committee's file.]
     Response by Russell H. Shearer to an Additional Question from 
                           Senator Lieberman
    Question. As was discussed at the hearing, it has been reported 
that you were involved in an incident in September 2002 in which the 
Army was having a dispute with officials in Anniston, Alabama 
concerning participation in a training exercise related to a chemical 
weapons incinerator. According to news reports, local officials were 
unwilling to join in the exercise until they had received certain 
relevant equipment. Unable to resole the dispute, certain Army 
officials apparently came up with a plan to issue a challenge to local 
officials that was certain to be rebuffed and then use that refusal as 
the basis for a series of press releases blaming the local officials 
for any lack of preparedness. According to the Birmingham News, there 
was an email from you indicating you had been the one who had directed 
that the challenge be issued. At the hearing you acknowledged the email 
and your involvement in this incident.
    The Chemical Safety and Hazard Investigation Board frequently needs 
to work with state and local officials who also may be responding to or 
investigating the scene of a chemical incident. If confirmed, will you 
commit to working to resolve disputes with state and local officials in 
a cooperative manner and to refrain from using your position to conduct 
public relations battles against state and local officials.
    Response. I am absolutely committed to working with state and local 
officials in a cooperative manner to resolve disputes and to refrain 
from using my position to conduct public relations battles against 
state and local officials.
    I have set out my involvement in the Anniston, Alabama, event in my 
response to Senator Lautenberg's QFRs 1 and 2.
     Response by Russell H. Shearer to an Additional Question from 
                             Senator Cardin
    Question. You do not appear to have relevant private sector 
experience in chemical safety processes. What specific knowledge do you 
bring to this position that is directly relevant to the subject matters 
that the Chemical Safety Board considers?
    Response. My professional career has focused on high hazard 
operations including chemical and nuclear operations. I have had the 
opportunity to work for programs and companies involved in chemical 
refining, distillation, blending, blend-down, catalytic regeneration, 
rework, and destruction operations. I have also had the opportunity to 
work for programs involved nuclear reactor testing, nuclear weapons 
production, cleanup of nuclear weapons facilities, sophisticated 
national laboratories, and chemical weapons destruction facilities, all 
of which employ numerous chemical processes in their operations.
    True, some of the experience is not from the ``private sector,'' 
but that is because I have dedicated more than three-fourths of my 
professional career to public service. Looking exclusively at private-
sector experience in my case would be misleading for three reasons. 
First, all of the government agencies for whom I have worked employed 
chemical processes that are either the same, similar, or directly 
analogous to processes employed by the private sector. Second, all of 
the government agencies for whom I have worked contract with the very 
best and brightest private-sector companies to operate their 
facilities. I have been responsible for setting the standards of 
process-safety management (``PSM'') with which these private sector 
companies must comply, for providing technical expertise to help them 
comply, and for enforcing against them when they fail to comply. Third, 
the private sector employs a less rigorous PSM methodology than that in 
which the Government has trained me for many years.
    I can therefore bring technical competency in a more rigorous 
approach to PSM.\14\ I explain some aspects of that more rigorous 
approach below in my comments on how the standard should be improved. 
But for the purpose of explaining my skill set, I will lay out the 
standard briefly and show examples for each of its steps.\15\
---------------------------------------------------------------------------
    \14\ In fact, Admiral Hyman G. Rickover, often cited as the 
``Father of the Nuclear Navy,'' is credited with implementing and 
employing the most careful and exacting process-safety management 
standard known. THEODORE ROCKWELL, THE RICKOVER EFFECT: HOW ONE MAN 
MADE A DIFFERENCE (2002). The Navy, as a consequence, has safely 
steamed more than 133 million miles on nuclear power. It is in this 
strict standard of process-safety management in which I have been 
trained.
    The Atomic Energy Commission developed similar criteria for safety 
analysis in the 1960s, a more refined and codified version of which is 
still used by the Nuclear Regulatory Commission to license commercial 
nuclear facilities.
    \15\ In addition to the following technical PSM expertise, my 
credentials also demonstrate experience in accident analysis and 
reconstruction, human factors, and professional standing, which the 
Chemical Safety and Hazard Investigation Board's organic statute lays 
out as alternate means of qualification.
---------------------------------------------------------------------------
    The Occupational Safety and Health Administration's Process Safety 
Management Rule\16\ generally requires that once a plant has been built 
or significantly modified the employer must (1) gather process safety 
information; (2) prepare a process hazard analysis for each process at 
the plant; and (3) prepare operating procedures. The rule mandates (4) 
employee participation as part of gathering process safety information 
and preparing the process hazard analysis. It further requires before 
startup (5) preparation of a pre-startup review; (6) training of the 
operators; (7) preparation of a mechanical integrity plan, including a 
quality assurance process; and (8) preparation of a management of 
change process. The rule finally requires (9) investigations when a 
safety incident occurs, and (10) periodic auditing of whether the plant 
is in compliance with the rule.
---------------------------------------------------------------------------
    \16\ 29C.F.R. Sec. 1910.119 (1997); 29 C.F.R. Sec. 1926.64 (1997).
---------------------------------------------------------------------------
                  process safety management experience
    (1) Process Safety Information\17\
---------------------------------------------------------------------------
    \17\ Some of the following pigeonholing is not how I would 
typically characterize my work because the process-safety management 
methodology in which I am trained is more robust, integrated with much 
better feedback loops, and casts as overarching functions some of the 
individual steps in the OSHA process. I have therefore listed some 
skill sets twice in order to reflect the fact they fit more than one 
place.

         <bullet> Led effort and developed design guidance (Department 
        of Energy (``DOE'') Standard 1189) for integrating safety into 
        design throughout the lifecycle of the facility; includes as a 
        keystone element PSM at each stage and especially PSM for 
        selection of safety class and safety significant systems, 
---------------------------------------------------------------------------
        structures, and components;

                 <bullet> Also applicable to Process Hazard Analysis, 
                Operating Procedures, Employee Participation, Pre-
                Startup Review, Training, Mechanical Integrity, and 
                Change Management;

         <bullet> Developed Dissenting Professional Opinion (``DPO'') 
        process whereby professional opinions on technical matters are 
        entered into a formal system and evaluated through an appeal 
        process by progressively more senior levels of management 
        (retaliation for DPOs prohibited);

                <bullet>  Also applicable to Process Hazard Analysis, 
                Operating Procedures, Employee Participation, Pre-
                Startup Review, Training, Mechanical Integrity, Change 
                Management, Investigations, and Audits;

     <bullet> Principal author of practical guide to facility and 
activity walk downs, which teaches management and employees to walk the 
spaces and ask knowledgeable questions designed to ``pull-the-thread'' 
on key issues indicative of safety performance.

                 <bullet> Also applicable to Process Hazard Analysis, 
                Operating Procedures, Employee Participation, Pre-
                Startup Review, Training, Mechanical Integrity, Change 
                Management, Investigations, and Audits;

         <bullet> Established safety-research office to examine 
        important safety issues that cross-cut program offices; created 
        system to coordinate research among offices so that results 
        could be centralized and available to all; digested past 
        research work and maintained it in database so that research 
        could be easily searched and obtained, even though span of 
        operations was nation- and, in some instances, world-wide.

                 <bullet> Also applicable to Process Hazard Analysis, 
                Operating Procedures, Employee Participation, Pre-
                Startup Review, Mechanical Integrity, Change 
                Management, and Investigations;

         <bullet> Developed guidance on reviewing process-safety 
        information documents;
    (2) Process Hazard Analysis
         <bullet> Conducted hazard analysis and advised senior 
        management on numerous facilities, including:

                 <bullet> Wet chemical and metallurgical facility;
                 <bullet> Manufacturing facility for pyrophoric metals;
                 <bullet> Manufacturing facility for mixed-oxide fuels 
                from pyrophoric metals;
                 <bullet> National laboratory complex including wet and 
                dry chemistry laboratories;
                 <bullet> High-intensity lasers and neutron sources;
                 <bullet> Dangerous metals;
                 <bullet> Chemical- and radioactive-waste processing 
                facility;
                 <bullet> Two chemical refineries producing specialized 
                metals; and
                 <bullet> Five chemical incinerators and two 
                neutralization facilities.

         <bullet> Developed guidance on reviewing process-hazard 
        analysis documents;
         <bullet> Drafted risk-assessment guide for undertaking 
        probabilistic and deterministic risk-assessment methodologies 
        used in assessing process hazards;
         <bullet> Developed program to identify, collect, and analyze 
        un-reviewed safety questions; i.e., safety questions not 
        already analyzed in existing process hazard analyses or that 
        arise due to changes in operations.
         <bullet> Assessed hazards of DOE chemical and nuclear facility 
        operations to determine whether they exhibit characteristics of 
        high-consequence--low-probability events, such as Columbia 
        Space Shuttle accident;
         <bullet> One of key senior officials responsible for 
        establishing Central Technical Authorities (``CTAs''); CTAs 
        grew out of analysis of Columbia Accident Investigation Board 
        findings, coupled with recommendation from Defense Nuclear 
        Facilities Safety Board, that large, complex organizations 
        often require centralized authority responsible for tracking 
        day-to-day compliance with operating limits and any variance 
        from those limits; CTAs help ensure compliance with process-
        safety documents and operating limits;
         <bullet> Familiarized with design basis threat (``DBT'') 
        analysis, uncommon skill that analyses facility's ability to 
        withstand attacks of various sorts, such as well-armed 
        terrorist squad or detonation of explosive device; DBT analysis 
        cross-cuts safety because safety systems must be sufficiently 
        robust to withstand DBT but cannot create threat to the 
        workers; with the Department of Homeland Defense focusing on 
        ensuring that commercial chemical and other high-hazard 
        facilities can withstand DBT, increasingly important to ensure 
        protection methods do not create un-mitigated or unreasonable 
        risks to workers or public;
         <bullet> Implemented integrated safety management system 
        (ISMS) that utilizes a quality assurance methodology and 
        feedback loop to perform work safety: (1) define scope of work; 
        (2) analyze hazards; (3) define hazard controls; (4) conduct 
        work in accord with hazard controls; and (5) provide feedback 
        on performance of the work and the ISMS system and analysis; 
        system applies not only at macro level of process information, 
        process hazard analysis, writing procedures, pre-startup 
        reviews, training, mechanical integrity and quality assurance, 
        change management, and incident investigations but also at 
        individual worker level, whether that work is turning a spade 
        or dirt or loosening the bolts to change-out a valve;
         <bullet> Determined proper national consensus standards to be 
        incorporated in standards and, therefore, analyses.

    (3) Operating Procedures
         <bullet> Revised existing operating procedures to reflect best 
        practices and changes for improvement, such as new operating-
        experiences program;
         <bullet> Developed new safety procedures, such as 
        nanotechnology safety policy and best practices;
         <bullet> Created system of reports to alert facilities of 
        operating experiences that may mandate change in procedures or 
        incorporation of best practices;
         <bullet> Developed special-emphasis safety programs to enhance 
        safe operations, including electrical safety, laser safety, 
        rigging and hoisting, and Lock out/Tag (LOTO) out;
         <bullet> Implemented, educated, and championed conduct-of-
        operations (also called rigor-in-operations), in order to bring 
        disciplined operations to chemical and nuclear facilities; 
        successfully changed the safety culture of these facilities and 
        thereby reduced events that could affect safe and reliable 
        operations.

    (4) Employee Participation
         <bullet> Engaged employees and labor unions to find means of 
        communicating operating experience, such as incident 
        investigation findings, directly to workers in timely manner.
         <bullet> Established training and special-emphasis safety 
        programs to educate workers on procedures with which they were 
        having difficulty (as reflected in safety-performance metrics).

    (5) Pre-Startup Review
         <bullet> Developed guidance under which pre-startup review 
        plans were undertaken and analyzed;
         <bullet> Reviewed pre-start-up review plans and results.

    (6) Training

         <bullet> Devised and managed safety-training programs for 
        workers and management, such as Federal Technical Competency 
        Panel, which prepared and evaluated (by examination) 
        individuals from shop floor through senior management possessed 
        adequate skills, and Nuclear Executive Leadership Training, 
        which trained and evaluated (by written examination) management 
        to ensure they understood and could perform process-safety 
        management and other key safety functions.

                 <bullet> I was also trained by the course and 
                certified by written examination;

         <bullet> Managed training program for conduct-of-operations 
        (also called rigor-in-operations) in order to educate plant 
        managers and bring better discipline of operations to their 
        facilities;

                 <bullet> I was also trained by the course and 
                certified by written examination.

    (7) Mechanical Integrity Plan & Quality Assurance
         <bullet> Developed program to identify, collect, and analyze 
        un-reviewed safety questions;
         <bullet> Managed sophisticated Quality Assurance and Quality 
        Control program for chemical and nuclear facilities, which 
        included:

                 <bullet> Designing facilities and safety systems, 
                structures, and components (``SSCs'');
                 <bullet> Procuring materials;
                 <bullet> Construction, including welding, pouring 
                concrete, and other key tasks;
                 <bullet> Component changes, including in-kind changes 
                or for new or different equipment;
                 <bullet> Plant software to operate key systems, 
                including key safety systems; managed development of 
                the standard (procedure) governing preparation of 
                quality assurance programs for software;
                 <bullet> Suspect/Counterfeit Items and Defective Items 
                (SCI/DI) program, which communicates information to 
                facilities about under-rated or defective parts so that 
                parts will be removed from service and, thereby, 
                prevent accident or event;
                 <bullet> Safety quality Assurance (Integrated Safety 
                Management System);
                 <bullet> Environmental quality assurance (ISO 14001);
                 <bullet> Nuclear quality assurance (ASME NQA-1);
                 <bullet> Product quality assurance (ISO 9000);
                 <bullet> Integrating all of the quality assurance 
                systems (safety, environment, nuclear, and product);

     <bullet> Managed enforcement program with civil penalty authority 
for violations of quality assurance and quality control programs;
     <bullet> Built team to assist field with maintenance issues in 
order to better understand how structures, systems and component 
reliability can be improved to avoid safety issues, functional 
failures, minimize equipment and facility downtime, maximize component 
life, identify critical failure modes, and maximize asset performance.
    (8) Change Management
         <bullet> Managed effort to regain configuration control of 
        chemical facilities so that they existed in a known and 
        analyzed condition and so that the Piping and Instrumentation 
        Diagrams (``P&IDs'') reflected the true physical state of the 
        plant (ball valves had been swapped out for gate valves, for 
        example, and change was undocumented on P&IDs and unanalyzed 
        for safety and function impact);
     <bullet> See also Mechanical Integrity Plan & Quality Assurance.

    (9) Incident Investigations
         <bullet> Managed and conducted more than thirty accident and 
        event investigations and analyses that employ root-cause and 
        other methodologies only recently adopted by Chemical Safety 
        and Hazard Investigation Board:

        4 Investigations and analyses include typical chemical events, 
        such as failure to follow elements of process-safety management 
        (failure to follow procedure and equipment failure, for 
        example), chemical fires, contamination, chemical exposure, and 
        vapor inhalation, as well as common industrial accidents, such 
        as arc flashes and failure to use fall protection;

         <bullet> Directed use of new root-cause analytical technique, 
        ``Human Performance Improvement,'' which ferrets out latent 
        organizational defects that lead to most human error, rather 
        than focusing on ``blaming the worker;''
         <bullet> Chemical Safety and Hazard Investigation Board 
        recently applied methodology in its BP Texas City report;

     <bullet> Conducted detailed analysis of data, including events 
inside and outside my company or agency to ascertain whether they 
contained insights for our safety performance; this analysis included, 
among others, the National Aeronautics and Space Administration's 
Columbia Space Shuttle accident, the Davis-Besse nuclear power plant 
event (involving reactor-vessel head corrosion), and Chemical Safety 
and Hazard Investigation Board findings on chemical sector events;
     <bullet> Developed set of leading corporate safety performance 
metrics;
     <bullet> Aggregated data to seek out broad (generic) implications 
and operational improvements; devised a sophisticated analytical tool 
to promote operational awareness of real-time, facility-level safety 
and production performance;
     <bullet> Created system of reports to alert facilities of 
operating experiences that may mandate change in procedures or 
incorporation of best practices, including:

         <bullet> Daily Operating Experience Reports--daily reports of 
        events in near real-time;
         <bullet> Operating Experience Summaries--monthly reports 
        digesting issues across complex to assess trends and other 
        important insights;
         <bullet> Special Operations Reports--analyses that drive 
        action to prevent event recurrence;
         <bullet> Alerts--analyses that initiate immediate action on 
        significant safety issues;
         <bullet> Bulletins-analyses share information and recommend 
        actions on safety issues [See Attachment 9 for Bulletin on 
        Chemical Safety and Hazard Investigation Board report on 
        Delaware City event; See Attachment 10 for Bulletin on Texas 
        City];\18\ and
---------------------------------------------------------------------------
    \18\ These reports were prepared at my direction and using the 
focus that I provided.
---------------------------------------------------------------------------
         <bullet> Safety Advisories--analyses provide information on 
        potentially significant safety or health issues [See Attachment 
        11 for Advisories on Texas City and on Chemical Safety and 
        Hazard Investigation Board report];\19\
---------------------------------------------------------------------------
    \19\ These reports were prepared at my direction and using the 
focus that I provided.
---------------------------------------------------------------------------
         <bullet> Communicate best practices in all of the preceding 
        documents;

     <bullet> Implemented technique known as ``Prevent Events,'' which 
supplies talking points synopsizing an analysis in a manner immediately 
useful to workers on shop floor;
     <bullet> Managed report and recommendations prepared by my office 
designed to address recurring chemical incidents.

    (10) Auditing
     <bullet> Trained in concept of oversight and self-assessment, 
which is more robust process than simple compliance auditing; oversight 
and self-assessment are constant, ongoing processes that continuously 
evaluate the state of safety performance--not just compliance with the 
rules--to ensure that performance exceeds mere compliance; oversight 
and self-assessment also seek out and correct potential safety issues 
before they become a near miss or event; it also includes setting 
standards of excellence against which performance is measured;
     <bullet> Managed program reviews to evaluate whether they met 
basic safety-system standards and thus complied with requirements; also 
evaluated extent to which programs excelled beyond mere compliance;
     <bullet> Implemented new integrated oversight procedure, that 
includes safety, environment, and health oversight;
     <bullet> Oversaw development of safety performance assessment 
guide;
     <bullet> Oversaw development of extent of condition review guide, 
which explains how to assess the prevalence and persistence of an issue 
across a facility, operation, or entity.
              broader process safety management experience
    I also possess additional experience that overarches the entire 
process-safety management regime:
     <bullet> Served as the Acting Assistant Secretary and as the 
Principal Deputy Assistant Secretary for Environment, Safety & Health, 
which function as Chief and Principal Deputy Chief Safety Officers, 
respectively, of the Department of Energy (DOE, if it were a private 
entity, would be among the largest manufacturing corporations in the 
world);

         <bullet> Directed a $100M annual, 200-person safety, 
        environment, and health program;

     <bullet> Ran DOE's chemical safety program, including oversight of 
DOE's chemical hazard characterization and analysis process, annual 
chemical management conference, and development of chemical management 
best practices;

         <bullet> Educated and certified (by written examination) by 
        DOE as senior manager qualified to oversee and manage process-
        safety management functions.

     <bullet> Managed, oversaw, and advocated for DOE's promulgation of 
the Worker Safety and Health Program rule (10 C.F.R. Part 851), which 
is DOE's equivalent of the OSHA regulations; I also resolved key issues 
associated with its implementation, such as incorporation of national 
consensus standards;
     <bullet> Brought new corporate focus to building an assessment-
driven, rather than event-driven, complex through emphasizing 
translation of lessons learned into operating experiences used at the 
facilities, through enhanced oversight, through enhanced self-
assessment, through promulgation of new evaluative techniques, such as 
Human performance Improvement, and through assessing extent of problems 
rather than merely studying the problem at-hand;
     <bullet> Former manager of a program operating five thermal 
destruction and two neutralization facilities to destroy chemical 
weapons;

         <bullet> Embedded elements of process-safety management in 
        program; brought concept of conduct-of-operations to program; 
        improved safety performance record;

     <bullet> Trained in Emergency Planning and Community Right-to-Know 
Act (``EPCRA'') and served as Savannah River Site's EPCRA attorney.
     <bullet> Advised at length on pollution prevention in order to 
minimize the emissions, discharges, and hazardous waste reportable on 
Form R; applied process-safety management as part of this advice to 
encourage clients to incorporate less hazardous constituents in 
process, engage in closed-loop recycling, and adopt operating 
procedures that result in less off-specification material.
    I have also attached the independent evaluations of my skills by 
Dr. Mario P. Fiori, a consulting engineer (Attachment 12); Mr. Frank B. 
Russo, Senior Advisor for Environment, Safety & Health to the 
Administrator of the National Nuclear Security Administration; and Mr. 
David B. Amerine, Senior Vice President of Parsons.
    My long-term involvement has allowed me to become competent in both 
standards of process-safety management--that employed in the hazard 
operations in which I have been engaged and that adopted by OSHA. I 
have viewed the OSHA rule as a vital component in safe commercial 
operations but it is only a floor, and a floor that contains elements 
that I believe should be strengthened. I will therefore seek, if 
confirmed, to work with the Chairman and Board Members to issue 
recommendations and provide practical recommendations on improving the 
PSM rule in a sensible manner that does not create safe, but ultimately 
un-operable, inefficient, and un-economic facilities. Safety is 
foremost but it must be--and can be--executed in a manner that does not 
break the backs of small and large operations alike.
    I will accordingly lay out seven safety management principles that 
influence my preliminary views on improving the PSM rule, which follow 
those principles.
                      safety management principles
    1. Safety is a foremost consideration.

         <bullet> Companies have a moral and legal duty to ensure 
        worker safety.
         <bullet> Governmental inspections and internal auditing alone 
        will not drive safe behavior.
         <bullet> Employers must set and abide by high standards in 
        order to encourage and create a good safety culture.

    2. Safety is Free.

         <bullet> Safety is a good business practice.
         <bullet> Safety investments must be integrated with production 
        throughout a facility's life.
         <bullet> Safety will become part of routine operations if it 
        is integrated.
         <bullet> Integrated safety will drive reliability, efficiency, 
        and productivity.
         <bullet> Safety is not an add-on cost when integrated: 
        ``Safety is Free.''

    3. Involve the worker.
         <bullet> No safety management program--process management or 
        otherwise--works unless the worker on the shop floor 
        understands safety and is engaged in its promotion.
         <bullet> Good safety records can be aided--but not created--by 
        management.

          <bullet> Workers on the shop floor create good safety 
        records.

          <bullet> Managers create the environment for such a record to 
        flourish by providing attention to and support for safety.

         <bullet> The purpose of a procedure, in fact, is to allow a 
        worker to perform his duties in a safe and productive manner 
        that will result in overall safe and reliable operations.

    4. You can't tell what's wrong unless you know what's right.

         <bullet> Subjective judgments and ``pencil-whipping'' a 
        problem do not create a safe working environment.
         <bullet> Adherence to proven, accepted, and applied national 
        consensus standards\20\ can create a safe working environment.
---------------------------------------------------------------------------
    \20\ The American Society of Mechanical Engineers, National Fire 
Protection Association, Institute of Electrical and Electronics 
Engineers, International Standards Organization (commonly known as 
``ISO''), among others, are good sources for proven, applied national 
consensus standards.
---------------------------------------------------------------------------
         <bullet> Plant personnel must be technically competent and 
        inquisitive.

    5.What management does speaks louder than what management says.

         <bullet> Managers need to talk about the importance of safety.
         <bullet> But it will only be ``talk'' unless managers also 
        demonstrate a commitment to safety by, for example, walking 
        engineering spaces, participating in hazards and safety 
        analyses, and attending tool-box briefings or plan-of-the-day 
        meetings where forthcoming work is discussed.

    6. Experience is the best teacher.

         <bullet> People make mistakes and equipment fails.
         <bullet> Operating experience takes the information from those 
        events and applies it to ongoing operations in order to avoid 
        repeating the same mistake.
         <bullet> A critique program is essential, especially at new 
        facilities with new equipment that lack operating experience, 
        in order to review the events as a whole rather than 
        individually so that insights and trends can be deduced.

    7. Conduct-of-Operations is critical to safe operations.

         <bullet> Conduct-of-Operations is a defined process by which 
        rigor in operational safety is imbued in all aspects of a 
        process, and it includes, as a minimum, the following elements:

         <bullet> Configuration control;

                 <bullet> Maintaining the facility in a known and 
                analyzed state is a key linkage between the hazards 
                analysis, which sets out safe operating limits, and 
                operation of the facility;

         <bullet> Verbatim compliance with procedures and no ad-hoc 
        procedures developed for ``special occasions'' or ``on-the-
        fly;''

                 <bullet> Procedures are another key linkage between 
                the hazards analysis, which sets out safe operating 
                limits, and operation of the facility;
                 <bullet> A change or deviation in procedure must be 
                evaluated in advance in order to determine its affect 
                on safety systems and operations;

         <bullet> Command and control;

                 <bullet> No bifurcation of control;
                 <bullet> Hold the senior control-room manager 
                accountable for activities at the entire facility or 
                process during the shift.
  opportunities for improvement in the process-safety management rule
    The preceding principles constitute my ``acceptance criteria'' for 
evaluating the PSM rule, and based on them I find several opportunities 
for improvement. I have also sought to lay out these opportunities for 
improvement with an eye to the results that I believe should be sought.
         <bullet> The PSM rule should use its elements as analytical 
        tools that can assist the design and construction process.
         The PSM rule is, generally, retrospective (i.e., it applies 
        once the facility is built and operating) and thus misses the 
        best opportunity to influence the formulation of the safety 
        envelope. Gathering process safety information, preparing 
        process hazard analyses, writing procedures, setting up a 
        change management process, implementing a mechanical integrity 
        program, building a quality assurance and quality control 
        system, designing an accident investigation program, 
        formulating an audit program, and beginning training only 
        begins when a full up plant is waiting to be operated. The PSM 
        rule misses an opportunity for process safety information and 
        process hazard analyses, for example, to influence design and 
        construction.
         <bullet> I recognize that the appendix to the rule offers up 
        using some process-hazard analysis as a ``good practice,'' but 
        this information is far too critical to be considered merely a 
        ``good practice.'' I believe therefore the PSM rule should 
        integrate these elements into the entire lifecycle of the 
        plant, including conceptual and final design, systematization 
        (turn-over from engineering to operations), operations, and 
        decommissioning.\21\
---------------------------------------------------------------------------
    \21\ I further recognize that the PSM rule also applies to existing 
facilities where thes elements can be applied only to the as-built 
facility.
---------------------------------------------------------------------------
         <bullet> The PSM rule should adopt more rigorous analytical 
        techniques.
         The PSM rule currently provides no direction on the 
        application of the process-hazard analytical techniques it 
        provides as ``safe harbors.'' It does not, for example, mandate 
        more robust techniques for more complex facilities; even the 
        guidance in the appendix and the enforcement guide focus the 
        rigor of analysis on the size--not complexity--of the plant. 
        The rule therefore provides no substantial check on applying a 
        less-rigorous method, such as a check-list approach, to a 
        complex facility. The PSM rule should specifically mandate a 
        ``graded approach'' that directs more complex or hazardous 
        facilities to employ more rigorous means of process safety 
        analysis.
         <bullet> The PSM rule should adopt a more robust approach to 
        procedures.
         The PSM rule currently requires only that operating procedures 
        be readily accessible. It does not require that operating 
        procedures be used and followed verbatim. The Chemical Safety 
        and Hazard Investigation Board's report on the BP Texas City, 
        Texas, explosion found that failure to follow procedures after 
        a turnaround was an important cause of the event. The PSM rule 
        should require use of and verbatim compliance with procedures. 
        It should also endorse a conduct-of-operations approach to 
        operations.
         <bullet> The PSM rule should adopt an overarching approach to 
        quality assurance and quality control.
         The PSM rule and appendix refer to quality assurance in the 
        mechanical integrity context, and even then only in the context 
        of construction materials, fabrication, inspection, and 
        installation. It refers to quality control only in the 
        operating procedures context, and it is limited to quality 
        control of raw materials and hazardous chemical inventory 
        levels.
         The PSM rule should, instead, establish quality assurance and 
        quality control as the overarching management system and gate 
        keeper, respectively, that they should be when undertaking 
        high-hazard operations. It should express some fundamental 
        expectations about a quality assurance and quality control 
        processes. It should also endorse integrating quality assurance 
        into all the other necessary processes, such as the conduct of 
        work itself, configuration control, procedure development, and 
        change management, among others. It should endorse integrating 
        quality assurance systems with one another, such as Integrated 
        Safety Management (``ISMS'') for safety, ISO 14000 for 
        environment, and ISO 9000 for products. The PSM rule should, 
        lastly, endorse more than a mere compliance audit. Utilizing a 
        graded approach, the rule might endorse a self-assessment and 
        oversight program that seeks more than just mere safety 
        compliance.
         <bullet> The PSM rule should show a strong linkage between its 
        safety-management focus and technical standards that lay out 
        the methodology for conducting analyses, determining adequacy 
        of design or operation, or managing risks.
         The PSM rule shows no linkage between process-safety 
        management and technical standards. It lists some potential 
        sources of those standards in the appendix but it does not cull 
        out or mandate particularly important standards even for 
        conducting a process-hazard analysis. This lack of interface 
        between the rule and the standards makes it very difficult to 
        assess the objective ``reasonableness'' of an analysis, design, 
        and operating procedures, among others.
         The PSM rule should point to, incorporate by reference, adopt, 
        or even refer to specific national consensus standards that are 
        typically the benchmark by which ``reasonableness'' is 
        assessed. I believe that anything would be better than simply 
        leaving the question wide open because certain disciplines have 
        hard-and-fast tests for reasonableness. The American Society of 
        Mechanical Engineers standards for pressure vessels are, for 
        example, the benchmark for assessing that equipment. Even some 
        local codes reference these national consensus standards; the 
        PSM rule, which is, in a sense, a national safety code, should 
        do likewise.

    Question 2. What evidence can you point to in the last two years 
that demonstrates your independence and willingness to press a 
reluctant Administration into action?
    Response. My record demonstrates numerous instances where I have 
taken unpopular actions to ensure that environment, safety, and worker 
health are properly protected. The examples provided below demonstrate 
my willingness to take the necessary steps to protect worker safety and 
health and the environment.
     <bullet> The Department of Energy (``DOE'') regulates itself for 
occupational safety. Until 2006, DOE had no regulation governing 
occupational safety and no means of enforcing against its contractors 
for violations of the Department's expectations regarding occupational 
safety. It relied, instead, on a Department of Energy Order.
     I managed, oversaw, and advocated for DOE's promulgation of the 
Worker Safety and Health Program rule (10 C.F.R. Part 851), which is 
DOE's equivalent of the OSHA regulations. I also resolved key issues 
associated with its implementation, such as incorporation of national 
consensus standards. The rule had previously failed to be adopted under 
a prior Assistant Secretary because of internal disagreements about the 
incorporation of national consensus standards and even the need for 
such a rule, despite Congressional direction to adopt one. My principal 
and I provided the leadership in the Department to accomplish the task, 
and I provided technical guidance to my staff to resolve key issues.
     <bullet> I have spent much of the last three years at DOE 
expressing the need for Federal employees to spend time out of their 
offices and in the field where work, such as high-level waste transfer 
operations, is conducted. Because the office of environment, safety, 
and health has no authority to direct program activities outside its 
own office, I was unable to direct Federal employees in other programs 
to spend more time in the field. My observations and recommendations, 
thus, met with notable resistance, principally from senior career staff 
who felt they spent enough time in the field. I continued in making 
this recommendation, including at senior staff calls, and achieved some 
success in encouraging a greater field presence.
     <bullet> I conceived of the need for and established the general 
parameters of a departmental ``design and build'' standard, DOE 
Standard 1189, currently under review, which provides binding guidance 
for integrating safety into design throughout the lifecycle of a 
facility. The standard includes as a keystone element PSM at each stage 
and especially PSM for selection of safety class and safety significant 
systems, structures, and components. The need for such a standard was 
not widely agreed upon, even among my own staff, and I had to exercise 
considerable leadership within the Department in order to win its 
development.

    Question 3. Do you believe that Community Right-to-Know laws are a 
help or a hindrance or simply irrelevant to the safe functioning of 
chemical plants in America?
    Response. The answer to this question, from any safety 
professional's perspective, is emphatic: Community Right-to-Know laws 
are critical.\22\ These laws, and specifically EPCRA, require emergency 
planning, emergency notification in the event of a release of a 
reportable quantity, hazardous chemical storage reporting requirements, 
and toxic chemical release inventory (Form R).
---------------------------------------------------------------------------
    \22\ I understand this question to inquire about my views of the 
Emergency Planning and Community Right-to-Know Act, which is also known 
as SARA Title III and became law through the Superfund Amendments and 
Reauthorization Act of 1986 (``SARA'').
---------------------------------------------------------------------------
    The emergency planning requirements of EPCRA are the lynchpin by 
which local responders know what sorts of events and chemical to which 
they may potentially have to respond. It is also the mechanism by which 
evacuation plans are developed and by which emergency responder 
training takes place.
    The emergency notification requirement is the mechanism that causes 
the facility that is the source of the release to notify the local and 
state emergency responders and planning commissions. It also requires 
the facility to report key information about the release that is 
helpful to responders and commissions in addressing that release.
    The hazardous chemical storage reporting requirements inform the 
community about the sorts of hazardous materials stored by a facility 
in that community. The requirements, equally importantly, mandate that 
the facility provide the state and local emergency planning commissions 
with information about the chemicals stored at the facility (either on 
a Materials Safety Data Sheet (MSDS) or on a detailed list of MSDSs). 
Finally, it requires that facilities submit an inventory of hazardous 
chemicals stating the maximum amount held at the facility, the daily 
average amount, and the location of the chemicals.
    Finally, EPCRA requires annual submission of the Form R, or Toxics 
Release Inventory (``TRI''). This Form R informs the public and local 
governments about releases from the facility, both those permitted 
under the pollution-control statutes, such as the Clean Air Act, or 
those that occur accidentally. It provides, in my experience, an 
important forcing function to require facilities to aggressively seek 
out the pollution prevention required by other statutes, such as the 
Resource Conservation and Recovery Act.
    Collectively these provisions provide the tools that state and 
local communities and facilities require to respond in the event of a 
chemical event. I therefore view them as critical to safe operations in 
the chemical sector.

    Question 4. Finally, can you cite an instance in which you have 
promoted additional legislation or regulations to increase public and/
or worker safety in any of your previous positions?
    Response. I am able to cite several instances in which I have 
promoted additional legislation in order to promote both worker and 
public safety:
     <bullet> I managed, oversaw, and advocated for the Department of 
Energy's (``DOE'') promulgation of the Worker Safety and Health Program 
rule (10 C.F.R. Part 851), which is DOE's equivalent of the OSHA 
regulations;
     <bullet> I issued binding recommendations for the improvement of 
safety-management functions at DOE. These recommendations resulted from 
a review I managed and participated in that evaluated the safety 
insights presented by the reports on the Columbia Space Shuttle 
Accident Investigation and the corrosion of the Davis--Bessie Reactor 
Pressure Vessel Head;
     <bullet> I have managed and conducted more than 30 accident and 
event investigations, which have resulted in numerous recommendations 
to change DOE and other agency procedures, standards, or rules in order 
to improve safety performance;
     <bullet> I wrote an article advocating adoption of the Basel 
Convention governing international hazardous waste transfers and the 
Bamako regional convention (Africa) on the same subject; I observed 
while a volunteer law clerk for the United Nations Environment 
Programme in Nairobi, Kenya, that the international waste trade 
resulted in some notable injury to public health when the receiving 
nation was not well prepared to store or manage those wastes; and
     <bullet> I volunteered as a law clerk in the Natural Resources 
Defense Council air program analyzing clear-air law for legislative and 
regulatory opportunities for improvement (1994).
     <bullet> Finally, I was a plaintiff in a lawsuit challenging a 
state supreme-court rules change. The rules change adversely affected 
the ability of law clinics to represent indigent and moderate-income 
clients in environmental matters, and thus to protect the safety and 
health of the public.

    Senator Boxer. Thank you.
    Mr. Gilliland, welcome.

  STATEMENT OF THOMAS C. GILLILAND, NOMINEE FOR BOARD MEMBER, 
      BOARD OF DIRECTORS OF THE TENNESSEE VALLEY AUTHORITY

    Mr. Gilliland. Madam Chairman, thank you for your 
leadership in today's hearing, and to the members of the 
Committee, I want to thank you for giving me the opportunity to 
appear before you in this confirmation process.
    I also want to thank Senator Isakson, Senator Chambliss and 
Congressman Deal for their recommendation, and to the 
President, my thanks for this nomination. I am grateful to all 
of them and humble for their confidence in me that this 
nomination represents.
    I also want to thank my wife, Candy, who is here with me 
today. I am grateful for her encouragement and support in 
undertaking the responsibilities and time that will be 
necessary to serve as a director of the Tennessee Valley 
Authority if I am confirmed.
    Our home is in a small community in the mountains of north 
Georgia, where generations of my family have lived. Until the 
late 1930s, this area, as well as much of the Tennessee Valley, 
was without electricity. The Tennessee Valley Authority not 
only brought light, it brought economic growth, flood control 
and environmental stewardship to our region. In the late 1930s, 
my father graduated from law school at the University of 
Kentucky. His first job was at the TVA, handling land 
acquisitions for reservoirs and power generating facilities in 
the mountains of north Georgia. There he met my mother, so in 
many ways I appear before this Committee today because of the 
Tennessee Valley Authority.
    Although I have never held public office, over the years I 
have had the privilege of serving on numerous boards and 
committees, having been appointed from both sides of the aisle. 
I have always taken these tasks and responsibilities with the 
utmost seriousness and commitment to the challenge at hand. For 
the past 8 years, I have served on the board and chair of the 
authority which oversees one of the largest metropolitan parks 
in America. My service includes overseeing both the financial 
management of Georgia's largest tourist attraction and the 
maintenance of the environmental integrity of over 3,000 acres 
of this largely undeveloped scenic park.
    I have also had the opportunity to guide a public regional 
banking company through the implementation of the Sarbanes-
Oxley legislation, a rule, statutes and regulations which I 
support and applaud.
    With the structural changes to TVA created by Congress in 
2005, the agency has progressed quickly to embrace a more 
efficient and open business structure, all the while remaining 
true to its original mission of energy, environment and 
economic development. I am proud to offer my experience, both 
from the public and private sector, as a lawyer and a banker. I 
am confident that my experience will be helpful to the Nation's 
largest power producer as I seek to become Georgia's first 
representative on the TVA board.
    If confirmed, I look forward to offering my time and energy 
to this very important and vital component of our economy and 
our Nation's responsibility to its citizens. Once again, thank 
you for your time and the opportunity to address the Committee. 
It is an honor to be with you, and I look forward to any 
questions you may have.
    [The prepared statement of Mr. Gilliland follows:]
 Statement of Thomas C. Gilliland, Nominee for Board Member, Board of 
              Directors of the Tennessee Valley Authority
    Madame Chairman, thank you for your leadership in holding today's 
hearing. To you, Senator Inhofe, and to all the Members of the 
Committee, I want to thank you for giving me the opportunity to appear 
before you in this confirmation process.
    I also want to thank Senator Isakson, Senator Chambliss and 
Congressman Nathan Deal for their recommendation, and to the President. 
my thanks for this nomination. I'm grateful to all of them, and 
humbled. for their confidence in me that this nomination memento.
    I also want to thank my wife. Candy, who is with me today. I'm 
grateful for her encouragement and support in undertaking the 
responsibilities and time that will be necessary to serve as a Director 
of the Tennessee Valley Authority if I am confirmed.
    Our home is in a small community in the mountains of north Georgia 
where generations of my family have lived. Until the late 1930's, this 
area, as well as much of the Tennessee Valley, was without electricity. 
The Tennessee Valley Authority not only brought light, it brought 
economic growth, flood control and environmental stewardship to Our 
region.
    In the late 1930's my father graduated from law school at the 
University of Kentucky. His first job was with TVA, handling arid 
acquisition for reservoirs and power generating facilities in the 
mountains of north Georgia. There he met my mother, so in many ways I 
appear before this Committee today because of the Tennessee Valley 
Authority.
    Although I have never held public office, over the years I have had 
the privilege of serving on numerous boards and committees. having been 
appointed from both sides of the aisle. 1 have always taken these tasks 
and responsibilities with the utmost seriousness and commitment to the 
challenge at hand.
    For the past eight years, I have served on the board and as Chair 
of the authority which oversees one of the largest metropolitan parks 
in America. My service includes overseeing both the financial 
management of Georgia's largest tourist attraction, and the maintenance 
of the environmental integrity of over 3,000 acres of this largely 
undeveloped scenic park.
    I've also had the opportunity to guide a public regional banking 
company through implementation of the Sarbanes-Oxley legislation; a 
statute. rules and regulations which I support and applaud.
    With the structural changes to TVA created by Congress in 2005, the 
agency has progressed quickly to embrace a more efficient and open 
business structure, all the while remaining true to its original 
mission of energy, the environment and economic development.
    I am proud to offer my experience, in both the public and private 
sector, as a lawyer and a banker. I am confident that my experience 
will be helpful to the nation's largest public power producer as I seek 
to become Georgia's first representative on the TVA Board.
    If confirmed, I look forward to offering my time and energy to this 
very important and vital component of our economy and our nation's 
responsibility to it's citizens. Once again, thank you for your time 
and the opportunity to address the Committee. It's an honor to be with 
you and I look forward to your questions.
                                 ______
                                 
  Responses by Thomas Gilliland to Additional Questions from Senator 
                                 Boxer
    Question 1. TVA is one of our nation's largest emitters of carbon 
dioxide, emitting over 100 million tons annually. As the U.S. Senate 
Environment and Public Works Committee (EPW) looks at addressing global 
warming, please explain what strategies TVA is implementing to reduce 
carbon emissions and what additional policies you would support to 
reduce TVA's greenhouse gas emissions.
    Response. I am committed to working with my fellow board members, 
TVA management and staff to explore ways to reduce CO<INF>2</INF> 
emissions through increased efficiency. As I suggested in the hearing 
on October 2, I am eager to learn more about advanced technologies like 
Integrated Gasification/Combined Cycle (IGCC), carbon sequestration and 
advanced nuclear that may help TVA reduce and avoid future carbon 
dioxide emissions. As a longtime resident of the TVA service region I 
have a keen interest in enacting policies that result in cleaner air 
for the Tennessee Valley.

    Question 2. Does TVA have any plans to retire any older inefficient 
coal units in the Agency's current business plan? If so, what units 
and/or locations are being considered?
    Response. I am unaware of any specific plans to retire coal units 
at this time. I know that TVA is investing in pollution-control 
equipment at their coal plants. I anticipate a full briefing on the 
matter if I am confirmed by the United States Senate to the TVA Board.

    Question 3. Has TVA looked at fossil fuel electricity with carbon 
sequestration technology for the TVA system? If so, what units and/or 
locations are being considered?
    Response. It is my understanding that TVA is investigating 
technologies of the future including Integrated Gasification/Combined 
Cycle (IGCC), participating in the Coal Fleet of the Future project, 
and supporting additional research on the issue of Global Climate 
Change through participation in the Electric Power Research Institute 
(EPRI). I am not aware of an evaluation of specific units and locations 
at this time.

    Question 4. Besides nuclear power what other technologies is TVA 
actively pursuing to control carbon emissions?
    Response. I am familiar with the TVA Green Power Switch program, 
which enables customers to purchase some of their energy from non-
emitting sources such as solar, wind and methane gas generation in the 
Valley. Beyond the Green Power Switch program, I am not yet familiar 
with all of the efforts TVA is making to control carbon emissions. It 
is something I look forward to learning should I become a TVA board 
member.

    Question 5. Does TVA support a renewable energy standard? If yes: 
Please explain how this fits into TVA's plan to reduce carbon 
emissions. If no: Why not?
    Response. I am not aware of TVA's position on a renewable energy 
standard. I do know that in its new 2007 Strategic Plan, TVA recognizes 
that renewable energy will play an increasingly important role in TVA's 
future generation.

    Question 6. A recent TVA funded study by the University of 
Tennessee (``Resources and Employment Impact of a Renewable Portfolio 
Standard in the Tennessee Valley Authority Region'') indicated 
significant job creation in the TVA service area if a renewable energy 
standard was enacted. Specially, the study found that under a Federal 
RPS requiring 10% by 2020 would produce nearly 45,000 jobs in the TVA 
service area. The majority of the requirement could be met by co-firing 
biomass at existing TVA coal-fired power plants. Are the members of the 
TVA Board aware of this study? Does this study affect TVA's view of a 
renewable energy standard? If so how?
    Response. I have not yet read the report but will ask for a copy 
and briefing from TVA staff, should I be confirmed.

    Question 7. TVA has a strong history in doing research on bio-
energy opportunities. What is the current state of your programs 
looking at using biomass for power generation, including co-firing at 
your existing facilities as the above study identified as an 
opportunity.
    Response. I am not yet familiar with TVA's bio-energy activities, 
but if confirmed will commit to you that I will research the matter and 
learn what TVA is doing in this area.

    Question 8. TVA has a voluntary program for customers to support 
renewable energy called the Green Power Switch. What plans does TVA 
have to develop renewable energy other than the voluntary Green Power 
Switch program in the near future? Please explain any plans in detail.
    Response. It is my understanding that TVA has been successful 
signing up residents of the Tennessee Valley with the Green Power 
Switch Program and continues its marketing efforts. If confirmed, I 
look forward to working with my fellow board members, TVA management 
and staff to help develop strategies for utilizing available renewable 
energy sources in the Valley.

    Question 9. TVA announced a new commitment to energy efficiency in 
its most recent strategic plan. Will you share with us the details of 
the specific energy efficiency goals in this plan and how they will be 
met?
    Response. As part of the Strategic Plan developed over the last 
year, TVA stated that it ``will strive to be a leader in energy 
efficiency improvements and peak demand reduction over the next five 
years.'' It also stated in the Strategic Plan that becoming a leader in 
energy efficiency will require a cooperative effort between TVA, its 
distributors and the end use consumer along with its direct served 
customers.
    If I am confirmed I will commit to working with TVA staff and our 
stakeholders in the Valley on energy efficiency measures to reduce 
energy consumption.

    Question 10. Many utilities are now viewing energy efficiency as an 
important recourse to meet new demand. What are your views on advancing 
energy efficiency investments at TVA? Do you view TVA as a leader in 
this effort?
    Response. As I mentioned in my opening statement on October 2, TVA 
has served residents of the Tennessee Valley well for nearly 75 years 
by promoting economic development, serving as a steward of the 
environment and providing affordable, reliable electricity. If 
confirmed, I look forward to working with this committee, TVA 
leadership and my colleagues on the Board to ensure that TVA as an 
agency of the federal government carries its share of responsibility in 
areas such as energy-efficiency and conservation.

    Question 11. A recent utility industry collaborative produced a 
National Action Plan on Energy Efficiency. It concludes that utilities 
with ``best practices'' spend about 1% of their annual revenues on 
energy efficiency investments. TVA recently announced a $20 million 
dollar annual investment toward energy efficiency, yet TVA's annual 
revenues for 2008 are expected to be $9.7 billion dollars. One percent 
would exceed $97 million dollars annually. Can you explain this 
shortfall? What are your thoughts on increasing TVA's investment?
    Response. As a nominee, I have not been privy to TVA's spending 
priorities, nor have I had the opportunity to review the National 
Action Plan on Energy Efficiency. However, if confirmed by the Senate, 
I will commit to participate fully in Board-level discussions and 
decisions about energy efficiency investments at TVA.

    Senator Boxer. Thank you very much, sir.
    I don't have any questions for you, which I am sure you are 
greatly relieved to know.
    [Laughter.]
    Senator Boxer. Mr. Bresland, I know that my staff spoke to 
you about the Contra Costa regulations that we have, our 
chemical plant safety program there. Have you gone over them? 
Are you familiar with them?
    Mr. Bresland. Yes, I am, I am very familiar with what 
happens in Contra Costa County.
    Senator Boxer. What is your feeling about what they do? 
They have a very strong community protection plan. I just 
wondered how you felt about it.
    Mr. Bresland. Contra Costa County is just east of San 
Francisco, as you know.
    Senator Boxer. Yes.
    Mr. Bresland. It probably has the strongest environmental 
and chemical process safety program in the United States. In 
Contra Costa County, there are 50 chemical plants and oil 
refineries, I think 6 or 7 oil refineries, the rest are 
chemical plants. They have a very strong program there that is 
headed up by Mr. Sawyer, Randy Sawyer. He has five engineers 
who work in the program. They do audits of their facilities 
every 3 years. It is an excellent program.
    Senator Boxer. All right. I think that is important. I have 
a number of questions that I would love for you to answer, none 
of which are trick questions, they are just pretty 
straightforward. But this is such an important position and it 
means so much to all of us. We are very hopeful with you taking 
the lead on these that we will make some progress.
    Mr. Gilliland, I am going to send you, for you to answer in 
writing, because it is too complicated, really, asking you what 
strategies you believe TVA should be using to reduce its carbon 
emissions. But I am very interested, as you know, in that 
issue, and look forward to your written response on that. 
Because it is a longer issue.
    And then I have a question to ask Mr. Shearer from Senator 
Lautenberg. In 2002, you were reportedly part of an effort by 
the Pentagon to challenge local officials in Alabama to 
participate in emergency response exercises, knowing that they 
would refuse, so that the Pentagon could send out press 
releases shifting blame over the lack of local preparedness for 
a potential release from a chemical weapons incinerator.
    I am going to place in the record, unless there is any 
dissent here, a list of the articles that ran at that time in 
the Birmingham News, the first paragraph: ``The Army intends to 
embarrass Aniston officials and shift public scorn over the 
chemical weapons incinerator away from itself with a strategy 
revealed in recent e-mails exchanged at the Pentagon.'' This is 
kind of a sorry situation that our military got themselves into 
and I wondered if you were part of that plan, what role you 
played in it.
    [The referenced material follows:]
    Mr. Shearer. Madam Chairman, it was indeed a sorry state of 
events, and given the opportunity to do that over, that is one 
that I would do differently.
    Senator Boxer. So you were involved in it?
    Mr. Shearer. Yes, ma'am, I was part of the e-mail chain 
that was disclosed, that was leaked from the Army to the 
Aniston News, which first broke the story. Our intentions in 
that instance were quite good, and that was to get Aniston 
prepared for the operation of that facility, emergency 
management being part of that. Our execution, however, could 
have been better.
    The situation also involved two Army staffers, one of whom 
directly worked for me, the other who was, through a variety of 
memoranda of understanding, also worked for us, and they were 
adversarial. Unfortunately, our intent didn't get properly 
translated to either of them and as a consequence, they engaged 
in a rather adversarial e-mail exchange that founded the basis 
of what was disclosed to the Aniston newspapers.
    But from that experience I have learned, and would in a 
similar circumstance endeavor to work far more closely with the 
Congressional delegation of the State and also work to ensure 
that my staff had a better understanding of what it is that my 
boss and I sought to do.
    Senator Boxer. Well, let me just simply say that, a lot of 
us would like to have do-overs in our life, OK? All of us, 
every one of us, there is no one that I know lived a perfect 
life or made every decision. But I think the troubling thing 
about this, and Senator Lautenberg is the one who brought this 
to my attention, is, it goes to the heart of who you are. There 
is an e-mail here from you that essentially, it is right here 
in the Birmingham News, where you directed this whole thing, 
you directed Skelley to issue the challenge.
    I just think this is a problem for me. I don't know if 
anyone else feels this way. But again, when Senator Shelby says 
that this plan was perverse and irresponsible, this isn't a 
partisan hit from me at all. I am glad you said you wouldn't do 
it again, but the fact that you did it is very concerning to 
me. So I just want you to know that is where I am coming from.
    Senator Isakson, did you have any questions?
    Senator Isakson. Yes, I do, Madam Chair.
    Senator Boxer. Please go forward.
    Senator Isakson. I wanted to discuss with Tom Gilliland 
just for a second two or three points for the record. One of 
the concerns of the TVA, back under the old operational model, 
which has now changed, and during the 1990s was the tremendous 
amount of debt, would you share with the Committee what the 
cost of debt is to TVA today versus what it was in that decade?
    Mr. Gilliland. Yes, Senator Isakson, I had an opportunity 
to look into that. In 1997, 34 percent of the revenue, that is 
revenue, generated by TVA went to pay interests costs. This 
year, 13 percent of revenue is applied to interest cost. I 
think that is a significant improvement.
    Senator Isakson. On the question that Senator Boxer is 
going to send to you, I would like to just talk to you about it 
in this five minutes about renewable energy. When we had the 
energy debate, we had a provision on requiring at least 15 
percent of energy to be replaced with renewable energy sources 
being either wind or solar. We have difficulty in the southeast 
with both, we don't have enough wind in particular.
    What are our other sources of renewable energy in the 
south, other than carbon-based improvements?
    Mr. Gilliland. Hydro, improvements to hydro, of course 
nuclear. We have 60 percent of our power production at TVA is 
fossil fuel, 30 percent is nuclear, 10 percent are alternate 
sources. Nuclear is, well, for instance, in August, we reached 
record load demands multiple times during the month of August. 
Of course, you have to have the nuclear in order to have the 
reliability as well, at least in this system, as well as to 
meet those peak loads.
    The issues relative to carbon, I was pleased to see that 
the May 2007 strategic plan for TVA incorporated addressing 
global climate issues. I know they are spending a million 
dollars a day on carbon emission issues. They have already 
spent $5 billion, and those initiatives continue.
    Senator Isakson. On the hydro, too, amount to which we can 
go from coal to hydro is limited by any number of factors in 
impoundment, not the least of which is wetland destruction.
    Mr. Gilliland. We are experiencing a 100-year drought right 
now. Hydro only represents 5 percent or so of the total 
production. An when you don't have the water in the reservoirs, 
obviously you don't have the capacity.
    Senator Isakson. This next question is going to seem silly 
to you, because you and I have already talked about it. But it 
is important to the people of Georgia. One of the issues that 
caused this whole concern about a lack of representation of the 
State of Georgia on the TVA board was the concern that their 
voices of those people in those 10 counties in Georgia would 
not be heard. I know your answer to this already, but for the 
record, will you pledge yourself to be sure that those 10 
counties in north Georgia get the representation on the TVA 
they deserve, both from the standpoint of their lake levels as 
well as the costs and reliability of their energy?
    Mr. Gilliland. Yes, I will, for the people of the State of 
Georgia as well as the other seven States.
    Senator Isakson. Thank you for your willingness to serve, 
and thank you both, I am going to give you all a pass, just 
like Senator Boxer gave Tom as pass.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you so much.
    So we are at the end of this, so I am going to ask the same 
questions, but I will do it one and then two together. Well, 
let's see, we will do the TVA first.
    Do you agree, if confirmed as a member of the Board of 
Directors of the TVA to appear before this Committee or 
designated members and other appropriate committees and provide 
information subject to appropriate and necessary security 
protection with respect to your responsibilities as a member of 
the Board of Directors of the Tennessee Valley Authority?
    Mr. Gilliland. Yes.
    Senator Boxer. Sir, do you agree when asked to give your 
personal views, even if those views differ from the 
Administration in office at the time?
    Mr. Gilliland. Yes.
    Senator Boxer. Do you agree to ensure that testimony, 
briefings, documents, electronic and other forms of 
communication or information are provided to this Committee and 
its staff and other appropriate committees in a timely fashion?
    Mr. Gilliland. Yes, I do.
    Senator Boxer. Do you know of any matters which you may or 
may not have disclosed that might place you in any conflict of 
interest if you are confirmed as a member of the Board of the 
TVA?
    Mr. Gilliland. No, I do not.
    Senator Boxer. Thank you, sir.
    And so the next two, if you could just answer together, do 
you agree, if confirmed as chairperson and a member of the 
Chemical Safety and Hazard Board to appear before this 
Committee or designated members of this Committee and other 
appropriate committees, provide information subject to 
appropriate and necessary security protection with respect to 
your responsibilities as chair and a member of the Chemical 
Safety and Hazard Investigation Board?
    Mr. Bresland. I do.
    Mr. Shearer. I do.
    Senator Boxer. OK. Do you agree, when asked, to give your 
personal views, even when those views differ from the 
Administration in office at the time?
    Mr. Shearer. Yes.
    Mr. Bresland. Yes.
    Senator Boxer. Do you agree to ensure that testimony, 
briefings, documents, electronic and other forms of 
communication or information are provided to this Committee and 
its staff and other appropriate committees in a timely fashion?
    Mr. Bresland. Yes.
    Mr. Shearer. Yes.
    Senator Boxer. Do you know of any matters which you may or 
may have not disclosed that might place you in any conflict of 
interest if you are confirmed as chair and a member of the 
Chemical Safety and Hazard Investigations Board?
    Mr. Bresland. No.
    Mr. Shearer. No.
    Senator Boxer. Thank you very, very much, all of you, for 
being here today. The hearing stands adjourned.
    [Whereupon, at 12 o'clock p.m., the committee was 
adjourned.]
    [Additional statements submitted for the record follow.]
       Statement of Hon. Joseph Lieberman, U.S. Senator from the 
                          State of Connecticut
    Thank you, Madame Chairman. We have a number of nominations before 
the Committee today. I would like to speak briefly about one of those--
the nomination of Mr. Bresland as Chairman of the Chemical Safety 
Board.
    As you know the Chemical Safety Board is an independent Federal 
agency that is tasked with the important role of investigating 
industrial chemical accidents. Through their in-depth analysis they can 
locate deficiencies in the management system, engineering, equipment 
failure or human error that was the cause of an accident. These root 
cause investigations allow the Chemical Safety Board to make corrective 
recommendations to the plants involved in the accidents, to the 
industry at-large, and to regulatory agencies such as the Occupational 
Safety and Health Administration and the Environmental Protection 
Agency.
    The Chemical Safety Board's staff is composed of specialists in 
chemical and mechanical engineering, as well as other industry 
specialists. Mr. Bresland's extensive experience in the chemical 
industry, specifically with Honeywell International, makes him a highly 
qualified and appropriate selection for membership on the Chemical 
Safety Board. I have no doubt of his commitment or ability to fulfill 
the missions of the Chemical Safety Board, ultimately improving 
chemical plant process safety, and in turn saving lives and protecting 
the environment.
    Nonetheless I have some serious concerns about how well the 
Chemical Safety Board is working with state and local officials during 
its investigations. In a well-publicized incident in Danvers, 
Massachusetts last year, the CSB wound up in a full-blown clash with 
state and local responders. If Mr. Bresland is confirmed as Chairman of 
the Board he will be establishing the tone of its interactions with 
other agencies and with state and local officials. I hope to hear from 
Mr. Bresland about how he intends to improve the cooperation and 
coordination of the Chemical Safety Board with the state and local 
officials and first responders. We all have an interest in seeing that 
investigations of incidents at chemical facilities are thorough and 
professional and that any findings made are complete and accurate to 
help us prevent similar incidents in the future. Regardless of the 
cause of a chemical incident--whether from terrorism, natural disaster, 
or accident--it is essential that all levels of government work hand in 
hand in the response and any investigation.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Responses by Susan Richardson Williams to Additional Questions 
                           from Senator Boxer
    Question 1. TVA is one of our nation's largest emitters of carbon 
dioxide, emitting over 100 million tons annually. As the U.S. Senate 
Environment and Public Works Committee (EPW) looks at addressing global 
warming, please explain what strategies TVA is implementing to reduce 
carbon emissions and what additional policies you would support to 
reduce TVA's greenhouse gas emissions.
    Response. As a long-time resident of Tennessee, a current TVA board 
member and a grandmother of two, I have a tremendous interest in seeing 
that the air is cleaner for the next generation of citizens in the 
Tennessee Valley. The new nine-member, part-time board of TVA serves to 
function as a high-level policy setting entity, and in that capacity 
the board strives to articulate strategies that guide TVA management 
and staff in their day to day business operations. I can assure you 
that the current board is committed to implementing strategies to 
reduce greenhouse gas emissions.
    In 1995, TVA was the first utility to partner with the Department 
of Energy to participate in its newly created program, Climate 
Challenge. As a result of this program, TVA has reduced, sequestered or 
avoided more than 305 million tons of CO<INF>2</INF>.
    TVA has also been a participant in the President's Climate VISION 
program, which calls on the electric utility sector to help meet a 
national goal of reducing the greenhouse gas intensity of the U.S. 
economy by 18% from 2002-2012.
    Going forward, the TVA board has expressed interest in pursuing 
voluntary actions in two pivotal areas to reduce carbon emissions: 
notably expanding the diversity in our electric generation mix with 
safe, clean, zero-emission power; and reducing emissions through 
increased energy efficiency.
    In June, TVA restarted Unit 1 at Browns Ferry Nuclear Plant in 
northern Alabama, the first U.S. nuclear unit to be brought on-line in 
the 21st century. Browns Ferry Unit 1 is expected to initially provide 
additional generating capacity of approximately 1,150 megawatts and 
eventually will produce 1,280 megawatts.
    In addition, the board recently approved the completion of Unit 2 
at the Watts Bar Nuclear Plant in Spring City, Tennessee. The operation 
of Watts Bar Unit 2 would add another 1,170 megawatts of non-
CO<INF>2</INF> emitting generation to the TVA system.
    As we increase capacity, the board is mindful of the need to 
increase energy efficiency and conservation. TVA has begun this effort 
at home, so to speak, in TVA buildings with the use of energy efficient 
lighting, temperature set-backs, high efficiency motors, occupancy 
sensors, heat pumps, passive solar heating and automatically turning 
off lights in office spaces.
    I assure you that I will remain a strong voice for these issues 
should I be confirmed.

    Question 2. Does TVA have any plans to retire any older inefficient 
coal units in the Agency's current business plan? If so, what units 
and/or locations are being considered?
    Response. Existing coal assets play a large and important role in 
meeting the energy needs of the Tennessee Valley, and in supporting 
energy needs and energy independence for the entire United States. 
TVA's long-term capacity plan includes a ``placeholder'' for retirement 
of one of the older, less efficient fossil plants in the post 2020 
timeframe.
    The board has said before that it is committed to retiring higher 
emitting fossil plants if energy efficiency efforts result in lower 
demand than currently forecasted. If demand continues to grow, 
retirements of existing generating assets would have to be replaced by 
investments in new generating assets to meet the growing needs of the 
Valley.
    Next year, TVA will celebrate its 75th anniversary, a significant 
milestone. As a board member, I will continue to encourage adding clean 
energy sources to the generation portfolio and encourage energy 
efficiency, all the while preparing for the continued demands on our 
system with projected growth of two percent each year for the 
foreseeable future.

    Question 3. Has TVA looked at fossil fuel electricity with carbon 
sequestration technology for the TVA system? If so, what units and/or 
locations are being considered?
    Response. TVA is a member of the Southeast Regional Carbon 
Sequestration Partnership, one of seven teams participating in this 
Department of Energy-sponsored program. TVA also supports the 
sequestering of greenhouse gases through the UtiliTree and PowerTree 
Carbon Companies, which are developing reforestation projects in the 
Lower Mississippi River Valley and elsewhere.
    Additionally, TVA participates in the Coal Combustion Products 
Partnership program. This program is a cooperative effort that promotes 
the beneficial use of coal combustion products to reduce greenhouse 
gases and the amount of material sent to disposal.
    I will continue to encourage TVA management and staff to make 
decisions that give strong consideration to fuel mix and generation 
assets that are low or zero carbon emitting resources, continue to 
invest in research and development on low carbon generation options, 
carbon reduction, carbon capture and sequestration technologies.

    Question 4. Besides nuclear power what other technologies is TVA 
actively pursuing to control carbon emissions?
    Response. TVA is exploring the possibilities of reducing carbon 
intensity by increasing renewable generating capacity. Solar, wind, 
incremental hydro, biomass, and landfill gas are among the renewable 
sources that would be considered. Additionally, advanced clean and 
renewable technologies, such as low-head hydro, heat recovery systems, 
and end-user generation offsets will also be considered. TVA also 
continues to monitor the status of emerging technologies such as 
hydrogen, fuel cells, micro-turbines, and energy storage technologies.
    TVA participates in organizations such as the Coal Utilization 
Research Council (CURC), EPRI's Coal Fleet for Tomorrow program, and 
the Gasification Technologies Council (GTC). These organizations 
promote the research and development of clean coal technology.

    Question 5. Does TVA support a renewable energy standard? If yes: 
Please explain how this fits into TVA's plan to reduce carbon 
emissions. If no: Why not?
    Response. In the 2007 Strategic Plan, the TVA board recognizes that 
renewable energy will play an increasingly important role in TVA's 
future generation. TVA staff is currently developing a long term 
strategy to reduce the carbon intensity of the TVA generation fleet. 
This includes evaluating potential Valley resources, technologies and 
opportunities that will help us and our power distributors meet 
potential RES requirements.

    Question 6. A recent TVA funded study by the University of 
Tennessee (``Resources and Employment Impact of a Renewable Portfolio 
Standard in the Tennessee Valley Authority Region'') indicated 
significant job creation in the TVA service area if a renewable energy 
standard was enacted. Specially, the study found that under a Federal 
RPS requiring 10% by 2020 would produce nearly 45,000 jobs in the TVA 
service area. The majority of the requirement could be met by co-firing 
biomass at existing TVA coal-fired power plants. Are the members of the 
TVA Board aware of this study? Does this study affect TVA's view of a 
renewable energy standard? If so how?
    Response. I have not been briefed on the report. However, I look 
forward to hearing the results of the study and how it may impact TVA's 
long term strategy addressing renewable assets in the Valley.

    Question 7. TVA has a strong history in doing research on bio-
energy opportunities. What is the current state of your programs 
looking at using biomass for power generation, including co-firing at 
your existing facilities as the above study identified as an 
opportunity.
    Response. TVA is currently conducting commercial-scale, low-level 
biomass co-firing at Colbert Fossil Plant in North Alabama. Co-firing 
at Colbert has provided TVA with benefits in the area of fuel diversity 
and fuel cost management. We are evaluating the feasibility of 
expanding wood waste co-firing at other TVA fossil plants.
    In addition to the wood waste co-firing, TVA is co-firing biogas 
methane at the Allen Fossil Plant located in Memphis, Tennessee. The 
biogas is a product of wastewater treatment anaerobic digestion at the 
municipal treatment facility for the City of Memphis. The generation 
from this installation is part of TVA's Green Power Switch generation 
mix.
    We are also involved in advanced bio-energy research including a 
joint biomass demonstration project with EPRI and Southern Company and 
an animal waste project where the resulting biogas will be utilized to 
fuel a Stirling engine for power generation.

    Question 8. TVA has a voluntary program for customers to support 
renewable energy called the Green Power Switch. What plans does TVA 
have to develop renewable energy other than the voluntary Green Power 
Switch program in the near future? Please explain any plans in detail.
    Response. The Green Power Switch program has helped us learn more 
about the potential for solar, wind and methane gas generation in the 
Valley. TVA's ongoing hydro modernization efforts and biomass co-firing 
projects have helped position TVA to optimize the use of the Valley's 
available renewable sources.
    The TVA Strategic Plan promotes the increase in renewable 
generation beyond the Green Power Switch. TVA staff is currently 
developing a long term strategy to reduce the carbon intensity of the 
TVA generation fleet.

    Question 9. TVA announced a new commitment to energy efficiency in 
its most recent strategic plan. Will you share with us the details of 
the specific energy efficiency goals in this plan and how they will be 
met?
    Response. As part of the Strategic Plan which we developed over the 
last year, we stated that ``TVA will strive to be a leader in energy 
efficiency improvements and peak demand reduction over the next five 
years.'' We also stated in the Strategic Plan that becoming a leader in 
energy efficiency will require a cooperative effort between TVA, its 
distributors and end-use consumers, along with direct-serve customers.
    If I am re-appointed I will work with the TVA staff and our 
stakeholders in the Valley to develop a detailed five year plan that 
has a goal to reduce energy consumption by approximately 1,200 MW by 
the year 2013. This plan will also explore additional reductions in the 
years beyond 2013. In addition, we expect to reduce energy consumption 
by 64 MW in FY08 by enhancing existing energy efficiency programs and 
developing new pilot programs.

    Question 10. Many utilities are now viewing energy efficiency as an 
important recourse to meet new demand. What are your views on advancing 
energy efficiency investments at TVA? Do you view TVA as a leader in 
this effort?
    Response. TVA's load is expected to grow approximately two percent 
each year over the next 10 years. That equates to about 750 MW per 
year. In order to meet that type of demand growth TVA will not only 
need to add additional generation but will have to aggressively 
develop, promote, and implement programs to slow that growth. Those 
programs will require a significant investment in resources to achieve. 
The plan that TVA is currently developing for energy efficiency and 
demand response will outline the resources required to meet our goals.
    Over the years TVA has had a number of programs designed to improve 
energy efficiency and reduce load growth. With energy demand in the 
Valley at an all-time high, the board has made a renewed commitment to 
position TVA as a leader in energy efficiency and demand reduction. 
Addressing energy efficiency is also a personal priority of mine.

    Question 11. A recent utility industry collaborative produced a 
National Action Plan on Energy Efficiency. It concludes that utilities 
with ``best practices'' spend about 1% of their annual revenues on 
energy efficiency investments. TVA recently announced a $20 million 
dollar annual investment toward energy efficiency, yet TVA's annual 
revenues for 2008 are expected to be $9.7 billion dollars. One percent 
would exceed $97 million dollars annually. Can you explain this 
shortfall? What are your thoughts on increasing TVA's investment?
    Response. The $22 million is not intended to reflect TVA's long 
term commitment to reduce load growth. For FY2008 the energy efficiency 
budget has two objectives. The first is to work with our stakeholders 
to develop a 5-year plan with a reduction goal of about 1,200 MW over 
that time period. The second objective is to meet our current business 
plan goal of reducing demand by 64 MW through enhancement of TVA's 
existing efficiency programs and developing new pilot programs.
    TVA is a member of the National Action Plan for Energy Efficiency 
with the participation of our Vice President for Energy Efficiency and 
Demand Response on its Leadership Group.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      Responses by William H. Graves to Additional Questions from 
                             Senator Boxer
    Question 1. TVA is one of our nation's largest emitters of carbon 
dioxide, emitting over 100 million tons annually. As the U.S. Senate 
Environment and Public Works Committee (EPW) looks at addressing global 
warming, please explain what strategies TVA is implementing to reduce 
carbon emissions and what additional policies you would support to 
reduce TVA's greenhouse gas emissions.
    Response. As a resident of Memphis, Tennessee and a current TVA 
board member, I have a tremendous interest in seeing that the air is 
cleaner for the next generation of citizens in the Tennessee Valley. 
The new nine-member, part-time board of TVA serves to function as a 
high-level policy setting entity, and in that capacity the board 
strives to articulate strategies that guide TVA management and staff in 
their day to day business operations. I can assure you that the current 
board is committed to implementing strategies to reduce greenhouse gas 
emissions.
    In 1995, TVA was the first utility to partner with the Department 
of Energy to participate in its newly created program, Climate 
Challenge. As a result of this program, TVA has reduced, sequestered or 
avoided more than 305 million tons of CO<INF>2</INF>.
    TVA has also been a participant in the President's Climate VISION 
program, which calls on the electric utility sector to help meet a 
national goal of reducing the greenhouse gas intensity of the U.S. 
economy by 18% from 2002-2012.
    Going forward, the TVA board has expressed interest in pursuing 
voluntary actions in two pivotal areas to reduce carbon emissions: 
notably expanding the diversity in our electric generation mix with 
safe, clean, zero-emission power; and reducing emissions through 
increased energy efficiency.
    In June, TVA restarted Unit 1 at Browns Ferry Nuclear Plant in 
northern Alabama, the first U.S. nuclear unit to be brought on-line in 
the 21st century. Browns Ferry Unit 1 is expected to initially provide 
additional generating capacity of approximately 1,150 megawatts and 
eventually will produce 1,280 megawatts.
    In addition, the board recently approved the completion of Unit 2 
at the Watts Bar Nuclear Plant in Spring City, Tennessee. The operation 
of Watts Bar Unit 2 would add another 1,170 megawatts of non-
CO<INF>2</INF> emitting generation to the TVA system.
    As we increase capacity, the board is mindful of the need to 
increase energy efficiency and conservation. TVA has begun this effort 
at home, so to speak, in TVA buildings with the use of energy efficient 
lighting, temperature set-backs, high efficiency motors, occupancy 
sensors, heat pumps, passive solar heating and automatically turning 
off lights in office spaces.
    I assure you that I will remain a strong voice for these issues 
should I be confirmed.

    Question 2. Does TVA have any plans to retire any older inefficient 
coal units in the Agency's current business plan? If so, what units 
and/or locations are being considered?
    Response. Existing coal assets play a large and important role in 
meeting the energy needs of the Tennessee Valley, and in supporting 
energy needs and energy independence for the entire United States. 
TVA's long-term capacity plan includes a ``placeholder'' for retirement 
of one of the older, less efficient fossil plants in the post 2020 
timeframe.
    The board has said before that it is committed to retiring higher 
emitting fossil plants if energy efficiency efforts result in lower 
demand than currently forecasted. If demand continues to grow, 
retirements of existing generating assets would have to be replaced by 
investments in new generating assets to meet the growing needs of the 
Valley.
    Next year, TVA will celebrate its 75th anniversary, a significant 
milestone. As a board member, I will continue to encourage adding clean 
energy sources to the generation portfolio and encourage energy 
efficiency, all the while preparing for the continued demands on our 
system with projected growth of two percent each year for the 
foreseeable future.

    Question 3. Has TVA looked at fossil fuel electricity with carbon 
sequestration technology for the TVA system? If so, what units and/or 
locations are being considered?
    Response. TVA is a member of the Southeast Regional Carbon 
Sequestration Partnership, one of seven teams participating in this 
Department of Energy-sponsored program. TVA also supports the 
sequestering of greenhouse gases through the UtiliTree and PowerTree 
Carbon Companies, which are developing reforestation projects in the 
Lower Mississippi River Valley and elsewhere.
    Additionally, TVA participates in the Coal Combustion Products 
Partnership program. This program is a cooperative effort that promotes 
the beneficial use of coal combustion products to reduce greenhouse 
gases and the amount of material sent to disposal.
    I will continue to encourage TVA management and staff to make 
decisions that give strong consideration to fuel mix and generation 
assets that are low or zero carbon emitting resources, continue to 
invest in research and development on low carbon generation options, 
carbon reduction, carbon capture and sequestration technologies.

    Question 4. Besides nuclear power what other technologies is TVA 
actively pursuing to control carbon emissions?
    Response. TVA is exploring the possibilities of reducing carbon 
intensity by increasing renewable generating capacity. Solar, wind, 
incremental hydro, biomass, and landfill gas are among the renewable 
sources that would be considered. Additionally, advanced clean and 
renewable technologies, such as low-head hydro, heat recovery systems, 
and end-user generation offsets will also be considered. TVA also 
continues to monitor the status of emerging technologies such as 
hydrogen, fuel cells, micro-turbines, and energy storage technologies.
    TVA participates in organizations such as the Coal Utilization 
Research Council (CURC), EPRI's Coal Fleet for Tomorrow program, and 
the Gasification Technologies Council (GTC). These organizations 
promote the research and development of clean coal technology.

    Question 5. Does TVA support a renewable energy standard? If yes: 
Please explain how this fits into TVA's plan to reduce carbon 
emissions. If no: Why not?
    Response. In the 2007 Strategic Plan, the TVA board recognizes that 
renewable energy will play an increasingly important role in TVA's 
future generation. TVA staff is currently developing a long term 
strategy to reduce the carbon intensity of the TVA generation fleet. 
This includes evaluating potential Valley resources, technologies and 
opportunities that will help us and our power distributors meet 
potential RES requirements.

    Question 6. A recent TVA funded study by the University of 
Tennessee (``Resources and Employment Impact of a Renewable Portfolio 
Standard in the Tennessee Valley Authority Region'') indicated 
significant job creation in the TVA service area if a renewable energy 
standard was enacted. Specially, the study found that under a Federal 
RPS requiring 10% by 2020 would produce nearly 45,000 jobs in the TVA 
service area. The majority of the requirement could be met by co-firing 
biomass at existing TVA coal-fired power plants. Are the members of the 
TVA Board aware of this study? Does this study affect TVA's view of a 
renewable energy standard? If so how?
    Response. I have not been briefed on the report. However, I look 
forward to hearing the results of the study and how it may impact TVA's 
long term strategy addressing renewable assets in the Valley.

    Question 7. TVA has a strong history in doing research on bio-
energy opportunities. What is the current state of your programs 
looking at using biomass for power generation, including co-firing at 
your existing facilities as the above study identified as an 
opportunity.
    Response. TVA is currently conducting commercial-scale, low-level 
biomass co-firing at Colbert Fossil Plant in North Alabama. Co-firing 
at Colbert has provided TVA with benefits in the area of fuel diversity 
and fuel cost management. We are evaluating the feasibility of 
expanding wood waste co-firing at other TVA fossil plants.
    In addition to the wood waste co-firing, TVA is co-firing biogas 
methane at the Allen Fossil Plant located in Memphis, Tennessee. The 
biogas is a product of wastewater treatment anaerobic digestion at the 
municipal treatment facility for the City of Memphis. The generation 
from this installation is part of TVA's Green Power Switch generation 
mix.
    We are also involved in advanced bio-energy research including a 
joint biomass demonstration project with EPRI and Southern Company and 
an animal waste project where the resulting biogas will be utilized to 
fuel a Stirling engine for power generation.

    Question 8. TVA has a voluntary program for customers to support 
renewable energy called the Green Power Switch. What plans does TVA 
have to develop renewable energy other than the voluntary Green Power 
Switch program in the near future? Please explain any plans in detail.
    Response. The Green Power Switch program has helped us learn more 
about the potential for solar, wind and methane gas generation in the 
Valley. TVA's ongoing hydro modernization efforts and biomass co-firing 
projects have helped position TVA to optimize the use of the Valley's 
available renewable sources. The TVA Strategic Plan promotes the 
increase in renewable generation beyond the Green Power Switch. TVA 
staff is currently developing a long term strategy to reduce the carbon 
intensity of the TVA generation fleet.

    Question 9. TVA announced a new commitment to energy efficiency in 
its most recent strategic plan. Will you share with us the details of 
the specific energy efficiency goals in this plan and how they will be 
met?
    Response. As part of the Strategic Plan which we developed over the 
last year, we stated that ``TVA will strive to be a leader in energy 
efficiency improvements and peak demand reduction over the next five 
years.'' We also stated in the Strategic Plan that becoming a leader in 
energy efficiency will require a cooperative effort between TVA, its 
distributors and end-use consumers, along with direct-serve customers.
    If I am re-appointed I will work with the TVA staff and our 
stakeholders in the Valley to develop a detailed five year plan that 
has a goal to reduce energy consumption by approximately 1,200 MW by 
the year 2013. This plan will also explore additional reductions in the 
years beyond 2013. In addition, we expect to reduce energy consumption 
by 64 MW in FY08 by enhancing existing energy efficiency programs and 
developing new pilot programs.

    Question 10. Many utilities are now viewing energy efficiency as an 
important recourse to meet new demand. What are your views on advancing 
energy efficiency investments at TVA? Do you view TVA as a leader in 
this effort?
    Response. TVA's load is expected to grow approximately two percent 
each year over the next 10 years. That equates to about 750 MW per 
year. In order to meet that type of demand growth TVA will not only 
need to add additional generation but will have to aggressively 
develop, promote, and implement programs to slow that growth. Those 
programs will require a significant investment in resources to achieve. 
The plan that TVA is currently developing for energy efficiency and 
demand response will outline the resources required to meet our goals.
    Over the years TVA has had a number of programs designed to improve 
energy efficiency and reduce load growth. With energy demand in the 
Valley at an all-time high, the board has made a renewed commitment to 
position TVA as a leader in energy efficiency and demand reduction.

    Question 11. A recent utility industry collaborative produced a 
National Action Plan on Energy Efficiency. It concludes that utilities 
with ``best practices'' spend about 1% of their annual revenues on 
energy efficiency investments. TVA recently announced a $20 million 
dollar annual investment toward energy efficiency, yet TVA's annual 
revenues for 2008 are expected to be $9.7 billion dollars. One percent 
would exceed $97 million dollars annually. Can you explain this 
shortfall? What are your thoughts on increasing TVA's investment?
    Response. The $22 million is not intended to reflect TVA's long 
term commitment to reduce load growth. For FY2008 the energy efficiency 
budget has two objectives. The first is to work with our stakeholders 
to develop a 5-year plan with a reduction goal of about 1,200 MW over 
that time period. The second objective is to meet our current business 
plan goal of reducing demand by 64 MW through enhancement of TVA's 
existing efficiency programs and developing new pilot programs.
    TVA is a member of the National Action Plan for Energy Efficiency 
with the participation of our Vice President for Energy Efficiency and 
Demand Response on its Leadership Group.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  

                                  <all>

</pre></body></html>
